APPENDICES

1a
APPENDIX A
SUPREME COURT OF LOUISIANA
NO. 2019-0C-1503
NO. 2019-0C-1508
TEXAS BRINE CO., LLC AND
UNITED BRINE SERVICES CO., LLC
V.
RODD NAQUIN, IN HIS OFFICIAL CAPACITY
AS CLERK OF COURT FOR THE FIRST CIRCUIT
COURT OF APPEAL FOR THE STATE OF LOUISIANA
c/w
GARY N. SOLOMON, STEPHEN H. JONES, TERRY D.
JONES, AND HEALTH SCIENCE PARK, L.L.C.
CENTERPOINT ENERGY RESOURCES CORP., ET AL.
V.
RODD NAQUIN, IN HIS CAPACITY AS CLERK OF
COURT FOR THE FIRST CIRCUIT COURT OF APPEAL
FOR
THE STATE OF LOUISIANA
ON WRIT OF MANDAMUS TO THE COURT OF
APPEAL,
FIRST CIRCUIT
PER CURIAM ∗

∗

Retired Judge James Boddie Jr., appointed Justice ad hoc,
sitting for Justice Marcus R. Clark. Chief Judge Susan M.
Chehardy of the Court of Appeal, Fifth Circuit, appointed Justice
ad hoc, sitting for Crain J., recused. Hughes, concurs in part, and
dissents in part. Crichton, J., dissents and assigns reasons.
Johnson, CJ, additionally concurs and assigns reasons Genovese,
J, dissents and assigns reasons.

2a
In these consolidated actions, we are called upon
to decide whether a writ of mandamus should issue to
the clerk of an appellate court for the purpose of
directing the clerk to comply with certain rules for the
random assignment of panels and cases in that court.
For the reasons which follow, we deny the petitions for
writ of mandamus.
FACTS AND PROCEDURAL HISTORY

On July 31, 2019, Gary N. Solomon, Stephen H.
Jones, Terry D. Jones, and Health Science Park, LLC
(collectively referred to hereinafter as the “Solomon
plaintiffs”) filed a petition for mandamus in the Court
of Appeal, First Circuit (hereinafter referred to as the
“First Circuit”) against Rodd Naquin, in his capacity
as the Clerk of Court for the First Circuit Court of
Appeal for the State of Louisiana (hereinafter referred
to as “clerk”). The petition sought an order directing
the clerk “to follow the statutory mandate to randomly
allot each appeal and each writ application to appeal
and writ panels. . . .”
On August 9, 2019, Texas Brine Co., LLC and
United Brine Services Co., LLC (collectively referred
to hereinafter as “Texas Brine”) filed a similar
mandamus petition in the First Circuit against the
clerk. As in the Solomon petition, Texas Brine’s
petition sought an order directing the clerk “to follow
the statutory mandate to randomly allot each appeal
and each writ application to appeal and writ panels. .
. .”
The First Circuit issued en banc orders recusing
the court from both actions. In incorporated reasons,
the orders explained recusal of the entire court was
mandated because each petition “when read as a
whole, seeks to mandamus the court itself. . . .”

3a
On September 20, 2019, we exercised our plenary
supervisory jurisdiction under La. Const. Art. V, §5(A)
to assume jurisdiction over both actions. 1 We further
directed the First Circuit to “submit a per curiam to
this court detailing the internal allotment procedures
for appeals and applications for supervisory writs in
that court.”
On October 4, 2019, the First Circuit filed a per
curiam pursuant to this court’s order. The per curiam
was signed by every member of the court of appeal,
with Judge Crain concurring with reasons 2 and Judge
McDonald concurring without reasons. The per
curiam references the court of appeal’s internal rules,
and those rules referenced are attached to the per
curiam.
In its three-page per curiam, the First Circuit
explained its allotment procedures were changed in
This court had initially transferred the actions to the Court of
Appeal, Fourth Circuit upon the recusal of the First Circuit. The
September 20, 2019 order vacated this order, and directed the
records be transferred directly to this court.
2
Judge Crain stated:
I agree the facts set forth in the per curium are accurate
and our court is properly responding to the Supreme
Court’s directive. I write separately to emphasize the
underpinning of the parties’ arguments is the
assumption that the legislative branch, as opposed to
the judicial branch, has the constitutional authority to
dictate the manner in which cases are assigned within
the court. The assumption is not only arguably flawed,
but also threatens the ability of our courts to
independently perform their adjudicative functions.
Furthermore, there has been no constitutional
challenge asserted as to this court’s allotment
procedures.
1

4a
2019 after the 2018 amendment to La. R.S. 13:319. 3
Prior to the 2019 change, the court used an allotment
process, applicable to appeals only, which it explained
as follows:
Prior to legislative amendment in 2018, La.
R.S. 13:319 provided that “[e]ach civil and
criminal proceeding and each application for
writs shall be randomly assigned by the clerk,
subject to the direct supervision of the court.”
Thus, with regard to the random allotment of
appeals, prior to the 2018 amendment and in
compliance
with
the
pre-amendment
language of the statute, where an appeal
arose from a judgment in a judicial district
court proceeding from which a prior appeal
had previously arisen, the subsequent appeal
in that same district court case number
(proceeding) was assigned to the same
primary judge who had authored the prior
appeal in that district court proceeding,
sitting with that primary judge’s current
panel.
However, by Acts 2018, No. 658, the
Legislature amended La. R.S. 13:319 to
change the word “proceeding” to “appeal,”
La. R.S. 13:319, as amended by Acts 2018, No. 658, § 1, effective
August 1, 2018, provides:
Each civil and criminal appeal and each application for
writs shall be randomly assigned by the clerk, subject
to the direct supervision of the court. [emphasis added].

3

Prior to that time, the statute provided:
Each civil and criminal proceeding and each
application for writs shall be randomly assigned by the
clerk, subject to the direct supervision of the court.
[emphasis added].

5a
thus now providing that” [e]ach civil and
criminal appeal and each application for
writs shall be randomly assigned by the clerk,
subject to the direct supervision of the court.”
Following this legislative amendment, the
First Circuit reviewed and amended its
Internal Rules effective July 10, 2019, as
specifically codified into the Court’s Internal
Rules on August 9, 2019, to clarify that each
appeal is randomly allotted, regardless of
prior appeals in the First Circuit arising from
the same district court proceeding bearing
that district court case number. See Internal
Rule 2.3d(1)(c). [emphasis in original].
Going forward, the First Circuit stated it adopted
rules requiring a procedure for random allotment by
the Clerk’s office of both appeals (Internal Rule 2
.3(d)(1)(c)) and writ applications (Internal Rules
3.9(a)), 4 with consideration for recusals and
emergencies.
4

Internal Rule 3.9(a)(1) further provides:
3.9a(1) Writ applications. Other than the belowdescribed procedure for emergency or expedited writ
applications, the Clerk’s Office shall randomly allot
writ applications in court of appeal docket number
order, in groups of 4, from 2 pools.
3.9a(1)(a) Pool 1 shall consist of writ applications
entered into the Court’s case management system from
the 1st day of the month, until the 15th day of the
month plus all writ applications not previously allotted.
Pool 2 shall consist of writ applications entered into the
Court’s case management system from the 16th day of
the month, until the last day of the month plus all writ
applications not previously allotted.

6a
The First Circuit also explained its rules require
random allotment after recusal of a member of a
panel:
Appeals are randomly allotted to a panel by
the clerk’s office, as described above, taking
into account any standing recusal a judge may
have. If a member of panel has a standing
recusal applicable to a particular appeal, the
matter is randomly allotted to one of the
remaining panels. See Rule 2.3d(1)(c)(i).
However, if more than one panel must be
removed from the allotment process due to
standing recusals, the clerk of court, utilizing
two clerk’s office staff members, randomly
draws a special panel by removing the judges
with the standing recusals from the selection
process and then randomly drawing the
special panel from the remaining judges. See
Internal Rules 2.3d(1)(c)(ii).
If a judge is later recused following the initial
random allotment of an appeal or writ
application, the judge is replaced by the
assignment of another judge, by random
allotment. The clerk of court utilizes two
clerk’s office staff members to randomly select
the replacement judge. See Internal Rules
2.3d(1)(c)(i) and 3.9f(1).
Finally, the per curiam discusses allotments for
emergency filings:

3.9a(1)(b) The clerk’s office shall make note of the two
people present for the allotment process. The clerk’s
office shall provide the list of writ applications and the
allotments to Central Staff after each pool’s allotment.

7a
The allotment process for writs is also by
random allotment, as set forth in Rule 3.9.
Writ applications designated for emergency or
expedited consideration are allotted to the
writ panel on duty as the nature of the
emergency so requires. See Internal Rule
3.9a.
On October 21, 2019, we issued an order directing the
First Circuit to submit a supplemental per curiam
“discussing whether the court’s allotment procedures
incorporate any geographical considerations. . .”
Pursuant to that order, the First Circuit
submitted a supplemental per curiam on October 29,
2019. The supplemental per curiam draws a
distinction between random allotment of appeals/writ
applications and the drawing of panels:
The random allotment of appeals and writ
applications to a particular panel is entirely
independent of the process of composing
appellate panels and writ duty panels. The
First Circuit Court of Appeal’s procedures for
the allotment of appeals and writs, as
detailed in this court’s prior per curiam
delivered to the Supreme Court on October 4,
2019, do not incorporate any geographical
considerations, as such allotments are made
by random assignment, in accordance with
applicable statutes.
As to the drawing of panels, the composition
of panels is reserved to the courts of appeal by
Louisiana Constitution, Article V, Section
8(A). Thus, the constitutional provision
requires only that the First Circuit sit in
panels of at least three judges selected
according to rules adopted by the Court, as the

8a
composition of such panels is specifically
reserved to each court, notwithstanding any
statutory enactment. The rules adopted by the
First Circuit establish that the Court sits in at
least six appeal cycles annually, with four
regular panels of three judges each,
throughout the court year. The Court’s
procedures for the composition of regular
panels is random within the geographic
divisions of the court, as more fully described
in the following paragraph. The composition
and terms of the Court’s panels and the
schedule of oral argument dates and writ
conference dates are formulated and
recommended by the Case Flow and
Scheduling Committee, subject to approval of
the Conference of the First Circuit. See
Internal Rule 2.1a. [emphasis in original].
The supplemental per curiam then discusses the
composition of the panels:
By longstanding practice, and in accord with
the constitutional authority specifically
reserving such to each court of appeal, absent
recusals, each regular panel of the First
Circuit is comprised of one member randomly
chosen through mechanical means from the
four members of each of the Court’s three
election districts. The random composition of
the initial three judge panels is adopted
pursuant to a five-year plan of rotation of
members among the panels. To further ensure
random composition of the panels, panel
members of particular panels do not sit as an
intact panel in the following year. The four
randomly drawn regular panels also sit on
writ duty throughout the Court’s six appeal

9a
cycles. Summer writ duty panels, which rotate
duty on a two-week basis, are established by
seniority, without regard to the allotment of
any writ or appeal, to account for summer
scheduling. Rotation of the composition of the
panels occurs in August of each year.
Following receipt of the supplemental per curiam, we
issued a special briefing order which consolidated
both mandamus actions and scheduled them for oral
argument.
DISCUSSION

Propriety of the Mandamus Petitions
Prior to discussing the merits of the mandamus
petitions, we must first consider whether the
mandamus remedy is procedurally appropriate under
the facts presented.
Pursuant to La. Code Civ. P. art. 3863, “[a] writ of
mandamus may be directed to a public officer to
compel the performance of a ministerial duty required
by law. . . .” We have explained mandamus “is an
extraordinary remedy, to be applied where ordinary
means fail to afford adequate relief.” Hoag v. State,
2004-0857 p. 6 (La. 12/1/04), 889 So. 2d 1019, 1023. It
is well settled “that the only circumstances under
which courts may cause a writ of mandamus to issue
is where the actions sought to be performed by the
legislature are purely ministerial in nature.” Id.
Mandamus is to be used only when there is a clear
and specific legal right to be enforced or a duty that
ought to be performed. It never issues in doubtful
cases. Bonvillian v. Dep’t of Ins., 2004-0332, p. 3 (La.
App. 1 Cir. 2/16/05), 906 So.2d 596, 599, writ not
considered, 2005-0776 (La. 5/6/05), 901 So.2d 1081;
Wiginton v. Tangipahoa Parish Council, 2000-1319, p.

10a
4 (La. App. 1 Cir. 6/29/01), 790 So.2d 160, 163, writ
denied, 2001-2541 (La. 12/07/01), 803 So.2d 971. In
mandamus proceedings against a public officer
involving the performance of an official duty, nothing
can be inquired into but the question of duty on the
face of the statute and the ministerial character of the
duty he is charged to perform. Plaisance v. Davis,
2003-0767, p. 11 (La. App. 1 Cir.11/07/03), 868 So.2d
711, 718, writ denied, 2003-3362 (La. 2/13/04), 867
So.2d 699.
Although they differ in their specific allegations,
both petitions for writ of mandamus generally seek to
compel the clerk to comply with La. R.S. 13:319, which
provides, “[e]ach civil and criminal appeal and each
application for writs shall be randomly assigned by
the clerk, subject to the direct supervision of the
court,” and La. Code Civ. P. art. 2164.1, which
provides, “[t]he provisions of R.S. 13:319 shall be
applicable to assignment of appellate panels.”
In order for mandamus to apply, we must
determine whether these provisions impose a
ministerial duty on the clerk. A ministerial duty has
been defined as “a simple, definite duty, arising under
conditions admitted or proved to exist, and imposed
by law.” Hoag, 889 So.2d at 1024. An examination of
these provisions indicate neither La. Code Civ. P. art.
2164.1 nor La. R.S. 13:319 prescribe any definite
duties on the clerk for assignment of appeals or writ
applications other than the provisions in La. R.S.
13:319 requiring such cases must be “randomly
assigned.” In this regard, the language of La. R.S.
13:319 stands in clear contrast to the provisions of La.
Code Civ. P. art. 253.1, which sets forth explicit
procedures for random assignment of cases in the

11a
district courts. 5 In the absence of any specific or
definite procedures for random assignment of cases in
the appellate court, the statute gives the clerk
discretion to select an appropriate method to
randomly assign such matters. If a public officer is
vested with any element of discretion, mandamus will
not lie. Hoag, 889 So.2d at 1024. Therefore, on this
ground alone, the petitions for writ of mandamus
must fail.
Nonetheless, we recognize the true intent of
petitioners is to determine whether the First Circuit’s
assignment procedure comports with generally
accepted principles of random allotment. Although it
was perhaps error for petitioners to urge this relief
through writs of mandamus, our jurisprudence has
long declined to place form over substance, and
instead requires courts to look to the facts alleged to
discover what, if any, relief is available to the parties.
See, e.g., Reynolds v. Brown, 2011-0525, p. 6 (La. App.
5 Cir. 12/28/11), 84 So.3d 655, 659.
La. Const. art. V, § 5(A) grants this court “general
supervisory jurisdiction over all other courts.” It is
well recognized the constitutional grant of
5

La. Code Civ. P. art. 253.1 provides:
All pleadings filed shall be randomly assigned to a
particular section or division of the court by either of
the following methods:
(1) By drawing indiscriminately from a pool containing
designations of all sections or divisions of court in the
particular jurisdiction in which the case is filed.
(2) By use of a properly programmed electronic device
or computer programmed to randomly assign cases to
any one of the sections or divisions of court in the
particular jurisdiction in which the case is filed.

12a
supervisory authority to this court is plenary,
unfettered by jurisdictional requirements, and
exercisable at the complete discretion of the court.
Unwired Telecom Corp. v. Par. of Calcasieu, 20030732, p. 8 (La. 1/19/05), 903 So.2d 392, 400 (on
rehearing).
Accordingly, in the exercise of supervisory
authority, we will entertain petitioners’ arguments on
the question of whether the rules of the First Circuit
are consistent with the statutory and jurisprudential
requirements for random assignment of cases.
Petition of Texas Brine
Texas Brine’s petition alleges the First Circuit
follows “an internal policy of allocating judges to
appellate panels according to the geographic makeup
of the First Circuit’s election districts—allocating one
judge from each district to each panel.” According to
Texas Brine, this policy “dramatically limits the
number of unique panels that can hear writs, appeals,
and contested motions before the First Circuit from
220 unique combinations to 64 unique combinations—
a reduction of approximately 70.9%.” It concludes this
policy is an “affront to the requirement of
randomness.”
Although this policy has apparently not been
formally codified by the First Circuit, its October 29,
2019 supplemental per curiam explains the First
Circuit, by “longstanding practice,” forms panels
“comprised of one member randomly chosen through
mechanical means from the four members of each of
the Court’s three election districts.” The court sits in
at least six appeal cycles annually, with four regular
panels of three judges each, throughout the court
year.

13a
At the outset, it is important to recognize the
policy challenged by Texas Brine relates to the
selection of appellate panels, rather than the
assignment of cases to those panels. This distinction
is significant, because the selection of appellate panels
is governed by La. Const. Art. V, § 8(A), which
provides:
Section 8(A) Circuits, Panels. The state shall
be divided into at least four circuits, with one
court of appeal in each. Each court shall sit in
panels of at least three judges selected
according to rules adopted by the courts.
[emphasis added].
This provision expressly grants the courts of appeal
the authority to adopt rules for the selection of panels.
However, Texas Brine submits the Legislature
recognized selection of panels must be done through
random assignment through its enaction in 2018 of
La. Code Civ. P. art. 2164, which states the random
assignment provisions of R.S. 13:319 “shall be
applicable to assignment of appellate panels.”
The question of whether the legislature may
impose limitations or restrictions on the rule-making
authority granted to the courts of appeal under La.
Const. Art. V, § 8(A) is not raised by these pleadings,
and we therefore express no opinion on this issue.
Rather, it suffices to say we have long recognized due
process requires assignments be done on a random or
rotating basis. State v. Simpson, 551 So.2d 1303, 1304
(La. 1989) (on rehearing). La. Code Civ. P. art. 2164.1
has the effect of recognizing and codifying this
fundamental aspect of our law. Based on our review,
we see nothing in the First Circuit’s rules for selection
of panels which runs counter to the principles of

14a
random assignment from a statutory or due process
standpoint.
As discussed earlier, La. R.S. 13:319 requires
appeals and writ applications to be “randomly
assigned,” but does not provide any specific
procedures or requirements for such random
assignments. Similarly, neither the statutes nor
jurisprudence mandate any specific methods for
random selection of judges for appellate panels. In the
absence of any specific rules or procedures for random
assignments, a system which results in random
assignments is not invalid simply because it is
possible to conceive of a more random system.
In addressing here is no random selection among
the twelve members of random allotment, our
jurisprudence has never required an allotment system
to be purely random. In State v. Cooper, 2010-2344, p.
13 (La. 11/16/10), 50 So.3d 115, 126, we explained:
Our inquiry here is not to determine whether
the district judges selected the “best” or
“easiest” method of allotting criminal cases.
Our focus here is only on whether the 2010
Plan which was adopted violates the law. We
have established a framework in the uniform
rules whereby district judges may tailor their
case allotment plans in ways that will take
into consideration the unique characteristics
of their judicial district and the resources
available to them. In our goal of ensuring
due process is provided to litigants, we
have never required an allotment system
which was purely random. [emphasis
added].
Our cases in this area have instead focused on
whether assignments are subject to intentional

15a
manipulation by either the courts or litigants. See,
e.g., State v. Sprint Communications Co., 1996-3094,
p. 4 (La. 9/9/97), 699 So.2d 1058, 1062 (explaining
interdivisional transfers of cases between judges after
the cases were randomly assigned “would defeat the
purpose of the statute and render it meaningless”);
Simpson, 551 So.2d at 1304 (explaining criminal cases
must be allotted for trial using a procedure “which
does not vest the district attorney with power to
choose the judge to whom a particular case is
assigned.”). However, we have declined to find the
principles of random assignment are violated where
there is a mere potential the assignments might be
subject to manipulation. State v. Nunez, 2015-1473,
2015-1486, p. 13 (La. 1/27/16), 187 So.3d 964, 973
(explaining it would be “burdensome and untenable”
to invalidate an assignment system for “merely being
susceptible to manipulation”).
While Texas Brine argues the use of a
geographical component may result in panel
assignments which are not equal from a purely
mathematical standpoint, there is no indication these
assignments are not random. As explained in the First
Circuit’s October 29, 2019 per curiam, each panel is
created by randomly selecting one member through
mechanical means from the four members of each of
the court’s three election districts. To further ensure
random composition of the panels, panel members of
particular panels do not sit as an intact panel in the
following year.
As we explained in Cooper, it is not our role to
determine whether a particular allotment system is
the best or easiest method available, nor have we
required the adoption of systems resulting in a purely
random distribution of cases among judges. Without
passing on the wisdom of the First Circuit’s

16a
assignment system, we find the system is reasonably
designed to select judges for panels in a random
fashion which does not permit intentional
manipulation by either the judges or the litigants.
Appeals and writ applications are then randomly
assigned among these panels, further ensuring there
is no pattern or predictability as to which judges hear
specific cases. This procedure comports with statutory
and jurisprudential requirements for random
assignment. 6
Accordingly, Texas Brine’s petition for writ of
mandamus is denied.
The Solomon Plaintiffs’ Petition
The Solomon plaintiffs’ mandamus petition is
premised on the First Circuit’s practice, used between
2006-2018, of assigning subsequent appeals or
applications for writs to a panel which included a
judge who sat on the original panel and may have
taken the lead or authored the first opinion/ruling in
the case. Specifically, the Solomon plaintiffs alleged:
The First Circuit Clerk of Court presumably
assigns the first appeal or writ application in
a case to a sitting panel by random allotment.
Upon information and belief, however, and
from the history of [the Solomon plaintiffs’]
dealings with this Court from 2006 through
2018 and supported by the summary chart
attached to Exhibit A and the table provided
above, each subsequent application for a writ
Texas Brine argues the First Circuit’s system results in
circumstances
where
a
single
judge
might
serve
disproportionately on panels involving separate appeals from the
same litigation, thereby creating the potential for “confirmation”
bias on the part of that judge. However, any questions of bias are
more properly raised through a motion to recuse.

6

17a
or appeal in that case is then assigned by the
Clerk’s office to a panel that includes a judge
who sat on the original panel and who may
have taken the lead or authored the first
opinion/ruling in the case. That judge, and the
panel to which he or she is yearly assigned,
will receive all subsequent writs or appeals in
the case. Regardless of any efficiency this
practice may theoretically provide the Court,
it is antagonistic to the very purpose of
random allotment - to ensure that freedom
from bias stays the norm, which can only be
accomplished when true neutral and random
assignment of cases is the rule. The conscious
or unconscious mindset about a case with
which a judge has history cannot help but
color the lenses through which the judge views
issues subsequently presented in the case.
True random allotment will not guarantee
that a particular judge will not be assigned to
subsequent matters but it will certainly even
the odds and provide a more level playing field
for the parties.
The Solomon plaintiffs’ petition for mandamus was
filed on July 31, 2019. On August 9, 2019, the First
Circuit amended its internal rules to clarify that each
appeal is randomly allotted, regardless of any prior
appeals arising from the same case. In its current
version, the First Circuit’s rule for allotment of
appeals, Internal Rule 2.3d(1)(c), provides, in
pertinent part:
2.3d(1)(c) Random allotment process. The
clerk’s office shall use two clerk’s office staff
members for the random allotment of
each civil and criminal appeal to a panel,
taking into account all standing recusals, and

18a
to thereafter designate a primary (or writing)
judge. [emphasis added].
Similarly, the rule for allotment of writ applications,
Internal Rule 3.9a, provides:
3.9a Allotment, After each writ application is
given an appellate docket number, each writ
application shall be randomly allotted to a
panel in accordance with Louisiana Revised
Statute 13:319. [emphasis added].
In Cat’s Meow v. City of New Orleans through Dept. of
Finance, 1998-0601, p. 8-9 (La. 10/20/98), 720 So.2d
1186, 1193-1194, we explained a dispute can become
moot if the challenged provision is amended during
the pendency of the suit:
According to Louisiana jurisprudence, an
issue is “moot” when a judgment or decree on
that issue has been “deprived of practical
significance” or “made abstract or purely
academic.”
Perschall v. State, 96-0322
(La.7/1/97), 697 So.2d 240; Louisiana
Associated Gen. Contractors, Inc., 669 So.2d at
1193; American Waste & Pollution Control
Co., 627 So.2d at 162. A case is “moot” when a
rendered judgment or decree can serve no
useful purpose and give no practical relief or
effect. Robin, 384 So.2d at 405. If the case is
moot, then “‘there is no subject matter on
which the judgment of the court can operate.’’”
St. Charles Parish Sch. Bd., 512 So.2d at 1171
(citing Ex parte Baez, 177 U.S. 378, 20 S.Ct.
673, 44 L.Ed. 813 (1900)). That is, jurisdiction,
once established, may abate if the case
becomes moot.
***

19a
When the challenged article, statute, or
ordinance has been amended or expired,
mootness may result if the change corrects or
cures the condition complained of or fully
satisfies the claim. Further, if it is concluded
that the new legislation was specifically
intended to resolve the questions raised by the
controversy, a court may find that the case or
controversy is moot. In such a case, there is no
longer an actual controversy for the court to
address, and any judicial adjudication on the
matter would be an impermissible advisory
opinion. [emphasis added].
In the instant case, the changes to Internal Rules
2.3d(1)(c) and 3.9a resolve the questions over
allotments raised by the Solomon plaintiffs. The
Solomon plaintiffs acknowledge the existence of this
rule change, but argue this court should nonetheless
consider their petition because there is a possibility
the First Circuit could change its rules again in the
future.
In State v. Rochon, 2011-0009, p. 11 (La. 10/25/11),
75 So.3d 876, 884 (footnote omitted), we recognized an
exception to the mootness doctrine for cases capable of
repetition, yet evading review. We explained that
“[u]nder this exception, a court may consider the
merits of a case that would otherwise be deemed moot
when the challenged action was in its duration too
short to be fully appealed prior to its cessation or
expiration and a reasonable expectation existed that
the same complaining party would be subjected to a
similar action.” Id.
We do not believe this exception is applicable
under the facts presented. While it is possible the
court of appeal could change these rules in the future,

20a
any opinion by this court at this time would be based
on speculative facts and would be advisory in nature.
By all indications, the First Circuit’s amended rules
were adopted for the purpose of bringing the court’s
rules into compliance with the 2018 legislation, and
we have no reason to believe the court will not
continue to adhere to the legislative requirements. 7
Accordingly, we deny the Solomon plaintiffs’
petition for writ of mandamus as moot.
DECREE

For the reasons assigned, the petitions for writ of
mandamus are hereby denied.

Although there is no formal requirement that the courts of
appeal publish their internal rules of assignments, we believe
that such publication would be useful in ensuring full
transparency and promoting confidence of attorneys and
litigants who appear before those courts. Therefore, we strongly
encourage all courts of appeal to codify and publish their internal
assignment rules on their respective websites.

7

21a
SUPREME COURT OF LOUISIANA
NO. 2019-0C-1503
NO. 2019-0C-1508
TEXAS BRINE CO., LLC AND
UNITED BRINE SERVICES CO., LLC
V.
RODD NAQUIN, IN HIS OFFICIAL CAPACITY
AS CLERK OF COURT FOR THE FIRST CIRCUIT
COURT OF APPEAL FOR THE STATE OF LOUISIANA
c/w
GARY N. SOLOMON, STEPHEN H. JONES, TERRY D.
JONES, AND HEALTH SCIENCE PARK, L.L.C.
CENTERPOINT ENERGY RESOURCES CORP., ET AL.
V.
RODD NAQUIN, IN HIS CAPACITY AS CLERK OF
COURT FOR THE FIRST CIRCUIT COURT OF APPEAL
FOR
THE STATE OF LOUISIANA
ON WRIT OF MANDAMUS TO THE COURT OF
APPEAL,
FIRST CIRCUIT

Hughes, J., concurs in part and dissents in part.
I do not find any problem in the inclusion of a
geographical factor in the initial allotment of cases by
the First Circuit. However, given that four of the
twelve judges of that court are unable to participate
in matters involving the sink-hole cases, I would refer
those cases to another circuit for resolution.

22a
SUPREME COURT OF LOUISIANA
NO. 2019-0C-1503
NO. 2019-0C-1508
TEXAS BRINE CO., LLC AND
UNITED BRINE SERVICES CO., LLC
V.
RODD NAQUIN, IN HIS OFFICIAL CAPACITY
AS CLERK OF COURT FOR THE FIRST CIRCUIT
COURT OF APPEAL FOR THE STATE OF LOUISIANA
c/w
GARY N. SOLOMON, STEPHEN H. JONES, TERRY D.
JONES, AND HEALTH SCIENCE PARK, L.L.C.
CENTERPOINT ENERGY RESOURCES CORP., ET AL.
V.
RODD NAQUIN, IN HIS CAPACITY AS CLERK OF
COURT FOR THE FIRST CIRCUIT COURT OF APPEAL
FOR
THE STATE OF LOUISIANA
ON WRIT OF MANDAMUS TO THE COURT OF
APPEAL,
FIRST CIRCUIT

GENOVESE, J., dissents in part and assigns the
following reasons:
I dissent from this per curiam with respect to
2019-0C-1503, as it employs a metamorphosis in
linguistics and lexicology by redefining the word
“random.” The issue in this case is what is the
definition of the word “random” in the phrase random
allotment as it pertains to the selection of members
serving on an appellate court panel. Louisiana
Constitution Article V, § 8(A), provides each court of

23a
appeal “shall sit in panels of at least three judges
selected according to rules adopted by the court.”
“Each civil and criminal appeal and each application
for writs shall be randomly assigned by the clerk,
subject to the direct supervision of the court.” La.R.S.
13:319 1 “The provisions of R.S. 13:319 shall be
applicable to assignment of appellate panels.”
La.Code Civ.P. art. 2164.1. 2
Let us first look at the Merriam-Webster
Dictionary, in service since 1828, which is one of
America’s most trusted dictionaries for English word
definitions, meanings, and pronunciations. The
Merriam-Webster Dictionary defines random as being
“without definite aim, direction, rule, or method.”
Another source, Dictionary.com, defines the word
random as “proceeding, made, or occurring without
definite aim, reason, or pattern.”
These definitions of random seem pretty clear to
me, and not one of these definitions recite any
restriction, qualification, or limitation in defining the
word random. That is what makes random, random.
And random is random, period. How much more clear
can it be?
The legal issue in this case is whether the First
Circuit Court of Appeal (1CCA) of this state employs
constitutionally and legislatively mandated random
allotment in its panel selection for review of lower
court rulings coming before it. In my view, the answer
Prior to its amendment by La. Acts 2018, No. 658, § 1, effective
August 1, 2018, La.R.S. 13:319 provided: “Each civil and
criminal proceeding and each application for writs shall be
randomly assigned by the clerk, subject to the direct supervision
of the court.”
1

2
Louisiana Code of Civil Procedure Article 2164.1 was added by
La. Acts 2018, No. 658, § 2.

24a
is clearly no, it does not. The 1CCA has twelve judges
and establishes its three-member panels by
employing three geographical districts. 3 In other
words, in comprising its panels of three members
each, it randomly draws one panel member from each
of the three geographical districts in order to make up
its three-judge panel. I agree that there is random
selection from each of the three geographical districts,
but there is no random selection among the twelve
members of the 1CAA, which I find violates the
constitutional and legislative mandates of our law.
For there to be a random selection of the members of
the 1CCA, as is done in all other courts of appeal of
this state, said random selection must be made from
all twelve members of the court — not from three
mystical, geographical districts.
What defeats random allotment in this case is the
fact that the employment of these geographical
districts in satisfaction of random allotment qualifies,
limits, restricts, and confines random allotment to
said geographical districts. Again, random allotment
is random allotment. When you confine and/or restrict
random allotment, it is no longer random allotment.
To allow such a geographical allotment is to allow a
definite aim, direction, rule, method, reason and
Though the 1CCA represents that its random selection is
employed via these “election” districts, in truth and in fact, its
random selection is via three mystical “geographical” districts.
The 1CCA’s alleged random selection does not employ election
districts, as there are five election districts, yet it only draws
from three geographical districts. Thus, these three geographical
districts are not the equivalent of its five election districts.
Furthermore, if these geographical districts were created for the
purpose of promoting diversity, it restricts as opposed to
promotes diversity, and certainly does not establish a true
random allotment.

3

25a
pattern of allotment, which is totally contrary to the
very definition of the word random. Our law does not
provide for a limited, restricted, or geographical
random allotment; it requires random allotment, pure
and unadulterated, not quasi-random allotment. Had
the legislature allowed for such segmented, random
allotment, it would have enacted legislation to do so.
Additionally, the 1CCA’s alleged random
allotment is skewed even more so when employing a
five-judge panel (5JP). A 5JP comes into play when a
three-judge panel (3JP) votes two to one to modify or
reverse a lower court’s judgment. When this occurs,
two additional judges are added to the 3JP to make
the 5JP. However, and inconsistent with the selection
of the 3JP via geographical districts, these two
additional judges are drawn in a real random
allotment process from all of the remaining nine
judges of the 1CCA, and not from the three
geographical districts. I might also add that these
5JPs sit for an entire year and not just for a cycle. In
my view, litigants having to appeal to the 1CCA are
denied the equal protection and due process of
litigants having to appeal in all other courts of appeal
in this state.
Thus, I disagree with the majority decision in this
matter and find the 1CCA’s “geographical” allotment
procedure to be constitutionally and legislatively
impermissible, and I would mandate the 1CAA’s
allotment procedure to be in line with the other four
courts of appeal of this state and implement a true and
unrestricted random allotment of its panels.

26a
SUPREME COURT OF LOUISIANA
NO. 2019-0C-1503
NO. 2019-0C-1508
TEXAS BRINE CO., LLC AND
UNITED BRINE SERVICES CO., LLC
V.
RODD NAQUIN, IN HIS OFFICIAL CAPACITY
AS CLERK OF COURT FOR THE FIRST CIRCUIT
COURT OF APPEAL FOR THE STATE OF LOUISIANA
c/w
GARY N. SOLOMON, STEPHEN H. JONES, TERRY D.
JONES, AND HEALTH SCIENCE PARK, L.L.C.
CENTERPOINT ENERGY RESOURCES CORP., ET AL.
V.
RODD NAQUIN, IN HIS CAPACITY AS CLERK OF
COURT FOR THE FIRST CIRCUIT COURT OF APPEAL
FOR
THE STATE OF LOUISIANA
ON WRIT OF MANDAMUS TO THE COURT OF
APPEAL, FIRST
CIRCUIT

CRICHTON, J., dissents and assigns reasons:
I dissent to the majority opinion as it relates to
matter number 2019-0C01503, which addresses the
petition for writ of mandamus filed by Texas Brine
Co., LLC and United Brine Services Co., LLC
(collectively herein, “Texas Brine”). As the majority
notes, we exercised our plenary supervisory
jurisdiction pursuant to La. Const. Art. V, §5(A) when
assuming jurisdiction over this matter. This
supervisory authority is “plenary, unfettered by

27a
jurisdictional requirements, and exercisable at the
complete discretion of the court.” Albert Jr. Tate,
Supervisory Powers of the Louisiana Courts of
Appeal, 38 Tul. L. Rev. 429, 430 (1964). Nevertheless,
we have self-imposed restrictions on this power,
exceptions to which should be made only where
extraordinary circumstances justify this Court’s
intervention. In my view, such extraordinary
circumstances are present here and require this Court
to issue a writ of mandamus ordering the Clerk of
Court of the First Circuit Court of Appeal to assign
panels in a manner that does not include geographical
limitations based on election districts.
Preliminarily, I disagree with the majority that
Texas Brine’s petition for writ of mandamus must fail
irrespective of the merits. Whether or not mandamus
is an appropriate remedy for an action depends on
whether the duty sought to be performed is
ministerial or discretionary. See La. C.C. art. 3863 (“A
writ of mandamus may be directed to a public officer
to compel the performance of a ministerial duty
required by law, or to a former officer or his heirs to
compel the delivery of the papers and effects of the
office to his successor.”). “It is well settled that
mandamus will lie to compel performance of
prescribed duties that are purely ministerial and in
which no element of discretion is left to the public
officer.” Felix v. St. Paul Fire & Marine Ins. Co., 477
So. 2d 676, 682 (La. 1985). The duty must be “clear
and specific.” Id.
Louisiana Revised Statute 13:319 provides “[e]ach
civil and criminal appeal and each application for
writs shall be randomly assigned by the Clerk, subject
to the direct supervision of the court,” and this
provision “shall be applicable to assignment of
appellate panels.” C.C.P. art. 2164.1. The relevant

28a
inquiry in determining if mandamus is an appropriate
remedy, then, is whether the Clerk’s duty to randomly
assign appellate panels to civil and criminal appeals
and each application for writs is ministerial or
discretionary.
The majority relies on this Court’s prior decision
in Hoag v. State, 04-0857 (La. 12/1/04), 889 So. 2d
1019, 1023, in finding that the duty of the Clerk in this
matter is discretionary, rather than ministerial. The
duty present in Hoag, however, is clearly
distinguishable from the duty set forth in C.C.P. art.
2164.1. In Hoag, the relevant question was whether a
court could order the legislature by writ of mandamus
to appropriate funds to pay a judgment pursuant to
La. R.S. 13:5109(B), which required that any
judgment rendered against the state must be paid out
of funds appropriated for that purpose by the
legislature. Id. at 1023-1024. In finding that the act of
appropriating funds is discretionary and not subject
to a mandamus action, this Court held that
“appropriating funds is, by its nature, discretionary
and specifically granted to the legislature by the
constitution” and “[t]his Court has consistently
recognized the legislature’s absolute control over the
finances of the state, except as limited by the
constitution.” Id. at 1024 (internal citations omitted).
Notably, La. R.S. 13:5109(B) did not impose a duty on
the legislature but instead provided the manner in
which judgment would be paid, i.e. at the legislature’s
discretion.
Unlike the provision at issue in Hoag, the
mandate by the legislature to the clerks of court of
each court of appeal to randomly allot cases is not by
its nature a discretionary act. The language requiring
assignment of panels to be random is “clear and
specific” and leaves no discretion to the Clerk to

29a
choose whether or not to assign panels at random. See
La. C.C.P. art. 2164.1 (“The provisions of R.S. 13:319
shall be applicable to assignment of appellate
panels.”). Accordingly, I would find that Texas Brine’s
petition for writ of mandamus does not seek a remedy
that this Court cannot afford in accordance with La.
C.C. art. 3863.
As to the merits of Texas Brine’s petition — i.e.,
whether the First Circuit’s panel assignments are
random — I dissent from the majority’s finding that
the First Circuit’s procedure is consistent with the
statutory and jurisprudential requirements for
random assignment of cases. In reaching this
conclusion, I find it significant that the Clerk fails to
provide any compelling reason for the geographical
limitation on its ministerial duty under C.C.P. art.
2164.1. While we have recognized that the goal of
insuring due process to litigants does not require an
allotment system that is “purely random,” see State v.
Cooper, 10-2344 (La. 11/16/10), 50 So. 3d 115, in each
of the cases on which the majority relies to condone
the First Circuit’s geographical limitations there was
a concern for judicial efficiency or costs that
necessitated the manner in which allotment was
effected. See, e.g., Cooper, supra (finding that two-year
geographical assignments of judges within a district
court did not violate due process where it was
necessary for judicial efficiency and costs); State v.
Sprint Communications Co., 96-3094, p. 3 (La. 9/9/97),
699 So. 2d 1058, 1062 (“The decision to disturb the
equitable distribution of assignments should not be
made lightly. Judges cannot decide to accept or reject
cases unless a valid reason for recusation exists.”);
State v. Nunez, 15-1473, 15-1486, p. 13 (La. 1/27/16),
187 So. 3d 964, 973 (declining to adopt a “burdensome
and untenable rule” that an allotment procedure

30a
violates due process principles merely by being
susceptible to manipulation).
Again, contrary to the jurisprudence on which the
majority relies, the Clerk provides no compelling
reason for the geographical limitation in its allotment
procedure in the nature of judicial efficiency or
otherwise. In fact, every other court of appeal in
Louisiana operates without this limitation on random
panel assignments. I therefore decline to expand the
scope of our earlier decisions permitting limitations
on random allotment, see Cooper, supra, absent proof
that this deviation is required for judicial efficiency.
Accordingly, I find that the extraordinary
circumstances in this matter necessitate the rare
exercise of this Court’s plenary authority pursuant to
La. Cont. art. V, §5(A), and I am therefore duty-bound
to dissent. I would issue a writ of mandamus to the
Clerk of Court of the First Circuit Court of Appeal
ordering its performance of the ministerial duties set
forth in La. C.C.P. art. 2164.1 to randomly assign
panels in this matter and in all future panel
assignments of that court. However, I vote to deny
Texas Brine’s request to transfer the so-called
“Sinkhole Cases” to another circuit court.

31a
SUPREME COURT OF LOUISIANA
NO. 2019-0C-1503
NO. 2019-0C-1508
TEXAS BRINE CO., LLC AND
UNITED BRINE SERVICES CO., LLC
V.
RODD NAQUIN, IN HIS OFFICIAL CAPACITY
AS CLERK OF COURT FOR THE FIRST CIRCUIT
COURT OF APPEAL FOR THE STATE OF LOUISIANA
c/w
GARY N. SOLOMON, STEPHEN H. JONES, TERRY D.
JONES, AND HEALTH SCIENCE PARK, L.L.C.
CENTERPOINT ENERGY RESOURCES CORP., ET AL.
V.
RODD NAQUIN, IN HIS CAPACITY AS CLERK OF
COURT FOR THE FIRST CIRCUIT COURT OF APPEAL
FOR
THE STATE OF LOUISIANA
ON WRIT OF MANDAMUS TO THE COURT OF
APPEAL,
FIRST CIRCUIT

JOHNSON, C.J.,
assigns reasons.

additionally

concurs

and

I agree with the Per Curiam and write separately
simply to emphasize that a mandamus will not lie in
this case because the clerk of court has discretion in
selecting a method of random allotment. Given the
element of discretion, a petition for mandamus is not
procedurally appropriate.

32a
APPENDIX B

SUPREME COURT OF LOUISIANA
ORDER
IT IS HEREBY ORDERED that this court’s order
of August 28, 2019 transferring the matters of “Texas
Brine Co. LLC, et al. v. Rodd Naquin, in his Capacity
as Clerk of Court for the First Circuit Court of Appeal
for the State of Louisiana,” 19-CW-1053 and (2) “Gary
N. Solomon. et al. v. Rodd Naquin, in his Capacity as
Clerk of Court for the First Circuit Court of Appeal for
the State of Louisiana,” 19-CW-1101 from the Court
of Appeal, First Circuit to the Court of Appeal, Fourth
Circuit be and hereby is recalled and vacated.
IT IS FURTHER ORDERED that in the exercise
of our plenary supervisory jurisdiction under La.
Const. Art. V, § 5(A), this court hereby assumes
jurisdiction over these matter. See Marrioneaux v.
Hines, 05-1191 (La. 5/12/05), 902 So. 2d 373; Perschall
v. State of Louisiana, 96-0322 (La. 7/1/97), 697 So.2d
240. The Court of Appeal, Fourth Circuit is directed to
transfer the record of these proceedings to this court.
IT IS FURTHER ORDERED that within fifteen
days of the date of this order, the Court of Appeal,
First Circuit, shall submit a per curiam to this court
detailing the internal allotment procedures for
appeals and applications for supervisory writs in that
court. A copy of this per curiam shall also be provided
to the parties.
IT IS FURTHER ORDERED that an appropriate
briefing order will be issued to the parties at a future
date.
NEW ORLEANS, LOUISIANA, this 20 day of
September 2019

33a
FOR THE COURT:
________________________________________
JUSTICE, SUPREME COURT OF LOUISIANA

34a
APPENDIX C
STATE OF LOUISIANA
COURT OF APPEAL
FIRST CIRCUIT
PER CURIAM

By order dated September 20, 2019, the Louisiana
Supreme Court, in relation io the matters of Texas
Brine Co., L.L.C. v. Rodd Naquin, 2019-OC-01503,
and Gary N. Solomon v. Rodd Naquin, 2019-OC01508, ordered this Court to submit, within fifteen
days of its order, a per curiam to the Supreme
Court, “detailing the internal allotment procedures
for appeals and applications for supervisory writs”
in First Circuit Court of Appeal. The allotment
procedures of the Louisiana First Circuit Court of
Appeal are detailed in the Internal Rules of Court,
First Circuit, as more fully described below. 1
I. Allotment process for each appeal and each
writ application in the Court of Appeal, First
Circuit
Each appeal and writ application is docketed
(assigned a court of appeal case number) upon the
lodging (filing) of the record in an appeal or the filing
of a writ application with the Court of Appeal. The
appeals and writ applications are docketed in the
order in which they are filed with the Court of Appeal.
See Internal Rules 2.3d(1) and 3.9d(1).
After each appeal is given a docket number, each
appeal is randomly allotted pursuant to La. R.S.
13:319, after such time as the appellant’s brief is filed,
The relevant portions of the First Circuit’s Internal Rules
are attached hereto as “Appendix A” and made a part hereof.

1

35a
utilizing the processes set forth in First Circuit
Internal Rule 2.3d(1)(c). After each writ application is
given a docket number, each writ application is
randomly allotted utilizing the processes set forth in
First Circuit Internal Rule 3.9a. For the random
allotment of both appeals and writ applications, the
clerk of court utilizes two clerk’s office staff members
to randomly allot each appeal or each writ application
to a panel and to thereafter randomly designate a
primary (or writing) judge from the judges of that
panel. See Internal Rules 2.3d(l)(c)(i) and 3.9a.
Prior to legislative amendment in 2018, La. R.S.
13:319 provided that “[e]ach civil and criminal
proceeding and each application for writs shall be
randomly assigned by the clerk, subject to the direct
supervision of the court.” (Emphasis added). Thus,
with regard to the random allotment of appeals, prior
to the 2018 amendment and in compliance with the
pre-amendment language of the statute, where an
appeal arose from a judgment in a judicial district
court proceeding from which a prior appeal had
previously arisen, the subsequent appeal in that same
district court case number (proceeding) was assigned
to the same primary judge who had authored the prior
appeal in that district court proceeding, sitting with
that primary judge’s current panel.
However, by Acts 2018, No. 658, the Legislature
amended La. R.S. 13:319 to change the word
“proceeding” to “appeal,” thus now providing that
“[e]ach civil and criminal appeal and each
application for writs shall be randomly assigned by
the clerk, subject to the direct supervision of the
court.”
(Emphasis added). Following this
legislative amendment, the First Circuit reviewed
and amended its Internal Rules effective July 10,
2019, as specifically codified into the Court’s

36a
Internal Rules on August 9, 2019, to clarify that
each appeal is randomly allotted, regardless of
prior appeals in the First Circuit arising from the
same district court proceeding bearing that district
court case number. See Internal Rule 2.3d(1)(c).
The Court’s procedures for the random allotment
of writ applications was also amended, as codified into
its Internal Rules on August 6, 2019. However, unlike
appeals, the random allotment of writ applications in
the First Circuit Court of Appeal never followed the
“subsequent appeal” allotment process. Thus,
notwithstanding any representation to the
contrary, any similarity in the panels to which writ
applications are or were randomly allotted would be
mere coincidence.
II. Recusals
Appeals are randomly allotted to a panel by the
clerk’s office, as described above, taking into
account any standing recusal a judge may have. If
a member of panel has a standing recusal
applicable to a particular appeal, the matter is
randomly allotted to one of the remaining panels.
See Rule 2.3d(l)(c)(i). However, if more than one
panel must be removed from the allotment process
due to standing recusals, the clerk of court, utilizing
two clerk’s office staff members, randomly draws a
special panel by removing the judges with the
standing recusals from the selection process and
then randomly drawing the special panel from the
remaining judges. See Internal Rules 2.3d(l)(c)(ii).
If a judge is later recused following the initial
random allotment of an appeal or writ application,
the judge is replaced by the assignment of another
judge, by random allotment. The clerk of court
utilizes two clerk’s office staff members to randomly

37a
select the replacement judge. See Internal Rules
2.3d(l)(c)(i) and 3.9f(l).
III. Emergency writ applications
The allotment process for writs is also by
random allotment, as set forth in Rule 3.9. Writ
applications designated for emergency or expedited
consideration are allotted to the writ panel on duty
as the nature of the emergency so requires. See
Internal Rule 3.9a.

38a
Appendix A
2.3d Docketing and allotment procedures.
2.3d(1)(a)
All appeals shall be docketed
(assigned a case number) upon the lodging of the
original trial record with the Clerk of the Court of
Appeal. The appeals shall be docketed in the order
in which they are filed under the same title used in
the lower court.
2.3d(1)(b) After the appeal is given an appeal
docket number, the appeal shall be randomly
allotted to a panel in accordance with Louisiana
Revised Statute 13:319 using the random allotment
process of Rule 2.3d(1)(c) of the First Circuit
Internal Rules.
2.3d(1)(c) Allotment of appeals.
2.3d(1)(c)(i) Random allotment process. The
clerk’s office shall use two clerk’s office staff
members for the random allotment of each civil
and criminal appeal to a panel, taking into
account all standing recusals, and to thereafter
designate a primary (or writing) judge. The other
judges serving as backup and third judges are
determined by seniority. If a judge is later recused
following the allotment of an appeal and
assignment to a panel, the judge shall be replaced
by the assignment of another judge, by random
allotment, to the panel. The successor judge shall
stand in the place and stead of the recused judge.
2.3d(1)(c)(ii) However, where more than one
panel must be removed from the allotment process
due to standing recusals, the Clerk of Court shall
randomly assign a special panel by removing the
judges with the standing recusals from the

39a
selection process and then randomly drawing the
special panel from the remaining judges.
2.3d(1)(d) Designation of appeals. Appeals
with up to 1,000 pages of record and exhibits are
considered “regular” appeals; appeals with 1,001
pages to 3,000 pages are “specials”; appeals with
3,001 to 10,000 pages are “super specials”; appeals
with more than 10,000 pages are “mega specials.”
2.3d(1)(e) Staff assistance. The primary judge
and back-up judge on a civil mega special appeal
have the option of requesting that a central staff
civil attorney be assigned to the judge’s staff.
2.3d(1)(f) Credit for specials. When a civil
special, super special, or mega special appeal is
assigned to a judge, that judge’s caseload is reduced
as follows: special--one fewer civil appeal; super
special--two fewer civil appeals; mega special--3
fewer civil appeals.
2.3d(2)
Judges’ responses to proposed
docket. The Clerk shall submit proposed dockets
to the judges with a “respond by” date noted on the
cover sheet, which shall be no sooner than seven
days from the date noted on the cover sheet.
2.3d(3) Clerk to furnish docket. The Clerk
shall furnish each judge a copy of the complete
docket of cases scheduled for argument at least 30
days prior to argument date.
2.3d(4) Dismissed appeals and writs. If a
motion to voluntarily dismiss an appeal or a writ
already on a docket is filed not sooner than 30 days
before the submission date and the motion is
granted, the primary judge shall be randomly
allotted an extra appeal when the next available
docket is randomly allotted.

40a
2.3d(5) Continued appeals and writs. If an
appeal or writ is continued, it shall be docketed as
an extra case for the primary judge on the docket to
which it is continued, unless a substitution is made
on the docket from which it was continued. To the
extent possible, the panel shall schedule the matter
to be heard within the same docket year.
2.3d(6) Recusals.
2.3d(6)(a) Each judge shall supply a standing
recusal list, if applicable, with written reasons to
support each standing recusal to the clerk’s office.
2.3d(6)(b) During the docket approval process
or after the docket has been approved, when a
judge informs the clerk’s office in writing of a
recusal, the clerk’s office shall note an order of
recusal has occurred in the case and the date the
recusal occurred. The judge shall forward written
reasons for the recusal to the clerk’s office no later
than 15 days after the date the recusal occurred
and, upon receipt, the clerk’s office shall file the
written reasons with the record.
2.3d(6)(c) If the judge who recuses from an
appeal is the primary judge, that judge shall be
randomly allotted an extra appeal when the next
available docket is randomly allotted.
2.3d(7) Certiorari grants. Any cert. grant
shall be assigned as an additional case to the
primary judge and original panel on the writ and
shall not be in lieu of a regular case.
2.3d(8) Appeal stayed due to bankruptcy
after panel assignment. If an appeal is stayed
due to bankruptcy after assignment to a panel,
when the stay is lifted, the matter goes to the same
panel assigned the appeal at the time of the stay. If

41a
a judge of the panel is no longer a member of the
court, the judge shall be replaced by the successor
judge, who shall stand in the place and stead of the
replaced judge.
3.9 Writs
3.9a Allotment. After each writ application is
given an appellate docket number, each writ
application shall be randomly allotted to a panel in
accordance with Louisiana Revised Statute 13:319.
The clerk’s office shall use two clerk’s office staff
members for the random allotment of each writ
applications to a panel, and to thereafter designate
a primary judge. The other judges serving as backup and third judge are determined by seniority.
Criminal and civil writ applications are allotted
separately. Writ applications designated for
emergency or expedited consideration shall be
allotted to the writ panel on duty as the nature of
the emergency so requires.
3.9a(1) Writ applications. Other than the
below-described procedure for emergency or
expedited writ applications, the Clerk’s Office shall
randomly allot writ applications in court of appeal
docket number order, in groups of 4, from 2 pools.
3.9a(1)(a)
Pool 1 shall consist of writ
applications entered into the Court’s case
management system from the 1st day of the month,
until the 15th day of the month plus all writ
applications not previously allotted. Pool 2 shall
consist of writ applications entered into the Court’s
case management system from the 16th day of the
month, until the last day of the month plus all writ
applications not previously allotted.

42a
3.9a(1)(b) The clerk’s office shall make note of
the two people present for the allotment process.
The clerk’s office shall provide the list of writ
applications and the allotments to Central Staff
after each pool’s allotment.
3.9a(2) Writ applications designated for
emergency or expedited consideration. The
clerk’s office will review writ applications to
identify requests for expedited or emergency
consideration. As prescribed by the Central Staff
Director, all writs will be further screened for
determination of whether emergency or expedited
consideration is required.
3.9a(2)(a) The Clerk’s Office will advise Central
Staff of writ applications requesting expedited or
emergency consideration and these writ
applications will be considered in that manner
unless the Clerk’s Office is advised otherwise by
the Court or Central Staff.
3.9a(2)(b) Central Staff will advise the Clerk’s
Office that a writ application will be handled in an
emergency or expedited manner if Central Staff’s
screening determines such a need through review
of the writ application, subsequent filings, or per
the direction of the Court.
3.9b Certiorari grants. In the case where
certiorari is granted on a criminal writ application,
the primary judge decides whether he wishes to
write the opinion or wishes to have central staff
write the opinion. In either event, the primary
judge receives no extra credit for it on a regular
docket.
3.9c Criminal writ application remand. A
similar situation exists when the Louisiana

43a
Supreme Court remands a criminal writ
application for a full opinion. In that case the
primary judge is contacted and asked if he/she
wants a full opinion. If so, the judge receives a
writing credit for one of his/her criminal appeals;
staff receives a credit for one of its appeals. If the
judge does not want a staff opinion report, he/she
receives a writing credit, for one of his/her noncriminal cases.
3.9d Criminal writ dismissed. The court no
longer converts a criminal writ to an appeal. In
such cases, the writ shall be processed by central
staff and assigned to writ conference.
3.9e Prose writs. Prose writs are accepted as
they are.
3.9f
Random allotment of writs and
motions to non-duty judges. The procedures
described herein shall be used to randomly allot
writs or motions to non-duty judges in the event
that it is necessary to select non-duty judges to
participate in the decision on a writ or motion. Such
situations include, but are not limited to, the
unavailability of a duty judge, recusal, and need for
a five-judge panel. Civil and criminal matters shall
have separate but identical procedures, pools, and
records.
3.9f(1) Placement in pool. At the start of each
writ duty cycle (i.e. 12:01 a.m. on the first Saturday
of the duty cycle), all non-duty judges’ names will
be placed in a pool from which to select a judge
when the need arises for a non-duty judge to
participate in the decision on a writ or motion. Once
a judge is selected, his or her name is not placed
back into the pool until or unless all non-duty

44a
judges have been selected or until a new duty cycle
begins, whichever comes first.
3.9f(2) Motions and writs with same or
interrelated issues. If more than one writ or
motion present the same issue or arise from the
same case and are interrelated to the extent that
judicial efficiency dictates that they be assigned to
the same judges as if formally consolidated, the
matters may be assigned to the same non-duty
judge according to the procedures set forth herein
and, in that event, shall constitute only one
selection for purposes of random allotment and
selection credit.
3.9f(3) Unavailability of selected non-duty
judge. If the non-duty judge selected cannot, for
whatever reason (including, but not limited to,
unavailability or recusal), participate in the
decision on the writ or motion, his or her name shall
be placed back in the pool and another non-duty
judge selected. The selection of a non-duty judge
should not delay the decision on a writ or motion.
Therefore, if the non-duty judge selected is not
immediately available upon the initial attempt at
contact, in person or by telephone call to his or her
office, and the writ or motion is of such a nature
that some degree of expedited treatment is
required, then staff has the option of returning that
judge’s name to the pool and selecting another nonduty judge, as described above.
3.9f(4) Records. Records shall be kept by staff,
which shall include:
(a) Date of selection;
(b) Docket numbers;
(c) Judge selected;

45a
(d) Name of person who performed the selection;
and
(e) Return of a judge’s name to the pool and reason
therefor if a selected judge’s name is placed back in
the pool in accordance with Rule 3.9f(3).
3.9f(5)
Time of selection. The separate
criminal and civil pools shall be brought to writ
conferences and necessary selections made as
needed. However, in the event the judge selected at
the writ conference cannot participate, the
procedure described in Rule 3.9f(3) shall be
applicable and followed after the writ conference.
Internal Rules of Court, First Circuit Court of
Appeal SECTION 3.1
3.9f(6) Recusal order and written reasons.
In the event of a recusal, Central Staff shall
forward notice of the order of recusal to the judge
and to the clerk’s office indicating the case number,
the judge’s name, and the date the recusal occurred.
The judge shall forward written reasons for the
recusal to the clerk’s office (either directly or
through Central Staff) no later than 15 days after
the date the recusal occurred and, upon receipt, the
clerk’s office shall file the written reasons with the
record.

46a
STATE OF LOUISIANA
COURT OF APPEAL
FIRST CIRCUIT
PER CURIAM

CRAIN, J., additionally responding.
I agree the facts set forth in the per curium are
accurate and our court is properly responding to the
Supreme Court’s directive. I write separately to
emphasize the underpinning of the parties’
arguments is the assumption that the legislative
branch, as opposed to the judicial branch, has the
constitutional authority to dictate the manner in
which cases are assigned within the court. The
assumption is not only arguably flawed, but also
threatens the ability of our courts to independently
perform their adjudicative functions. Furthermore,
there has been no constitutional challenge asserted
as to this court’s allotment procedures.

47a
APPENDIX D
STATE OF LOUISIANA
COURT OF APPEAL
FIRST CIRCUIT
PER CURIAM

By orders dated October 21, 2019, in the matters
of Texas Brine Co., L.L.C. v. Rodd Naquin, 2019-OC01503, and Gary N. Solomon v. Rodd Naquin, 2019OC-01508, the Louisiana Supreme Court ordered this
Court to submit, within fifteen days of the date of its
orders, a supplemental per curiam to the Supreme
Court, “discussing whether the court’s allotment
procedures
incorporate
any
geographical
considerations” and directed that this Court should
“attach copies of its internal rules, if any, which
provide for such allotment.”
The First Circuit
respectfully submits the following.
The random allotment of appeals and writ
applications to a particular panel is entirely
independent of the process of composing appellate
panels and writ duty panels. The First Circuit Court
of Appeal’s procedures for the allotment of appeals
and writs, as detailed in this Court’s prior per curiam
delivered to the Supreme Court on October 4, 2019, do
not incorporate any geographical considerations, as
such allotments are made by random assignment, in
accordance with applicable statutes.
As to the drawing of panels, the composition of
panels is reserved to the courts of appeal by Louisiana
Constitution, Article V, Section 8(A). Thus, the
constitutional provision requires only that the First
Circuit sit in panels of at least three judges selected
according to rules adopted by the Court, as the

48a
composition of such panels is specifically reserved to
each court, notwithstanding any statutory enactment.
The rules adopted by the First Circuit establish that
the Court sits in at least six appeal cycles annually,
with four regular panels of three judges each,
throughout the court year. The Court’s procedures for
the composition of regular panels is random within
the geographic divisions of the court, as more fully
described in the following paragraph. The composition
and terms of the Court’s panels and the schedule of
oral argument dates and writ conference dates are
formulated and recommended by the Case Flow and
Scheduling Committee, subject to approval of the
Conference of the First Circuit. See Internal Rule
2.1a.
By longstanding practice, and in accord with the
constitutional authority specifically reserving such to
each court of appeal, absent recusals, each regular
panel of the First Circuit is comprised of one member
randomly chosen through mechanical means from the
four members of each of the Court’s three election
districts. The random composition of the initial threejudge panels is adopted pursuant to a five-year plan
of rotation of members among the panels. To further
ensure random composition of the panels, panel
members of particular panels do not sit as an intact
panel in the following year. The four randomly drawn
regular panels also sit on writ duty throughout the
Court’s six appeal cycles. Summer writ duty panels,
which rotate duty on a two-week basis, are
established by seniority, without regard to the
allotment of any writ or appeal, to account for summer
scheduling. Rotation of the composition of the panels
occurs in August of each year.
Issued this 29th day of October, 2019, at Baton
Rouge, Louisiana.

49a
Appendix A
2.1a Three-judge panels. In accordance with
the provision of Louisiana Constitution, Article V,
Section 8(A) that requires the Court to sit in panels of
at least three judges selected according to rules
adopted by the Court, the First Circuit, which consists
of 12 judges, shall sit in at least 6 cycles with 4 regular
panels of 3 judges each throughout the court year.
Rotation of the panel composition occurs in August of
each year. The composition and terms of these regular
panels and of the summer duty panels and the
schedule of hearing dates, exchange dates, decision
dates and rehearing dates are formulated and
recommended by the Case Flow and Scheduling
Committee, subject to approval of the Conference of
the First Circuit.

50a
APPENDIX E

The Supreme Court of the State of Louisiana
TEXAS BRINE COMPANY LLC
AND UNITED BRINE
SERVICES COMPANY, LLC

No.2019-OC-01503

VS.
RODD NAQUIN IN HIS
CAPACITY AS CLERK
OF COURT FOR THE FIRST
CIRCUIT COURT
OF APPEAL FOR THE STATE
OF LOUISIANA

______

IN RE: Texas Brine Company, LLC - Applicant
Plaintiff; United Brine Services Company, LLC Applicant Defendant; Applying for Rehearing, Parish
of Assumption, 23rd Judicial District Court
Number(s) 34,202, Court of Appeal, First Circuit,
Number(s) 2019CW1053;

______

April 09, 2020
Application for rehearing denied.
JLW
BJJ
JHB
SMC

51a
Hughes, J., would grant the application for rehearing.
Crichton, J., would grant the application for
rehearing.
Genovese, J., would grant the application for
rehearing.
Crain, J., recused.
Supreme Court of Louisiana
April 09, 2020
_____________________________
Clerk of Court
For the Court

52a
APPENDIX F
COURT OF APPEAL, FIRST CIRCUIT
STATE OF LOUISIANA
DOCKET NO.
TEXAS BRINE COMPANY, LLC and UNITED
BRINE SERVICES COMPANY, LLC
VERSUS
RODD NAQUIN, IN HIS CAPACITY AS CLERK OF
COURT FOR THE
FIRST CIRCUIT COURT OF APPEAL FOR THE
STATE OF LOUISIANA
PETITION FOR WRIT OF MANDAMUS AND
REQUEST FOR STAY

Texas Brine Company, LLC and United Brine
Services Company, LLC (collectively, “Texas Brine”)
petitions this Honorable Court to issue a writ of
mandamus directed to Rodd Naquin, in his capacity
as the Clerk of Court for the First Circuit Court of
Appeal for the State of Louisiana (“Clerk of Court”),
based in Baton Rouge, Louisiana, to follow the
statutory mandate to randomly allot each appeal and
each writ application to appeal and writ panels, and
further seek a stay of proceedings in the Sinkhole
Cases 1 until this Honorable Court can rule on this
petition, on the following grounds:
These Sinkhole Cases, filed in the 23rd Judicial District Court
for the Parish of Assumption, include LaBarre v. Occidental
Chemical Co.; Marchand v. Texas Brine Co., L.L.C.; Florida Gas
Transmission Co., L.L.C. v. Texas Brine Co., L.L.C.;
Pontchartrain Natural Gas System v. Texas Brine Co., L.L.C.;
1

53a
1.
Plaintiff herein is Texas Brine, a Texas limited
liability company, and its principal place of business
is located in Houston, Texas. Texas Brine does
business in the State of Louisiana.
2.
Defendant herein is Rodd Naquin, in his capacity
as the Clerk of Court for the First Circuit Court of
Appeal for the State of Louisiana, based in Baton
Rouge, Louisiana, and who is a public officer for
purposes of La. Code of Civ. Proc. Arts 2164.1, 3861,
and 3863, and La. R.S. § 13:319.
3.
Jurisdiction is proper in the Louisiana First
Circuit Court of Appeal, pursuant to Article V, § 2 and
§ 10 of the Louisiana Constitution of 1974, and La.
Code Civ. Proc. Art. 191.
PROCEDURAL HISTORY AT THE TWENTY-THIRD
JUDICIAL DISTRICT COURT

4.
Texas Brine has been involved in a seven-year
battle in multiple lawsuits with multiple parties as a
result of a sinkhole that appeared in Assumption
Parish on August 3, 2012. Texas Brine is a party to
the multiple cases currently pending before Louisiana
state courts in the Twenty-Third Judicial District
Crosstex Energy Services, L.P. v. Texas Brine Co., L.L.C.;
Assumption Parish Police Jury v. Texas Brine Co. LLC c/w
Assumption Parish Sheriff Mike Waguespack v. Texas Brine Co.,
LLC c/w State of Louisiana v. Texas Brine Co., LLC.; Texas Brine
Co., LLC v. Vulcan Materials Co.; and Occidental Chemical Corp.
v. Arch Insurance Co. (collectively the “Sinkhole Cases”).

54a
Court that comprise the Bayou Corne sinkhole
litigation.
5.
Following a three-week trial, participated in by all
parties, Judge Kliebert issued a judgment finding that
Occidental Chemical Corporation was 40% at fault;
Occidental Petroleum Corporation was 5% at fault;
Oxy USA, Inc. was 5% at fault; Texas Brine was 25%
at fault; United Brine Services Company, LLC was
10% at fault; and Legacy Vulcan, LLC was 15% at
fault. Multiple appeals to the First Circuit have been
taken from this liability judgment, and remain
pending.
PROCEDURAL HISTORY AT THE FIRST CIRCUIT

6.
As of June 1, 2019, the Bayou Corne Sinkhole
Cases have spawned 53 appellate panels for cases
before the First Circuit. Additionally, as of that date,
the judges of the First Circuit have issued 114
unilateral orders in the Sinkhole Cases. The First
Circuit has not practiced the legislatively mandated
random allotment of these appeals or motions arising
out of the Bayou Corne Sinkhole Cases. Texas Brine
discovered the First Circuit’s failure through its
investigation of procedural anomalies surrounding
Judge McDonald’s grossly disproportionate issuance
of unilateral orders and disproportionate presence on
Texas Brine’s appellate panels.
7.
On February 26, 2019, Judge McDonald
unilaterally denied three contested motions before the
First Circuit related to the appeal of the liability trial.
Since then, Texas Brine has determined that as of

55a
June 1, 2019, Judge McDonald has signed almost 70
orders regarding these writ applications and
appeals—far more than all other First Circuit Judges
combined.
8.
Under Louisiana law, contested motions before
the First Circuit must be decided by a three-judge
panel and cannot be decided unilaterally by a single
judge outside of a panel. 2 Any panel would need to be
appointed by the First Circuit Clerk of Court on a
random basis, and not according to the election of
any particular judge. 3
9.
Judge McDonald’s February 26, 2019 improper
unilateral denial of the three contested motions—
which were filed by Texas Brine on February 1, 2019,
and requested additional pages for Texas Brine’s
appeal of the Phase I liability ruling — prompted
Texas Brine to review Judge McDonald’s involvement
in the Bayou Corne Sinkhole Cases.
10.
On review of Judge McDonald’s conduct in the
Bayou Corne Sinkhole Cases, Texas Brine discovered
that as of June 1, 2019 Judge McDonald had signed a
vastly disproportionate share of orders issued by the
First Circuit in the Bayou Corne Sinkhole Cases—68
of 114, or about 58% of the orders issued—and served
on 33 of 53 appellate panels. This overrepresentation
is particularly striking in light of the fact that 12
judges sit on the First Circuit.
See LA. CONST. art. V, § 8(B); LA. UNIF. R. CT. APP. 1-5.
See LA. CODE CIV. PROC. art. 2164.1 (referring to LSA-R.S. §
13:319).

2
3

56a
11.
The odds of this distribution—including all
appellate panels formed and unilateral orders signed
by judges as of June 1, 2019—occurring in a system of
true random allotment of writs, appeals and motions,
as is required under Louisiana Code of Civil
Procedure article 2164.1 and Louisiana Revised
Statute §13:319, is more than 140 million to 1 with
respect to appellate panel membership and
approximately 52.6 quindecillion (a one with 48
zeroes) to 1 with respect to 4the issuance of
unilateral First Circuit orders. This distribution
alone demonstrates that Mr. Naquin has not allocated
motions or appeals arising out of the Bayou Corne
Sinkhole Cases on a random basis.
12.
Texas Brine has filed numerous motions to recuse
Judge McDonald in the Sinkhole Cases, noting Judge
McDonald’s disproportionately large role in the Bayou
Corne Sinkhole Cases.
13.
In connection with its motions to recuse, on March
1, 2019, Texas Brine submitted a public records
request to Rodd Naquin in his role as Clerk of Court
for the First Circuit. Texas Brine’s request sought
information related to the First Circuit’s internal
rules for recusal of judges and for allocation of
appeals, writs, and motions to judges and panels.
14.
On March 7, 2019, in response to Texas Brine’s
March 1, 2019 public records request, Mr. Naquin
4

See Exhibit 1, Affidavit of Robbie Beyl, Ph.D. (June 1, 2019).

57a
produced copies of several rules from the First
Circuit’s Internal Rules of Court. 5
15.
According to the First Circuit’s Internal Rules of
Court produced by Mr. Naquin, motions and orders,
except as otherwise provided, shall be presented to
“any available judge for consideration.” 6 Motions filed
after the docket has been approved shall be sent to the
panel chief and shall be decided by majority vote of
the panel and signed by the panel chief. 7
16.
Thus, the First Circuit’s own internal rules
expressly reveal a policy absolutely incompatible
with the First Circuit Clerk of Court’s ministerial
duty to ensure random allotment.
17.
On March 13, 2019, seven of the twelve judges on
the First Circuit issued a one-sentence denial of Texas
Brine’s motions to recuse Judge McDonald. Judges
Whipple, McClendon, Holdridge, and Chutz recused
themselves, citing a need to “avoid the appearance of
impropriety” even though they had not been accused
of any wrong-doing whatsoever in Texas Brine’s
motions to the First Circuit.
18.
Texas Brine suspected that the First Circuit—in
addition to whatever practices had allowed Judge
McDonald to exercise his improbable level of control
over the Bayou Corne Sinkhole Cases—follows an
See Exhibit 2, First Circuit Response to Mar. 1, 2019 Public
Records Request.
6
LA. APP. 1 CIR. INT’L R. 3.6a.
7
Id. R. 3.6f.
5

58a
internal policy of allocating judges to appellate panels
according to the geographic makeup of the First
Circuit’s election districts—allocating one judge from
each district to each panel. Such a policy dramatically
limits the number of unique panels that can hear
writs, appeals, and contested motions before the First
Circuit from 220 unique combinations to 64 unique
combinations—a reduction of approximately 70.9%. 8
19.
On March 19, 2019, Texas Brine submitted two
public records requests to Mr. Naquin in his capacity
as Clerk of Court for the First Circuit. Texas Brine’s
request sought information related to, inter alia, any
measures taken by the First Circuit to ensure that
appellate panels contain judges elected from each of
the three election districts that comprise the First
Circuit.
20.
On March 26, 2019, the First Circuit responded to
Texas Brine’s March 19, 2019 public records requests.
In its response to Texas Brine’s inquiry regarding
First Circuit efforts to ensure geographically diverse
panels, the First Circuit claimed that “there are no
records ‘relating to any measures taken to ensure that
appellate panels are comprised of judges from
separate election districts.’” 9
21.
Despite this response to the public records
requests, affidavit testimony from Retired First
Circuit Judge Edward J. Gaidry has confirmed that
See Exhibit 3, Affidavit of Robbie Beyl, Ph.D. (Mar. 26, 2019).
See Exhibit 4, First Circuit Response to Mar. 19, 2019 Public
Records Requests.
8
9

59a
the First Circuit performs a less than random
allotment of judges to panels and instead limits
random allotment by using quotas to select judges
from each of the three election districts on each
panel. 10 This policy ensures by design that judges
from the same district will never serve on the same
panel in the ordinary course of First Circuit
operations—an affront to the requirement of
randomness. This situation alone demonstrates a
failure on the part of Rodd Naquin to perform his
ministerial duty to allocate cases on a truly random
basis. Compounded with the role of Judge McDonald
and the facially non-random allocation methods called
for — yet mysteriously not followed — by the internal
rules of the First Circuit, this procedure forecloses
any claim that the First Circuit allocates cases
on a random basis.
22.
The affidavit testimony from Retired First Circuit
Judge Edward J. Gaidry states that the First Circuit
practices an internal policy of selecting one judge from
each of the three electoral districts within the First
Circuit to form appellate panels. 11
23.
Moreover, of the eighteen Sinkhole Cases appeals
that were orally argued in the First Circuit on June
10-11, 2019, over Texas Brine’s objections, Judge
McDonald was assigned to panels for fifteen of them.

10
See Exhibit 5, March 25, 2019 Affidavit of Retired First Circuit
Judge Edward J. Gaidry.
11
Id.

60a
24.
As indicated above, the defendant to this Petition
has demonstrated an unwavering refusal to perform
his ministerial duties in accordance with the express
terms of the Louisiana Code of Civil Procedure, the
Louisiana Revised Statutes, and even the First
Circuit’s own internal rules. The First Circuit judges
have adopted written and unwritten internal rules of
court which are expressly incompatible with
random allotment, and Mr. Naquin has
demonstrated
a
pattern
of
allocating
a
disproportionate number of cases to one particular
Judge—Judge McDonald.
RANDOM ALLOTMENT IS REQUIRED

25.
Pursuant to Louisiana law, “each civil . . . appeal
and each application for writs shall be randomly
assigned by the clerk, a public officer, subject to the
direct supervision of the Court.” 12 Random allotment
is clearly a statutory, ministerial duty assigned to the
clerks of the appellate courts, and to the courts
themselves due to their specific roles as supervisors of
this mandatory procedure. Appellate courts do not
possess discretionary authority to allow clerks to do
anything other than to allot randomly. Random
allotment of cases on appeal and writ applications is
not discretionary on the part of the appellate courts or
their clerks.
26.
Because this Court’s internal rules and practices
(both written and unwritten) provide for a material
LA. CODE CIV. PROC. art. 2164.1 (referring to La. R.S. § 13:319)
(emphasis added).

12

61a
variance from the Legislature’s random allotment
mandate related to the assignment of judges to panels
and the allotment of appeals and applications for
writs to these panels, they cannot stand, and the
Defendant cannot enforce them.
27.
Conversely to this Court’s rules and practices,
affidavits of the Clerks of Court for the Louisiana
Courts of Appeal for the Third, Fourth, and Fifth
Circuits confirm that the practices of each of those
courts are to randomly allot all cases to appeal and
writ panels each time an appeal or application for writ
is filed, regardless of the history of the case at their
respective courts of appeal. 13 Two of the three have
expressly attested that they do not incorporate
geographic quotas. 14
28.
When a litigant, such as Texas Brine in the
Sinkhole Cases, is deprived of the random, neutral
assignment of each appeal or review of its case, the
litigant is deprived of its right to due process of law
guaranteed by the Fifth and Fourteenth Amendments
to the United States Constitution and Article 1, §§ 2
and 22 of the Louisiana Constitution.
REMEDY: THE ISSUANCE OF A WRIT
OF MANDAMUS
AND STAY ORDER

29.
A writ of mandamus is a writ directed to a public
officer “to compel the performance of a ministerial
13
See Exhibits 6, 7 and 8, Affidavits of Renee R. Simien, Justin
L. Woods and Cheryl P. Landrieu.
14
See Exhibits 6 (Simien) and 7 (Woods).

62a
duty required by law” and can only be issued by a
court on petition. 15
30.
Upon the filing of a petition for writ of mandamus,
“the Court shall order the issuance of an alternative
writ directing the defendant to perform the act
demanded or to show cause to the contrary.” 16
31.
A mandamus proceeding may be tried
summarily. 17 The petition for writ of mandamus shall
be assigned for hearing, in open court or in chambers,
two to ten days after service of the alternative writ,
but may be held earlier upon proper showing. 18
32.
Louisiana positive law is abundantly clear: the
clerk of court for each Louisiana Court of Appeal shall,
without fail, allot each appeal and each application for
a writ by a true random allotment process, regardless
of the case history at the court. 19 This mandatory
random allotment is a ministerial duty that must be
performed by every appellate clerk of court. The
appeal courts must also directly supervise their
respective clerks of court to ensure that the
mandatory random allotment process is followed.
33.
As indicated above,

LA. CODE CIV. PROC. arts. 3781, 3861, & 3863.
Id. art. 3865 (emphasis added).
17
Id. art. 3781.
18
Id. arts. 3782 & 3784.
19
Id. art. 2164.1 & La. R.S. § 13:319.
15
16

63a
(1) the odds, given the statistical analysis of
Robbie Beyl, Ph.D.;
(2) the written internal rules of the First Circuit;
(3) the Affidavit of Retired First Circuit Judge
Edward J. Gaidry as to the First Circuit’s actual
unwritten practices; and
(4) common sense after reviewing the various
assignments in the Sinkhole Cases,
make it highly improbable that random allotment of
the applications for writs and/or appeals in the
Sinkhole Cases has occurred as required by Louisiana
law.
34.
An alternative writ of mandamus should
immediately issue by Order from this Honorable
Court to compel its Clerk of Court, Rodd Naquin, to
randomly allot each and every appeal and application
for a writ, in the Sinkhole Cases, to the various panels
of the court, and after the Defendant has had the
opportunity to show cause why he should not be so
compelled, this Honorable Court should issue a
judgment making the alternative writ peremptory.
35.
Texas Brine also requests that this Court enter a
stay order that ensures that any currently pending or
filed in the future writ applications and appeals in the
Sinkhole Cases not be assigned to a panel, nor
decided, until this Honorable Court has had the
opportunity to hold a hearing on the subject Petition
for Writ of Mandamus to decide whether the
alternative writ should be made peremptory.

64a
36.
Texas Brine further notes a similar Petition for
Writ of Mandamus has been filed in this Court in the
case Solomon v. Naquin, No. 2019-CW-1011 20 and this
entire court has recently recused itself from that
action and notified the Louisiana Supreme Court
Clerk of Court regarding same. 21
WHEREFORE, Petitioner Texas Brine prays that
this Honorable Court order the issuance of an
alternative writ directing Rodd Naquin, in his
capacity as the Clerk of Court for the First Circuit
Court of Appeal for the State of Louisiana, to comply
with La. Code of Civ. Proc. art. 2164.1 and La. R.S.
13:319, and to randomly allot each and every civil
appeal and application for writs to panels for
consideration, regardless of the case’s history at the
Court, or to show cause to the contrary pursuant to
La. Code of Civ. Proc. art. 3866.
Petitioner further prays that this Honorable
Court issue a stay order to ensure that pending
appeals and applications for supervisory writs to this
Court are not assigned to a panel, nor decided, until
this Honorable Court has had the opportunity to hold
a hearing on the subject Petition for Writ of
Mandamus.

20
21

See Exhibit 9, Petition for Writ of Mandamus.
See Exhibit 10, Letter and Order dated August 8, 2019.

65a
Respectfully submitted,
/s/ James M. Garner__________
LEOPOLD Z. SHER, #12014
JAMES M. GARNER, #19589
PETER L. HILBERT, JR., #6875
JEFFREY D. KESSLER, #30156
SHER
GARNER
CAHILL
RICHTER KLEIN & HILBERT,
L.L.C.
909 Poydras Street, Suite 2800
New Orleans, Louisiana 70112
Telephone: (504) 299-2102
Facsimile: (504) 299-2300
ROYCE I. DUPLESSIS (#33019)
DUPLESSIS LAW FIRM
1100 Poydras Street, Suite 1475
New Orleans, Louisiana 70163
Telephone: (504) 484-9214
TRAVIS J. TURNER #29462
TURNER LAW FIRM, LLC
1026 E. Worth Road, Suite D
Gonzales, Louisiana 70737
Telephone: (225) 644-2229
Facsimile: (225) 644-2266
THEODORE L. JONES, #7511
P.O. Box 5029
Baton Rouge, Louisiana 70821
Telephone: (225) 925-1115
COUNSEL FOR TEXAS BRINE COMPANY, LLC

66a

PLEASE SERVE:
Rodd Naquin
in his capacity as Clerk of Court
for the First Circuit Court of Appeal
for the State of Louisiana
1600 North Third Street
Baton Rouge, LA 70802

67a
APPENDIX G
STATE OF LOUISIANA
SUPREME COURT
DOCKET NO. 2019-OC-1503

TEXAS BRINE COMPANY, LLC and
UNITED BRINE SERVICES
COMPANY, LLC
VERSUS
RODD NAQUIN, IN HIS CAPACITY
AS CLERK OF COURT FOR THE
FIRST CIRCUIT COURT OF APPEAL
FOR THE STATE OF LOUISIANA
BRIEF OF RELATORS TEXAS
BRINE COMPANY, LLC AND
UNITED BRINE SERVICES
COMPANY, LLC
IN SUPPORT OF PETITION FOR
WRIT OF MANDAMUS
CIVIL PROCEEDING

68a
LEOPOLD Z. SHER, #12014
JAMES M. GARNER, #19589
PETER L. HILBERT, JR., #6875 MARTHA Y.
CURTIS, #20446
JEFFREY D. KESSLER, #30156
LAURIE A. DEARMAN, #22304
STUART D. KOTTLE, #37194
SHER GARNER CAHILL RICHTER KLEIN &
HILBERT, L.L.C.
909 Poydras Street, Suite 2800
New Orleans, Louisiana 70112
Telephone: (504) 299-2100
JAMES E. KUHN # 7640
253 West Oak Street
Ponchatoula, Louisiana 70454
Telephone: (985) 386-3089
ROYCE I. DUPLESSIS #33019
DUPLESSIS LAW FIRM
1100 Poydras Street, Suite 1475
New Orleans, Louisiana 70163
Telephone: (504) 484-9214
DANE S. CIOLINO #19311
DANE S. CIOLINO, LLC
18 Farnham Place
Metairie, Louisiana 70005
Telephone: (504) 834-8519
TRAVIS J. TURNER #29462
TURNER LAW FIRM
413 West Main Street
Gonzales, Louisiana 70737
Telephone: (225) 644-2229

69a
TABLE OF CONTENTS
TABLE OF AUTHORITIES ...........Error! Bookmark not
defined.
STATEMENT OF THE CASE .......................................... 83
SPECIFICATION OF ERROR .......................................... 89
ARGUMENT ...................................................................... 89
I.

The First Circuit’s Use of an Unwritten
Geographic Quota to Assign Civil Appellate
Panels Violates Article 2164.1 of the Louisiana
Code of Civil Procedure and Louisiana Revised
Statutes § 13:319 ................................................... 89
A.

Article 2164.1 of Louisiana Code of Civil
Procedure and Louisiana
Revised Statutes § 13:319 Require Random
Assignment of Civil
Appellate Panels ........................................ 90

B.

A Court Rule (Written or Unwritten)
Cannot Contravene a Statute...................93

C.

The First Circuit’s Unwritten Rule
Requiring Geographic Quotas is Not
Random, as It Eliminates Over 70% of
Possible Combinations From Randomly
Assigned Panels and Ensures that Two
Members of the Same District Will Not
Serve Together on a Three-Judge Panel ... 96

D.

The Evidence Refutes the First Circuit’s
Claim that It Belatedly Changed Its
Practices to Partially Comply with the
Random Assignment Laws ...................... 100

E.

The First Circuit’s Prior Failure to
Randomly Assign Appeals Created a
Grossly Disproportionate Distribution of
Appeals Among Its Judges ...................... 102

70a
F.

Due to Recusals, the First Circuit’s Use of
Geographic Quotas Creates an Uneven
Probability of Drawing All First Circuit
Judges Going Forward ............................. 103

II.

The First Circuit Violated Public Policy by
Using an Unwritten Geographic Quota .............. 104

III.

The Use of a Geographic Quota Does Not Pass
Constitutional Muster ......................................... 105

IV.

A.

The Right to Due Process Requires a Fair
and Impartial Decisionmaker ................. 106

B.

The First Circuit’s Use of Geographic
Quotas Denies the Right of Equal
Protection to Litigants in the First
Circuit ....................................................... 111

C.

The First Circuit Ignores the
Constitutional Principle of Separation of
Powers ...................................................... 113

D.

The First Circuit’s Use of a Geographic
Quota Does Not Advance the Interest of
Racial Diversity on Appellate Panels or
Prevent “Home-Cooking.” .......................114

Texas Brine Is Entitled to Enforcement of
Random Assignment of Civil Appellate Panels
and Transfer of the Sinkhole Cases to Another
Circuit Court of Appeal ....................................... 117

CONCLUSION ................................................................ 121
CERTIFICATE OF SERVICE ........................................ 123

71a
TABLE OF AUTHORITIES
Page(s)
Cases
Board of Com’rs of Orleans Levee Dist. v. Dep’t of
Nat. Resources,
496 So. 2d 281 (La. 1986)....................................15
Boudreaux v. Yancey,
256 So.2d 1084 (La. App. 1 Cir. 1971) ................16
Cleveland Bd. of Educ. v. Loudermill,
470 U.S. 532 (1976) .............................................10
Dawson v. Eppley,
562 So.2d 1085 (La. App. 4 Cir. 1990) ................16
Devereax v. Atkins,
51,473 (La. App. 2d Cir. 2017) 224 So. 3d 1160 .15
Futch v. Coumes,
347 So.2d 1121 (La. 1977) ...................................16
Hamilton v. Royal Intern. Pet. Corp.,
2005-846 ..............................................................10
Helmer v. United Gas Pub. Serv.,
175 La. 285, 143 So. 265 (1932) ..........................16
Keelen v. State, Dept. of Culture,
463 So. 2d 1287 (La. 1985) ..................................13
LaBauvr v. La. Wildlife & Fisheriescomm’n,
289 So.2d 150 (1974) .....................................15, 16
Raymond v. Zeringue,
386 So. 2d 1052 (La. App. 4th Cir. 1980) ...........16
State v. Cordero,
08-1717 (La. 10/3/08), 993 So. 2d 203.......4, 5, 6, 7

72a
State v. Mallery,
364 So.2d 1283 (La. 1978) ...................................15
State v. Simpson,
551 So. 2d 1303 (La. 1989) ..................................10
State v. Spring Comm’s Co., L.P.,
96-3094 (La. 9/9/97), 699 So.2d 1058.......... passim
Trahan v. Petroleum Cas. Co.,
250 La. 949, 200 So.2d 6 (1967) ..........................16
Statutes
LA. CODE CIV. PROC. art. 193 ........................... passim
LA. CODE CIV. PROC. art. 253.1.............................4, 16
LA. CODE CIV. PROC. art. 2164.1....................... passim
LA. REV. STAT. 13:319 .................................................1
LA. REV. STAT. § 13:319 .................................... passim
WILLIAM E. CRAWFORD, 12 LA. CIV. L. TREATISE,

Tort Law § 27:58 ...................................................9
Other Authorities
Albert Tate, Jr., Supervisory Powers of the
Louisiana Courts of Appeal,
38 TUL. L. REV. 429, 430 (1964) .........................10
LA. CODE CIVV. PROC. art. 193 .................................10
LA CODE PROC. art. 193 ......................................11, 16
LA CONST. art. III § 1................................................15
LA. CONST. art. V § 5(A) ................................... passim
LA CONST. art. § 5(A) ................................................15
LA. SUP. CT. R. X, § 1(a), 1 .....................................11
Local Rule 9 ..........................................................4, 16

73a
Louisiana Constitution Article I, Sections 2 and
22 ...................................................................23, 24
Louisiana Constitution Article II, §§ 1 and 2..........15
MERRIAM-WEBSTER ELEVENTH NEW COLLEGIATE
DICTIONARY ............................................................9
Rule 2.3d(1)(c).............................................................2

74a
MAY IT PLEASE THE COURT:
Relators Texas Brine Company, LLC and United
Brine Services Company, LLC (“Texas Brine”) seek (1)
enforcement of Louisiana law for random assignment
of civil appeals and civil appellate panels by the
Louisiana First Circuit Court of Appeal, (2) protection
of Texas Brine’s constitutional rights, (3) promotion of
public policy and trust in the judiciary, and (4)
transfer of pending and future appeals and writ
applications in the Sinkhole Cases 1 to another circuit.
The Louisiana Legislature has codified the
requirement of random assignment of civil appeals
and civil appellate panels in every case. 2 That
legislative will, as set forth in Revised Statutes
§13:319 and Code of Civil Procedure article 2164.1, as
confirmed by unanimous vote of both houses of the
Louisiana legislature, 3 mandates that all appellate
courts must randomly assign all civil appeals. 4
The First Circuit’s assignment of civil appeals fails to
adhere to these statutes. Its failure to randomly
The “Sinkhole Cases,” filed in the 23rd Judicial District Court,
include LaBarre v. Occidental Chem. Co.; Marchand v. Tex. Brine
Co., LLC; Fla. Gas Transmission Co., LLC v. Tex. Brine Co., LLC;
Pontchartrain Nat. Gas Sys. v. Tex. Brine Co., LLC; Crosstex
Energy Servs., L.P. v. Tex. Brine Co., LLC; Assumption Parish
Police Jury v. Tex. Brine Co. LLC c/w Assumption Parish Sheriff
Mike Waguespack v. Tex. Brine Co., LLC c/w State of Louisiana
v. Tex. Brine Co., LLC; Tex. Brine Co., LLC v. Vulcan Materials
Co.; and Occidental Chem. Corp. v. Arch Ins. Co.
2
See LA. REV. STAT. § 13:319 (as amended) and LA. CODE CIV.
PROC. art. 2164.1, effective August 1, 2018.
3
See Legislative History of Senate Bill 273, attached as Exhibit
11 to Texas Brine’s August 21, 2019 Amended Petition for Writ
of Mandamus. As to article 2164.1, no corresponding random
requirement provision was enacted with respect to the Code of
Criminal Procedure.
4
LA. REV. STAT. 13:319; LA. CODE CIV. PROC. art. 2164.1.
1

75a
assign civil appellate panels also violates Texas
Brine’s constitutional rights of due process and equal
protection – as attested by one of the nation’s
preeminent constitutional law scholars, Erwin
Chemerinsky, the Dean of the University of
California, Berkeley School of Law. 5
Four of the five circuit courts of appeal in
Louisiana abide by the law and use a purely random
method for assigning civil appeals and appellate
panels. 6 The First Circuit is an admitted outlier: it
uses an uncodified, unwritten geographic quota to
ensure that all three-judge appellate panels
(including civil panels) contain exactly one judge from
each of the three districts comprising the First Circuit
– a practice that eliminates over 70% of possible
panels. 7 That court’s unwritten policy violates the
law, violates Texas Brine’s constitutional rights,
undermines public policy and faith in the judiciary,
and ignores the legislative mandate of random
assignment in civil appeals.

See Exhibit A, Affidavit of Erwin Chemerinsky, Nov. 13, 2019,
at ¶¶ 17-22. Professor Chemerinsky was determined to be the
most cited constitutional law scholar in the country from 20132017
by
a
sizable
margin.
See
https://leiterlawschool.typepad.com/leiter/2018/08/20-mostcited-constitutional-law-scholars-in-the-us-for-the-period-20132017.html (last viewed Nov. 12, 2019). Texas Brine is
simultaneously moving for leave to file affidavits with this brief.
6
See Affidavits of Renee Simien (Third Circuit Clerk of Court),
Justin Woods (Fourth Circuit Clerk of Court) and Cheryl
Landrieu (Fifth Circuit Clerk of Court), attached as Exhibits 6-8
to Texas Brine’s 8/9/19 Petition for Writ of Mandamus; see also
Affidavit of Lillian Evans Richie (Second Circuit Clerk of Court),
attached as Exhibit B.
7
See First Circuit per curiam dated October 29, 2019, at p. 2; see
also, Appendix C, Robbie Beyl, Ph.D. affidavit, ¶5.
5

76a
The First Circuit also admitted in its October 4,
2019 per curiam that it had failed to enforce the law
for a year after the August 1, 2018 effective date by
systematically assigning appeals to the same panels
that had previously heard other appeals arising from
the same district court case:
However, by Acts 2018, no. 658, the
Legislature amended La. R.S. 13:319 to
change the word “proceeding” to “appeal,”
thus now providing that “[e]ach civil and
criminal appeal and each application for writs
shall be randomly assigned by the clerk,
subject to the direct supervision of the court.”
Emphasis added). Following this legislative
amendment, the First Circuit reviewed and
amended its Internal Rules effective July 10,
2019, as specifically codified into the Court’s
Internal Rules on August 9, 2019 to clarify
that each appeal is randomly allotted,
regardless of prior appeals in the First Circuit
arising from the same district court
proceeding bearing that district court case
number. See Internal Rule 2.3d(1)(c).
But there is more: each of the following factors
demonstrates why the First Circuit’s failure to abide
by Louisiana law requiring the random assignment of
civil appeals requires the transfer of all pending and
future appeals and writ applications in the Sinkhole
Cases to another circuit:
 Not only has the First Circuit admitted that it
failed to adhere to Louisiana law requiring the
random assignment of civil appeals for over a
year, but it still ignores the random
assignment requirement by imposing
geographic quotas pursuing to an unwritten,

77a
“longstanding practice” where “each regular
panel of the First Circuit” consists of one
member from “each of the Court’s three election
districts.” 8


The
First
Circuit’s
purported
partial
compliance with the random assignment
statutes is illusory. While the First Circuit
claims that it changed its rules as of August 9,
2019 to assign each appeal anew, irrespective
of prior appellate assignments arising from the
same lower court case, empirical evidence
proves that it has not changed its practices.
O



Weeks after the First Circuit claimed to
have changed its rules, that Court issued
three dockets in Pontchartrain on August
27, 2019. These dockets are identical to
those released in other Pontchartrain
appeals on June 27, 2019. The odds against
this breakdown being due to random
chance exceed 175,000 to 1. 9

Four First Circuit judges – a full third of that
Court – remain recused from all Sinkhole
Cases,
citing
the
“appearance
of
impropriety” in recusing themselves on March
13, 2019. 10 None of these judges have appeared
on a single appellate panel since that date.

See First Circuit per curiam dated Oct. 29, 2019, at p. 2.
See Exhibit C, Affidavit of Robbie Beyl, Ph.D, Nov. 15, 2019, at
¶¶ 19-20; Exhibit C-1, Chart.
10
See Exhibit 4 to August 9, 2019 Petition for Mandamus (the
“Petition”), March 13, 2019 recusal notices.
8
9

78a


The First Circuit remains institutionally
adverse to Texas Brine: every First Circuit
judge signed the two per curiams issued in
opposition to its mandamus petition. 11



Even if this Court were to direct the First
Circuit to randomly assign civil appeals and
writ applications going forward, that would do
nothing to alleviate the problems, unique to
Texas Brine, created by dozens of rulings
rendered by illegally constituted appellate
panels. Future panels, even if constituted in
perfect compliance with Louisiana law, may
nonetheless be legally constrained under the
“law of the circuit” doctrine to adhere to rulings
rendered by invalidly assigned panels. 12

This Court has the ultimate supervisory authority
over inferior Louisiana courts and must compel the
First Circuit’s compliance with the law. This Court
has previously invalidated court rules and practices
that undermine public confidence and cause cases not
to be “truly randomly assigned.” 13 In State v. Sprint,
this Court declared, “random assignment procedures
promote fairness and impartiality and reduce the
dangers of favoritism and bias.” 14
This Court
See Oct. 4, 2019 per curiam; Oct. 29, 2019 per curiam.
Succession of Johnson, 2016-1115 (La. App. 1 Cir. 2/17/2017),
2017 WL 658775.
13
State v. Spring Comm’s Co., L.P., 96-3094 (La. 9/9/97), 699
So.2d 1058, 1063 (district court’s practice of nonrandom transfers
of actions from one division to another for purported reason of
judicial economy and case management violated statute and
local rule requiring random assignment of cases, and was thus
improper, void and unenforceable).
14
Id., 699 So.2d at 1063.
11
12

79a
recognized the primacy of the legislative mandate to
end the practice of non-random assignment in
civil cases in district courts. 15 According to this Court,
the Code of Civil Procedure article requiring district
court cases to be “randomly assigned to a particular
section or division of the court” was a “clear and
unambiguous expression of the legislative mandate
to end the practice of non-random assignment.” 16 This
Court further found the district court’s failure to
adhere to the statutory requirement of random
assignment violated public policy. 17
In its October 29, 2019 per curiam, the First
Circuit asserted it had the right to enact rules
governing the composition of appellate panels
“notwithstanding any statutory enactment.” 18
This remarkable assertion turns the separation of
powers doctrine on its head. But courts’ rulemaking
powers are not unlimited. Rules that violate
legislative
enactments
are
unenforceable
nullities. The Louisiana Constitution grants the
courts authority only to “establish procedural and
administrative rules “not in conflict with law.” 19 As
a result, courts’ limited rulemaking authority cannot

Spring, 699 So. 2d at 1062 (“Effective since August 15, 1995,
this statute [LA. CODE CIV. PROC. art. 253.1] expresses the
legislative mandate to end the practice of non-random
assignment. The statute is clear and unambiguous.”
16
Id., at 1061-62 (emphasis added).
17
Id. (case transfers due to “judicial economy and case
management . . . violated La. Code Civ. P. art. 253.1, Local Rule
9 and public policy and therefore cannot stand.”) (emphasis
added). See also State v. Cordero, 08-1717 (La. 10/3/08), 993 So.
2d 203, 204-05 (internal court procedures violated requirements
of state constitution).
18
See October 29, 2019 per curiam, at p. 1 (emphasis added).
19
LA. CONST. art. V § 5(A) (emphasis added).
15

80a
circumvent legislative enactments. 20 Moreover, the
First Circuit has also violated the law by not even
writing down, let alone publishing, its internal
geographic quota rule. 21
This Court should not defer to the First Circuit’s
assertion that it now enforces the random assignment
laws. Statistical analysis negates this contention. The
August 27, 2019 Pontchartrain dockets disprove the
First Circuit’s contention that it ceased to reassign
appeals to previously constituted panels within the
same case earlier that month. 22 The judges on the
three Sinkhole Case panels issued at that time are the
identical judges on the panels identified two months
earlier – the odds against this distribution being the
result of random chance exceed 175,000 to 1. 23

See State v. Cordero, 2008-1717 (La. 10/3/08), 993 So. 2d 203,
204-05 (internal procedures of Fifth Circuit violated
requirements of state constitution requiring that majority of
judges sitting in a case must concur to render judgment and
required re-review by judges who had not participated in
unconstitutional procedure); Sprint, 699 So. 2d at 1061-62; see
also Exhibit E, Nov. 15, 2019 Affidavit of Herbert Larson, at ¶ 8.
21
See LA. CODE CIV. PROC. art. 193 (appellate rules must be
entered in court minutes and “shall be published”). Notably, the
First Circuit invoked privilege in refusing to substantively
respond to a public records request concerning the effective date
of the internal rule cited in its October 29, 2019 per curiam or
the circumstances of that rule’s adoption. See Exhibit D and D-1,
Response to Public Records Request, Nov. 13, 2019; Public
Records Request, Nov. 5, 2019. Such stonewalling runs afoul of
Henderson v. Bigelow, which applied the Public Records Act to
the judiciary, including meeting minutes and rules regarding
administrative matters. 07-1441 (La. App. 4 Cir. April 9, 2008),
982 So.2d 941, 943 (holding that “minutes of en banc meetings”
constitute public records subject to disclosure). Id. at 945.
22
See p. 2, supra.
23
See Exhibit C, Beyl Affidavit, at ¶¶ 21-22.
20

81a
As a Louisiana civil litigant and taxpayer, Texas
Brine is entitled to enforcement of the laws requiring
random assignment of civil appeals and writ
applications. Unfortunately, this case’s circumstances
require more than merely a forward-looking promise
to randomly assign civil appeals and writs. The civil
appeals and writ applications in the Sinkhole Cases
must be transferred to another Louisiana circuit.
Why? Because Texas Brine has been openly adverse
to the First Circuit for almost a year, seeking
enforcement the laws requiring random assignment of
civil appeals. Texas Brine has exposed the First
Circuit’s noncompliance with Louisiana law. Four
judges immediately recused themselves from all
Sinkhole Cases after Texas Brine challenged that
Court’s failure to randomly assign cases, citing the
“appearance of impropriety.” 24 These highly irregular
circumstances require transfer to another circuit.
What authority allows for that? In Tolmas v. Parish
of Jefferson, in which there was no institutional
violation of law, and a questionable-at-best
“appearance of impropriety,” this Court transferred
an appeal from one circuit to another circuit. 25 The
gravity of the First Circuit’s statutory and
constitutional violations here dwarf those alleged in
Tolmas. As in Tolmas, this Court should transfer the
Sinkhole Cases to another circuit court for all pending
and future appeals and writ applications. 26
See Exhibit 4 to August 9, 2019 Petition, March 13, 2019
recusal notices. Since that date, the four judges who submitted
recusal notices have not been placed on a single appellate panel
in the Sinkhole Cases.
25
12-0555 (La. 4/27/12), 87 So. 3d 855 (appeal transferred to
another circuit to avoid “appearance of impropriety”).
26
See also Cordero, 993 So.2d at 214 (while agreeing that the
cases should be reconsidered “to avoid any appearance of
impropriety” Judge Weimer states he “would either randomly
24

82a
Further, the First Circuit cannot institutionally
decide the Sinkhole Cases without reverting to the
prior rulings of its illegally constituted panels. The
First Circuit’s “law of the circuit” doctrine may
effectively perpetuate the rulings from illegally
constituted panels. Political psychologist Claude
“Pete” Rowland, Ph.D. opined that the First Circuit’s
rulings in the Sinkhole Cases reflect the influence of
cognitive bias, confirmation bias, and groupthink —
subconscious biases affecting the decisionmaking
process. 27 He noted, “[b]ecause of the subconscious
nature of these biases, it is overwhelmingly
improbable that their effect can be disregarded or
bypassed.” 28 In other words, it is not enough for a
particular First Circuit judge to deny that he or she is
“biased.”
With decades of experience analyzing
cognitive and confirmation bias, Dr. Rowland opined,
“these biases have manifested in the First Circuit as
a group through the history with the First Circuit as
a whole and the public exposure of the First Circuit’s
violation of the Louisiana law requiring random
assignment of appellate panels.” 29 Thus, “the First
Circuit as a whole cannot impartially decide the
appeals and writ applications in the sinkhole cases
going forward.” 30
allot these cases to the other courts of appeal or appoint three ad
hoc judges to consider these matters.”) (Weimer, J., dissenting
in part).
27
See Exhibit F, Affidavit of Claude “Pete” Rowland, Ph.D., at
¶¶ 6-12.
28
Id. at ¶13.
29
Id. at ¶ 14.
30
Id. at ¶ 15. This Court reached the same result in State v.
Cordero, where it remanded the cases alleging that the Fifth
Circuit’s internal procedures violated the constitution to the
Fifth Circuit to re-review, but limited the re-review to only five
specific judges who were not previously involved in the cases.

83a
This Honorable Court should grant Relators’
Petition for Writ of Mandamus and order First Circuit
Clerk of Court Rodd Naquin to enforce the law
requiring random assignment of civil appeals. Also,
this Court should transfer the Sinkhole Cases to
another circuit to (1) ensure that the many legal
issues in this “bet-the-company” litigation affecting
Texas Brine’s fate will not be decided by an institution
– the First Circuit Court of Appeal – which Texas
Brine has exposed as not following article 2164.1 and
Revised Statutes §13:319, (2) minimize the effects of
rulings issued by invalidly constituted panels in
violation of law, and (3) ensure due process and equal
protection, free from any possible confirmation bias,
the appearance of impropriety, and eliminate any
corresponding risk of running afoul of Judicial Canons
2A and 3B. 31 This Court has transferred appeals in
other cases 32 and should do so under the unique
circumstances here.
STATEMENT OF THE CASE
Texas Brine filed its Petition for Writ of
Mandamus directed to First Circuit Clerk of Court
Rodd Naquin after the First Circuit’s failure to
randomly assign civil appeals, as Louisiana law
mandates, became apparent. The First Circuit
That approach is impossible here: all twelve First Circuit judges
have been involved in the Sinkhole Cases, and all twelve judges
signed the two per curiam opinions submitted in opposition to
Texas Brine’s mandamus petition.
31
See Canons of Jud. Conduct 2A, 3B.
32
See Tolmas, 87 So.3d at 855 (on motion to recuse a single
judge, the Court transferred the case to another circuit, “to be
heard anew … to avoid even the appearance of impropriety”); see
also Cordero (this Court remanded cases, allowing only judges in
the Fifth Circuit who had no prior involvement to continue to
decide them). 993 So. 2d at 206.

84a
admitted that it did not alter its rules or practices to
comply with Revised Statutes §13:319 and Code of
Civil Procedure article 2164.1 after those laws became
effective on August 1, 2018. Instead of randomly
assigning civil appeals, the First Circuit followed its
“longstanding” unwritten and unpublished practice of
assigning judges to appellate panels based on
geographic quotas. 33 The First Circuit has used
geographic quotas to assign civil appellate panels for
years 34, even as all other circuits engage in truly
random assignment. 35
First Circuit Chief Judge Whipple defended that
Court’s unwritten practice in hearings on the
Louisiana Senate bill enacting these statutes. 36
Although the Legislature unanimously rejected nonrandom assignment, the First Circuit disregarded
these laws after they became effective on August 1,
2018. When confronted with that issue, the First
Circuit responded disingenuously to Texas Brine’s
public records request, claiming “no records”
documented “any measures taken to ensure that
appellate panels are comprised of judges from

See October 4, 2019 First Circuit and October 29, 2019 First
Circuit Per Curiams; see also Affidavit of Rodd Naquin, attached
as Appendix C to Reply Memorandum in support of Motion to
Stay, September 25, 2019; see Affidavit of First Circuit Judge
Edward Gaidry [Retired] (March 25, 2019), attached as Exhibit
5 to Petition.
34
See Affidavit of Judge Gaidry [Retired], attached as Exhibit 5
to Texas Brine’s Petition.
35
See Affidavits of Renee Simien, Justin Woods and Cheryl
Landrieu, attached as Exhibits 6, 7 and 8 to Texas Brine’s
August 9, 2019 Petition; Affidavit of Lillian Richie attached as
Exhibit B.
36
See Exhibit 17 to Texas Brine’s September 2, 2019 Second
Amended Petition, at pp. 43-58.
33

85a
separate election districts.” 37 The Clerk of Court’s
September 9, 2019, Affidavit confirming such
practices 38 contradicted this contention, as did the
October 29, 2019 per curiam. 39 Interestingly, the First
Circuit changed its Internal Rules after the
consolidated Solomon mandamus case was filed on
July 31, 2019, as the Clerk’s affidavit cites an updated
version of its internal rules, noting they were “revised
August 2019.” 40
The First Circuit’s use of a geographic quota in
assigning appeals does not yield random results. 41
The term “random” ordinarily connotes an equal
probability of occurrence. 42 In this context, it would
suggest a system for assigning judges to three-judge
civil appeals in which each judge had an equal
probability of appearing on any particular civil
appellate panel, and that each First Circuit judge
would expect to serve on a civil appellate panel with
each of the other eleven judges an equal number of
times. The use of an unwritten geographic quota
See March 25, 2019 Response to Public Records Request,
attached as Exhibit 4 to Texas Brine’s Petition, at ¶ 4.
38
See Response to Public Records Act Request, previously
attached as Appendix B to Reply Memorandum in support of
Motion to Stay, September 25, 2019; see also Affidavit of Rodd
Naquin, attached as Appendix C to Reply Memorandum in
support of Motion to Stay.
39
See October 29, 2019 First Circuit per curiam.
40
See Rodd Naquin affidavit, attached to Opposition to Writ of
Mandamus, Sept. 9, 2019.
41
See March 26, 2019 Beyl Affidavit, attached as Exhibit 3 to
Texas Brine’s Petition.
42
See MERRIAM-WEBSTER ELEVENTH NEW COLLEGIATE
DICTIONARY (defining “random” as “without definite aim,
direction, rule or method” and “being or relating to a set or to an
element of a set each of whose elements has equal probability of
occurrence”)
https://www.merriamwebster.com/dictionary/random.
37

86a
dramatically limits the number of unique panels, from
220 unique combinations to 64 unique combinations,
eliminating 70.9% of all possible combinations
that can hear civil writ applications and appeals.
Further, the First Circuit’s use of geographic quotas
effectively prevents two judges from the same election
district from ever serving together on a three-judge
panel, absent recusals. 43
The First Circuit recently defended its use of its
unwritten practice as an exercise of its rulemaking
power under the 1974 Louisiana Constitution,
“notwithstanding any statutory enactment.” 44 While
the 1974 Constitution recognizes courts’ authority of
appellate courts to select judges for appellate panels
“according to rules adopted by the court,” Louisiana
courts’ rulemaking authority is not boundless. “That
authority has always been tempered with a
separation of powers induced submission to a
legislative enactment.” 45 The Louisiana Constitution
allows courts only to make rules “not inconsistent
with law,” i.e., not in conflict with legislation. 46 Code
of Civil Procedure article 193 provides that courts may
“adopt rules for the conduct of judicial business...
including those governing matters of practice and
procedure which are not contrary to the rules
provided by law” 47 and requires that rules “shall be
entered on the minutes of the court” and “shall

See March 26, 2019 Beyl Affidavit, attached as Exhibit 3 to
Texas Brine’s August 9, 2019 Petition.
44
See October 29, 2019 per curiam, at p. 1 (emphasis added).
45
See WILLIAM E. CRAWFORD, 12 LA. CIV. L. TREATISE, Tort Law §
27:58, District court rules – Analysis and jurisprudence
(November 2018) (“Crawford Treatise on Court Rules”).
46
Id.; LA. CONST. art V, § 5. (A) (emphasis added).
47
LA. CODE CIV. PROC. art. 193 (emphasis added).
43

87a
be published in the manner which the court
considers most effective and practicable.” 48
The unwritten nature of the First Circuit’s use of
geographic quotas makes this practice even more
unjust. A fundamental tenet of due process is notice.
If a rule is “unwritten,” there is no notice to the public.
Such an unconstitutional practice deprives the public
of the basic notice requirements required by both
federal and state due process requirements. 49
Further, Louisiana’s civil law system relies upon a
comprehensive compilation of written rules and
principles that are easily accessible to the public. The
unwritten nature of this practice violates the spirit of
the civilian tradition and undermines public trust in
the judiciary.
This Court has general and plenary supervisory
jurisdiction 50 over all courts to ensure compliance with
the law. 51 It guards the constitutional rights of
litigants to support the public perception of the
judiciary. The constitutional rights of civil litigants
are threatened if a case is allotted on a less-thanrandom basis. “Due process of law requires
fundamental fairness, i.e., a fair trial in a fair
tribunal.” 52
Random
assignment
promotes
fundamental fairness. A deviation from random

Id. (emphasis added).
Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532, 546
(1976); Hamilton v. Royal Intern. Pet. Corp., 2005-846.
50
Albert Tate, Jr., Supervisory Powers of the Louisiana Courts
of Appeal, 38 TUL. L. REV. 429, 430 (1964) (describing
supervisory jurisdiction as “plenary, unfettered by jurisdictional
requirements, and exercisable at the complete discretion of the
court.”).
51
LA. CONST. art. V, § 5 (A).
52
State v. Simpson, 551 So. 2d 1303, 1304 (La. 1989).
48
49

88a
assignment such as a geographic quota is highly
suspect when it is cloaked in secrecy.
In addition to its role as protector of parties’
constitutional rights, this Court has authority to
resolve inter-circuit conflicts and maintain uniformity
in the procedures of the intermediate appellate
courts. 53 Further, this Court has a strong interest in
ensuring transparency in lower courts’ procedures.
Transparency protects litigants and promotes the
integrity of the judiciary. For this reason, article 193
of the Code of Civil Procedure requires that appellate
court rules be published. 54
Through Texas Brine’s efforts, it is now apparent
that the First Circuit failed to alter its case
assignment practices after the August 1, 2018
effective date of article 2164.1 of the Code of Civil
Procedure and the amendment to Revised Statutes
§13:319. 55 Only after the specific issue of the First
Circuit’s noncompliance with state law in the Solomon
mandamus petition, filed on July 31, 2019, did the
First Circuit purport to alter its procedures: the Clerk
of Court’s affidavit refers to an updated version of its
internal rules, noting they were “revised August
2019.” 56 Even though the First Circuit now purports
to have changed its rule to partially comply with the
law, the panel assignments in the Sinkhole Cases
continue to reflect use of a non-random assignment
system. 57
LA. CONST. art. V, § 5 (A); LA. SUP. CT. R. X, § 1(a), 1.
See LA CODE PROC. art. 193.
55
See LA. CODE CIV. PROC. art. 2164.1; LA. REV. STAT. § 13:319
56
See Excerpt of First Circuit Rules, previously attached to the
Clerk of Court’s September 9, 2019 affidavit attached to Clerk of
Court’s Opposition to Petition for Writ of Mandamus.
57
See Exhibit C, November 15, 2019 Affidavit of Robbie Beyl,
Ph.D. at ¶¶ 18-20.
53
54

89a
Texas Brine asks this Court to enforce the law to
require truly random assignment of appellate panels
in the Sinkhole Cases. Further, to avoid the
appearance of impropriety as Judicial Canons 2A and
3B require, 58 Texas Brine asks this Court to transfer
all pending appeals and writs in the Sinkhole Cases
to another Louisiana Circuit Court of Appeal, as was
done under far less egregious circumstances in
Tolmas: no one suggested that the judge in Tolmas
violated the law.
SPECIFICATION OF ERROR

The First Circuit’s admitted practice of using a
non-random geographic component in assigning
appellate panels for civil appeals and writ
applications violates Louisiana law, public policy,
public confidence in the judiciary and Relators’
constitutional rights to due process of law and equal
protection under both the U.S. and Louisiana
Constitutions.
ARGUMENT

The First Circuit’s Use of an Unwritten
Geographic Quota to Assign Civil Appellate
Panels Violates Article 2164.1 of the
Louisiana Code of Civil Procedure and
Louisiana Revised Statutes § 13:319.
The First Circuit admits that it assigns civil
appellate panels using an unwritten practice to
ensure that one judge from each of its three
geographic districts sits on each three-judge appellate
panel. 59 This procedure does not constitute random
assignment as required by article 2164.1 of the
I.

See Canons of Jud. Conduct 2A, 3B.
The First Circuit contains three geographic districts, but five
election districts. The First Circuit’s geographic quotas focus on
the geographic districts, not the electoral districts.
58
59

90a
Louisiana Code of Civil Procedure and Revised
Statutes §13:319 since August 1, 2018.
A. Article 2164.1 of Louisiana Code of Civil
Procedure and Louisiana Revised
Statutes § 13:319 Require Random
Assignment of Civil Appellate Panels.
Louisiana law, as provided by article 2164.1 of the
Code of Civil Procedure and Revised Statutes §13:319,
guarantees the random assignment of civil appeals.
Before Article 2164.1’s enactment, the Louisiana Code
of Civil Procedure was silent on the issue of random
assignment of civil appellate panels. The Code of Civil
Procedure is no longer silent. Since August 1, 2018,
the Code has expressed the legislative mandate to
require random assignment of civil appeals.
The Louisiana Legislature amended §13:319 of
the Louisiana Revised Statutes and enacted article
2164.1 of the Code of Civil Procedure, both with
effective dates of August 1, 2018. 60 This law amended
Revised Statutes §13:319 by providing that “each civil
and criminal appeal . . . shall be randomly assigned
by the clerk, subject to the direct supervision of the
Court.” 61 The word “appeal” replaced the word

See Legislative History of Senate Bill 273, attached as Exhibit
11 to Texas Brine’s August 21, 2019 Amended Petition for Writ
of Mandamus and Request for Stay.
61
Previously, the word “appeal” was written as “proceeding.”
This textual change was to ensure that each separate “appeal”
be randomly allotted even if it arose from the same underlying
case. This substantive change was belatedly acknowledged by
the First Circuit in its per curiam dated October 29, 2019 and in
its amendment of its Internal Rules following the filing of the
Solomon mandamus petition, in August 2019, a year after
passage of Act 658 in 2018.
60

91a
“proceeding” in the text. 62 This law also enacted
article 2164.1 of the Code of Civil Procedure, which
provides, “The provisions of R.S. 13:319 shall be
applicable to assignment of appellate panels.” 63
The bill that became law was unanimously passed by
the Louisiana Senate by a 37-0 vote and by the
Louisiana House of Representatives by a 93-0 vote. 64
The most effective way of discovering the true
meaning of a law is by considering the reason and
spirit of it, or the cause which induced the legislature
to act. 65 The laws at issue here are clear: they require
“random assignment” of “appellate panels” in civil
cases. The Louisiana Legislature used the word
“random”; it did not qualify or limit the term “random”
to allow a geographic component. In Sprint, this Court
held that a statute requiring district court cases to be
“randomly assigned to a particular section or division
of the court” was a “clear and unambiguous
expression of the legislative mandate to end the
practice of non-random assignment.” 66 The purpose of
Article 2164.1 and Revised Statutes §13:319 is also
clear: to maintain the courts’ integrity and neutrality
and avoid the appearance of impropriety in assigning
civil appeals. This purpose aligns with Louisiana’s
public policy of protecting the public’s confidence in
See Text of Senate Bill 273 (emphasis added), attached as
Exhibit 12 to Texas Brine’s August 21, 2019 Amended Petition
for Writ of Mandamus and Request for Stay.
63
See id. (emphasis added).
64
See Roll Call Vote by Louisiana Senate, attached as Exhibit
13 to Texas Brine’s August 21, 2019 Amended Petition for Writ
of Mandamus; Roll Call Vote by Louisiana House of
Representatives, attached as Exhibit 14 to Texas Brine’s August
21, 2019 Amended Petition for Writ of Mandamus.
65
Keelen v. State, Dept. of Culture, 463 So. 2d 1287, 1289 (La.
1985).
66
Sprint, 699 So. 2d at 1061-63 (emphasis added).
62

92a
the integrity of the judiciary and avoiding even the
appearance of impropriety.
The legislative hearing record on the underlying
bill confirms this intent. At the May 3, 2018 House
Judiciary Committee hearing, the bill’s author
testified as to random assignment:
[A]s far as we can tell, most [circuits] do, or
possibly all do, but there is one circuit that we
found some cases that were not randomly
selected, but it is the general rule, and the
judges testified on the senate side and that is
the right way to do it, and the Louisiana
Supreme Court says that is the right way to
do it. 67
After Rep. Magee stated, “I assumed we had it [a
random allotment requirement], to be honest with
you,” the bill’s author explained, “It just wasn’t in the
statute.” 68 Rep. Marino noted, “I just assumed that
was the law that it had to be randomly selected and I
am in favor of your bill.” 69
The Louisiana Legislature unanimously passed
the random assignment bill over the objections of the
Chief Judge of the First Circuit, her First Circuit
colleague, Judge J. Michael McDonald, and
Respondent Rodd Naquin, who appeared before the
Senate Judiciary Committee. The Chief Judge
defended the First Circuit’s existing non-random

See Video of May 3, 2018 La. House Jud. Comm. hearing,
testimony
of
John
Milkovich,
available
at
http://house.louisiana.gov/H_Video/VideoArchivePlayer.aspx?v=
house/2018/may/0503_18_JU , at 4:10 – 4:30.
68
Id. 4:31- 4:35.
69
Id. at 6:12- 6:17.
67

93a
geographic quota procedures. 70 Judge McDonald also
argued against the importance of random assignment
of judges on the appellate versus the district court
level, to which Senator Luneau responded, “I can tell
you this, Judge, there are a lot of practicing
lawyers that wouldn’t agree with you on that
statement.” 71 This Court should likewise disagree
with the First Circuit’s rejection of random
assignment.
B. A Court Rule (Written or Unwritten)
Cannot Contravene a Statute.
While Louisiana courts are granted powers
necessary for the exercise of their jurisdiction, such as
adopting rules of court, those powers are limited.
Rules that contravene legislative enactments are null,
void and unenforceable. 72
The constitutional
delegation of certain rulemaking authority to the
courts does not alter this principle. This Court should
reject the First Circuit’s brazen assertion that it may
enact its own rules “notwithstanding any statutory
enactment.” 73
The First Circuit’s use of an unwritten geographic
quota conflicts with the positive law, thereby violating
the constitutional principle of separation of powers
See Exhibit 17 to Second Amended Petition, Transcript of
Senate Judiciary Committee “A” Debate on Bill 273 (Apr. 10,
2019) at 46 ll. 8-10 (emphasis added).
71
Id. at 35 l. 7 – 36 l. 5 (emphasis added).
72
See LA CONST. art. V § 5(A); LA. CODE CIV. PROC. art. 193;
Devereax v. Atkins, 51,473, (La. App. 2d Cir. 2017) 224 So. 3d
1160, 1164; see also Crawford Treatise on Court Rules, at Section
III - Nonconflicting Rule-making.
73
See October 29, 2019 per curiam, at p. 1 (emphasis added).
Indeed, the rationale of the First Circuit’s position suggests that
it could also issue unwritten rules dictating the composition of
appellate panels as to race, sex, political party, or eye color.
70

94a
codified in Louisiana Constitution Article II, §§ 1 and
2. The judicial branch is prohibited from infringing
upon the inherent powers of the legislative and
executive branches. 74 The power to create legislation
is vested in the Louisiana legislature. 75 The 1974
Constitution qualified this power to allow courts to
make rules “not inconsistent with law.” 76 The
grant of rulemaking authority to the courts of
Louisiana does not hobble the Legislature from
making laws that apply to Louisiana state courts.
Separation of powers is a fundamental principle
that binds the courts. This Court has held,
The creation of written or unwritten court
rules cannot trespass on this principle. The
legislative power of the state is vested in the
Legislature. La. Const. 1974, Art. III, § 1.
Except as expressly provided by the
constitution, no other branch of government,
nor any person holding office in one of them,
may exercise the legislative power. Id. Art. II,
§§ 1 and 2. Furthermore, it is a general
principle of judicial interpretation that, unlike
the federal constitution, a state constitution’s
provisions are not grants of power but instead
are limitations on the otherwise plenary
power of the people of a state exercised
through its legislature. In its exercise of the
entire legislative power of the state, the

LaBauvr v. La. Wildlife & Fisheries Comm’n, 289 So.2d 150,
151 (1974).
75
LA CONST. art. III § 1.
76
LA CONST. art. § 5(A) (emphasis added).
74

95a
Legislature may enact any legislation that the
state constitution does not prohibit. 77
This Court has long recognized that the judicial
branch must restrain itself from usurping legislative
and executive functions. 78 The separation of powers
doctrine embedded in the U.S. and Louisiana
Constitutions embodies this concept. To make this
separation clear, Louisiana Code of Civil Procedure
article 193, provides: “A court may adopt rules for the
conduct of judicial business before it, including those
governing matters of practice and procedure which
are not contrary to the rules provided by law. . .
. Rules adopted by an appellate court shall be
published in the manner which the court considers
most effective and practicable.” 79 Despite the First
Circuit’s contrary assertions, court-adopted rules
remain subordinate to legislative actions. A court’s
rulemaking authority is limited by the deference to
legislation: court rules lose legal effect if they conflict
with legislation. 80
Board of Com’rs of Orleans Levee Dist. v. Dep’t of Nat.
Resources, 496 So. 2d 281, 286 (La. 1986) (citations omitted). See
also State v. Mallery, 364 So.2d 1283, 1284 (La. 1978) (“Except
as limited by the constitution its power is plenary”); Swift v.
State, 342 So.2d 191, 194 (La.1977) (“Unlike Congress, our State
Legislature has all powers of legislation not specifically denied it
by the Louisiana Constitution”).
78
See LaBauve v. La. Wildlife & Fisheries Comm’n, 289 So.2d
150, 151 (1974) (finding that equity powers of civil trial court
were improperly invoked in attempt to prevent enforcement of
statute).
79
LA CODE PROC. art. 193 (emphasis added).
80
See LA CONST. art. V § 5(A); La. Code Civ. Proc. art. 193; supra
n.45 Crawford Treatise on Court Rules, at Section III Nonconflicting Rule-making. See also Futch v. Coumes, 347 So.2d
1121, 1123 (La. 1977) (“Courts may not adopt rules ‘contrary to
rules provided by law.’”); Trahan v. Petroleum Cas. Co., 250 La.
77

96a
In Sprint, this Court enforced the legislative
mandate to end the practice of non-random
assignment in civil cases in district courts. 81
Sprint arose out of the transfer of two class actions in
the 18th Judicial District Court to conserve judicial
resources and maximize case management. This
Court held that these practices violated Louisiana law
and public policy, rejected the District Court’s
“judicial economy and case management” justification
and held that “these [non-random] transfers violated
La. Code of Civ. Proc. art. 253.1, Local Rule 9, and
public policy and therefore cannot stand.” 82 This
Court should similarly recognize the primacy of the
legislative mandate to end the practice of non-random
assignment in civil cases in appellate court and
transfer all pending appeals and writs in the Sinkhole
Cases to another circuit.
C. The First Circuit’s Unwritten Rule
Requiring Geographic Quotas is Not
Random, as It Eliminates Over 70% of
Possible Combinations From Randomly
Assigned Panels and Ensures that Two
Members of the Same District Will Not
Serve Together on a Three-Judge Panel.
The imposition of geographic quotas is anathema
to the concept of randomness. Geographic quotas (1)
eliminate more than 70% of all possible three949, 200 So.2d 6, 8-9 (1967) (“rules of court which contravene
legislative enactments are null and void and cannot be
enforced.”); Helmer v. United Gas Pub. Serv., 175 La. 285, 143
So. 265 (1932); Dawson v. Eppley, 562 So.2d 1085 (La. App. 4 Cir.
1990); Boudreaux v. Yancey, 256 So.2d 1084 (La. App. 1 Cir.
1971); Raymond v. Zeringue, 386 So. 2d 1052 (La. App. 4th Cir.
1980).
81
Sprint, 699 So. 2d at 1062.
82
Sprint, 699 So. 2d at 1061.

97a
judge combinations and (2) ensure that two judges
from the same election district will never, absent
recusals, serve together on the same three-judge
panel. The term “random” connotes an equal
probability of occurrence. 83 As to three-judge civil
appellate panels, randomness requires a system in
which each judge has an equal probability of
appearing on any particular panel. In a random
system, each First Circuit judge should expect to serve
on a civil appellate panel with each of the other eleven
judges equally often. The First Circuit’s assignment
process is not “random” and contravenes Louisiana
law.
LSU biostatistics professor Robbie Beyl, Ph.D.
analyzed the First Circuit’s practices and the
empirical breakdown of the Sinkhole appeals, with a
particular focus on those occurring after the August 1,
2018 statutory effective date. Dr. Beyl computed that
there are 220 possible three-judge combinations that
can be formed from a twelve-judge appellate court. 84
However, by requiring exactly one judge from each of
the three geographic districts, the First Circuit’s
unwritten rule eliminates 70.9% of all possible
combinations, leaving just 64 of those 220
combinations. 85
The First Circuit’s “longstanding practice” has the
additional infirmity of preventing judges from the
See
MERRIAM-WEBSTER’S
ELEVENTH
NEW
COLLEGIATE DICTIONARY (defining random as “without
definite aim, direction, rule or method” and “being or relating to
a set or to an element of a set each of whose elements has equal
probability
of
occurrence”)
https://www.merriamwebster.com/dictionary/random.
84
See Exhibit C, Beyl Affidavit, at ¶ 7; March 26, 2019 Beyl
Affidavit, attached as Exhibit 3(a) to Petition.
85
Id.
83

98a
same district from serving together on the same threejudge panel. By default, if the First Circuit requires
that exactly one judge from each district serve on each
appellate panel, a necessary consequence of such a
rule is that two judges from the same geographic
district will never serve together on the same threejudge panel, absent recusals. “Random assignment”
contemplates that a judge is equally likely to serve
alongside each of his or her colleagues. But the First
Circuit’s rule renders that an impossibility – by
design.\
After the August 1, 2018 effective date of article
2164.1 of the Code of Civil Procedure and amended
Revised Statutes §13:319 to require random
assignment of all civil appeals, the First Circuit has
continued to impose geographic quotas in violation of
these laws:
 20 of the 33 appellate panels disclosed to the
parties after August 1, 2018, but before the
recusal of four judges on March 13, 2019,
consisted of exactly one judge from each
geographic district, even though there is only a
29.1% likelihood of a given panel featuring such
a distribution. 86 The probability against this
distribution randomly occurring is 29,588 to
1. 87


The odds become even more remote by
including appeals in which the panel was

See Exhibit C, Beyl Affidavit, at ¶¶ 10-11. The possibility that
certain judges separately recused themselves from the Sinkhole
Cases prior to March 13, 2019, resulting in the reassignment of
their places on the panels, prevents this proportion from being
even higher. Regardless, these odds greatly exceed what would
be expected under a genuinely random system.
87
Id. at ¶ 9.
86

99a
disclosed prior to August 1, 2018, but the
appellate ruling was issued after that date. In
such circumstances, in light of the new laws
requiring random assignment of appellate
panels, a ruling should not have been released
by an invalidly constituted panel – those panels
should have been reconfigured.
o

o

All five appellate panels within this
timeframe consisted of exactly one judge
from each district.
Taken together, the odds against 25 of 38
appellate panels either (1) disclosed
between August 1, 2018 and March 13,
2019, or (2) disclosed prior to August 1,
2018 but issued an opinion subsequent to
that date, consisting of exactly one judge
per geographic district is over 3 million to
1. 88

Even after the recusal of four judges on March 13,
2019, the First Circuit has persisted in constituting
panels consisting of exactly one judge from each
election district. Eleven of the fourteen appellate
panels identified after the March 13, 2019 recusals of
four judges fit this pattern. The odds against such a
distribution arising due to random chance are 285 to
1. 89 The First Circuit has now admitted that it
assigns appellate panels using an unwritten practice
that ensures that a judge from each of the three
geographic districts comprising the First Circuit sits

88
89

See Exhibit C, Beyl Affidavit, at ¶ 12.
Id. at ¶ 14.

100a
on each three-judge appellate panel. This unwritten
practice is not random allotment as required by law.
D. The Evidence Refutes the First Circuit’s
Claim that It Belatedly Changed Its
Practices to Partially Comply with the
Random Assignment Laws.
Although the First Circuit claims it belatedly
altered its case assignment practices a year after the
August 1, 2018 effective date for article 2164.1 of the
Code of Civil Procedure and Revised Statutes
§13:319, 90 Dockets released by the First Circuit
confirm that nothing has changed. Random
assignment is still not occurring.
The First Circuit admitted in its October 4, 2019
per curiam that it did not apply the express language
in article 2164.1 of the Code of Civil Procedure and
Revised Statutes §13:319 requiring that each civil
appeal be randomly assigned. In situations where
multiple appeals arose from the same underlying case
in the District Court, the First Circuit admitted that
it did not alter its standard practice of simply
reassigning a prior panel from that same case for
over a year. 91
This year-long delay is inexplicable. A before-andafter comparison of appeals assigned in Pontchartrain
undermines the First Circuit’s assertion that it
stopped reassigning previously constituted panels.
Three appellate panels were disclosed to the parties
in Pontchartrain on June 28, 2019, reflecting a panel
of Judges Lanier, Higginbotham, and Penzato. 92 The
La. Code Civ. Proc. art. 2164.1; LA. REV. STAT. §13:319.
See October 4, 2019 per curiam, at p. 2 (emphasis added).
92
See Dockets for 2018-CA-0492 2018-CA-0493, and 2018-CA0500, dated June 28, 2019. These panels contain exactly one
judge from each of the three election districts in the First Circuit.
90
91

101a
First Circuit purported to amend its Internal Rules
“effective July 10, 2019, as specifically codified into
the Court’s Internal Rules on August 9, 2019.” 93 But
eighteen days after the First Circuit recodified its
Internal Rules, it released three more appellate
dockets in Pontchartrain – again reflecting identical
panels of Judges Lanier, Higginbotham and Penzato
in each of the three appeals:
Case

Docket
No.

Date
Docket
released

1st
District
Judge

2nd
District
Judge

3rd
District
Judge

Pontchartr 2018-CAain
0492

6/28/2019 Lanier

Higginbotha
m

Penzato

Pontchartr 2018-CAain
0493

6/28/2019 Lanier

Higginbotha
m

Penzato

Pontchartr 2018-CAain
0500

6/28/2019 Lanier

Higginbotha
m

Penzato

Pontchartr 2018-CAain
0999

8/27/2019 Lanier

Higginbotha
m

Penzato

Pontchartr 2018-CAain
1159

8/27/2019 Lanier

Higginbotha
m

Penzato

Pontchartr 2018-CAain
1170

8/27/2019 Lanier

Higginbotha
m

Penzato

Thus, the composition of the three-judge panels
disclosed on August 27, 2019 are identical to those
released two months earlier in the same case. The
odds against such a distribution arising due to
random chance exceed 175,000 to 1. 94
The First Circuit may contend that the panels
which were disclosed on the August 27, 2019 dockets
in 2018-CA-0999, 2018-CA-1159, and 2018-CA-1170
were selected before the purported rule changes, but
were disclosed later. Even if true, that explanation is
93
94

See October 4, 2019 per curiam, at p. 2 (emphasis added).
See Exhibit C, Affidavit of Robbie Beyl, at ¶¶ 21-22.

102a
insufficient. The First Circuit knew that Louisiana
law required random assignment of all civil appeals
as of August 1, 2018. The First Circuit also knew that
its prior practices did not comply with the
requirements mandated by law – which is precisely
why it amended its Internal Rules. The First Circuit
should never have released dockets that fail to comply
with these statutes weeks after it amended its
Internal Rules. Even though the First Circuit
amended its Internal Rules, it did not alter its
internal practices. That failure necessitates this
Court’s intervention.
E. The First Circuit’s Prior Failure to
Randomly Assign Appeals Created a
Grossly Disproportionate Distribution of
Appeals Among Its Judges.
Numbers tell the story in this matter. The First
Circuit’s systematic failure to randomly assign
appeals creates a striking discrepancy in the number
of appeals heard by each of the First Circuit’s judges.
The First Circuit disclosed to the parties in the
Sinkhole Cases 33 appellate panels between August
1, 2018 (the effective dates of the statutes clarifying
the random assignment requirement) and March 13,
2019 (the date when four judges recused themselves
from further involvement in the Sinkhole Cases). Five
more appellate rulings were released during this
seven- and-a-half month window, without making any
attempt to comply with the statutory mandate.
Combined, on those 38 appeals, the First Circuit
judges were distributed as follows: 95
See Exhibit C, Beyl Affidavit, at ¶¶ 23-24. These totals do not
include numerous other appeals adjudicated in the Sinkhole
Cases prior to the August 1, 2018 effective date of the random
assignment statutes. This breakdown consists only of pre-recusal
appeals where (1) the panel composition was disclosed after the
95

103a
1st
District
Theriot

McDonald

Number 3rd
Number
District
24
Crain
21

Holdridge 9

Guidry

13

Lanier/Pe 5
ttigrew 96
Whipple
0

Higginbotham 12

Number
13

2nd District

Welch

1

Penzato 13
McClen 3
don
Chutz
0

This
practice
created
gross
statistical
discrepancies – for example, one 2nd District judge was
on 24 appeals during this timeframe while one of his
2nd District colleagues was on just one such panel. The
odds against this discrepancy is strikingly high: over
994 billion to one. 97
As discussed below, the First Circuit’s failure to
randomly assign appeals as required by law cannot
simply be disregarded going forward. Instead, the
consequences of the First Circuit’s failure to apply
Louisiana law requiring the random assignment of
appeals requires the transfer of appellate litigation in
the Sinkhole Cases to another circuit which faithfully
applies Louisiana law.
F. Due to Recusals, the First Circuit’s Use of
Geographic Quotas Creates an Uneven
Probability of Drawing All First Circuit
Judges Going Forward.
Random assignment should require that the
likelihood of drawing one judge for a particular appeal
is equivalent to the likelihood of drawing any other
August 1, 2018 statutory effective date, or (2) the appellate
ruling was issued after the August 1, 2018 statutory effective
date, thereby reflecting a failure to reassign the panels in
accordance with article 2164.1 and Revised Statutes §13:319.
96
Judge Lanier succeeded Judge Pettigrew in the 1st District,
Division A, effective January 1, 2019.
97
See Exhibit C, Beyl Affidavit, at ¶¶ 25-27.

104a
unrecused judge. But the First Circuit’s use of
geographic quotas, coupled with the recusals of two
judges from both the 1st and 3rd geographic districts,
means that the likelihood of drawing one of the
remaining judges from these districts is now
markedly higher than drawing a particular judge
from the 2nd district.
Two judges remain from the 1st District and the 3rd
District, while all four 2nd District judges remain. The
First Circuit’s use of geographic quotas ensures that,
going forward, the judges from the 1st and 3rd Districts
will be overrepresented on panels in the Sinkhole
Cases. Dr. Beyl attested that the remaining judges
from Districts 1 and 3 would be on 30 of the 56 possible
panels consisting of exactly one judge from each
district, while a particular judge from District 2
should only be on 14 of the 56 possible panels. With
random assignment, each of the eight remaining
judges would have a 37.5% likelihood of being on one
of the 56 possible panels (i.e. 21 panels). 98
II. The First Circuit Violated Public Policy by
Using an Unwritten Geographic Quota.
This Court held that “random assignment
procedures promote fairness and impartiality and
reduce the dangers of favoritism and bias” 99 and has
invalidated case transfers that were not the result of
a “truly random[] assign[ment].” 100 Why? Because
randomness matters. Randomness matters because it
prevents both the reality and the appearance of
impropriety, by guaranteeing that no other process
is used that could impact the outcome of the case. 101
Id., at ¶ 18-19.
Sprint, 699 So.2d at 1063 (emphasis added).
100
Id. (emphasis added)
101
See Marin K. Levy, Panel Assignment in the Federal Courts
of Appeals, 103 CORNELL L. REV. 65, 100-102 (2017), (“In the
98
99

105a
“Not only is random assignment assumed to be the
status quo, it is also a popular, venerated practice.” 102
Random assignment provides a level playing field for
all litigants – plaintiffs and defendants alike – and
reduces the dangers of favoritism and bias. It does not
matter whether the court actually acted in bad faith
or with improper motives in the Sinkhole Cases. In
addition to violating Louisiana law, the non-random
unwritten geographic quota in these cases creates an
appearance of impropriety. Such a system raises
issues of partiality and calls into question the
integrity of the decision-making process – and
ultimately, erodes the public’s faith in the integrity of
the Court system.
III. The Use of a Geographic Quota Does Not
Pass Constitutional Muster.
The First Circuit’s imposition of geographic
quotas, despite the statutory mandate requiring
random
assignment
of
civil
appeals,
is
unconstitutional. As attested by Erwin Chemerinsky
– the dean of the University of California, Berkeley
School of Law and by some measures the nation’s
preeminent constitutional law scholar 103 – the First
Circuit’s case assignment practices infringe upon
Texas Brine’s rights to due process and equal
protection. Notably, Professor Chemerinsky provides
this analysis uncompensated. 104 Moreover, the
realm of assigning cases to panels, randomness ensures that no
process is employed that would bias the outcome of cases and
assures the public that the process is fair.”).
102
See Katherine A. MacFarlane, The Danger of Nonrandom
Case Assignment: How the Southern District of New York’s
“Related Cases” Rule Shaped Stop-and-Frisk Rulings, 19 MICH.
J. OF RACE & LAW 199, 205 (Issue 2, 2014).
103
See n.6, supra.
104
See Exhibit A, Chemerinsky Affidavit, at ¶ 3.

106a
purported justification previously offered by the First
Circuit flouts the principle of separation of powers.
Finally, the use of geographic quotas cannot be
justified on the basis of increasing minority
participation on appellate panels.
A. The Right to Due Process Requires a Fair
and Impartial Decisionmaker.
The Fourteenth Amendment to the U.S.
Constitution and Article I, Sections 2 and 22 of the
Louisiana Constitution ensure the right to due
process. 105 The U.S. Supreme Court has held that
“fundamental fairness” is the “touchstone of due
process.” 106 Further, “it is axiomatic that ‘[a] fair trial
in a fair tribunal is a basic requirement of due
process.’” 107 Both the “appearance as well as the
actuality of fairness, impartiality, and orderliness”
constitute “the essentials of due process.” 108 The
requirement of neutrality “preserves both the
appearance and reality of fairness, ‘generating the
feeling, so important to a popular government, that
justice has been done.’” 109 A due process violation may
be shown by “objective standards that do not require
proof of actual bias.” 110 Moreover, the analysis is not
restricted to criminal matters: the U.S. Supreme

U.S. CONST., 14TH AM., § 1; LA. CONST. ART. 1, §§ 2 & 22.
Gagnor v. Scarpelli, 411 U.S. 778, 790 (1973).
107
Caperton v. A.T. Massey Coal Co., Inc., 556 U.S. 868, 876
(2009) (quoting In re Murchison, 349 U.S. 133, 136 (1955)).
108
Application of Gault, 387 U.S. 1, 26 (1967).
109
Marshall v. Jerrico, Inc., 446 U.S. at 242 (citing Mathews v.
Eldridge, 424 U.S. 319, 344 (1976) (quoting Joint Anti-Fascist
Committee v. McGrath, 341 U.S. 123, 172(1951) (Frankfurter, J.,
concurring)).
110
Caperton, 556 U.S. at 883.
105
106

107a
Court has confirmed that the right to due process
applies in civil settings as well. 111
Here, Texas Brine enjoys property rights in
numerous rulings issued by the District Court which
are imperiled by the First Circuit’s conscious
disregard of Louisiana law in assigning civil appeals
in a non-random fashion. Examples of such rulings
include those (1) holding non-Texas Brine parties 65%
responsible for causing the Bayou Corne sinkhole,
thereby giving Texas Brine the right to recover its own
damages in tort and/or contract, and (2) holding that
certain insurers have a duty to defend Texas Brine in
Sinkhole Cases and related proceedings. Texas Brine
enjoys property rights in these rulings – but those
property rights have been threatened by the First
Circuit’s case assignment practices, thereby
implicating the Fourteenth Amendment to the U.S.
Constitution as well as Article I, Sections 2 and 22 of
the Louisiana Constitution. 112
The First Circuit systematically disregarded the
enactment of article 2164.1 of the Code of Civil
Procedure and the amendment of Revised Statutes
13:319, after those statutes became effective on
August 1, 2018. The First Circuit admitted in its
October 4, 2019 per curiam that, for over a year, it
continued to routinely assign civil appeals to appellate
panels which had previously been convened within
the same case. The First Circuit admitted in its
October 29, 2019 per curiam that it still uses
geographic quotas to assign judges to appellate
panels.

111
Id. at 876. See also Concrete Pipe & Prods. of Cal., Inc. v.
Constr. Laborers Pens. Trust, 508 U.S. 602, 617 (1993).
112
See Exhibit A, Chemerinsky Affidavit, at ¶ 11.

108a
Taken together, these practices have resulted in
certain judges having a grossly disproportionate share
of appeals in Sinkhole Cases, while others have
handled comparatively few, creating troubling due
process implications. Notably, four First Circuit
judges recused themselves from all of the Sinkhole
Cases, citing the need to “avoid the appearance of
impropriety” last March. 113 Even though those
recusal orders were issued in the context of a motion
to recuse a particular judge and a related motion to
grant Texas Brine an evidentiary hearing, those four
judges apparently remain recused, having cited the
“appearance of impropriety.” Over a dozen appeals
have been assigned to three-judge panels since their
recusal – but none to any of those four judges.
Instead, certain judges have appeared on over
twenty appellate panels in the Sinkhole Cases since
the August 1, 2018 statutory amendments. Other
judges have appeared on very few panels. The
disproportionate allotment of appeals, coupled with
their sheer volume, creates an environment uniquely
susceptible to the problems of cognitive bias and
confirmation bias, where “individual decision-makers
and decision-focused groups have a strong tendency to
involuntarily and unconsciously search for and
believe information that confirms previously formed
judgments and opinions and limits objective attention
so as to validate prior judgments rather than
evaluating carefully the judgment tasks in front of
them.” 114
Confirmation bias is “particularly
problematic over time because it creates commitment
effects – the unconscious bias in favor of consistency
with prior judgments rather than objectively
113
See Orders of Recusal, Exhibit 4 to August 9, 2019 Petition
for Writ of Mandamus.
114
See Exhibit F, Rowland Affidavit, at ¶ 9.

109a
evaluating the judgment task at hand.” 115 Because
these phenomena occur subconsciously, individuals
are unaware of their effects, and any disclaimer that
an individual is unbiased or maintains an open mind
cannot be taken at face value.
This important concept has been acknowledged by
no less than the U.S. Supreme Court. In Williams v.
Pennsylvania, the Court held, “There is, furthermore,
a risk that the judge ‘would be so psychologically
wedded’ to his or her previous position as a
prosecutor that the judge ‘would consciously or
unconsciously avoid the appearance of having erred or
changed his position.’” 116 This language mirrors Dr.
Rowland’s explanation of confirmation bias. Notably,
it arose in circumstances far more tenuous than exist
here. In Williams, one appellate court judge served as
the district attorney regarding the underlying crime
26 years earlier and made certain strategic decisions
but was not involved in the day-to-day prosecution of
the case. Conversely, here, certain judges have served
on more than twenty appellate panels in the
Sinkhole Cases in the fifteen months since the
amended statutes requiring random allotment
became effective. 117 The actions giving rise to the
risk of confirmation bias and cognitive bias are more
numerous, more time-intensive, and more recent than
the lone act in Williams.
Texas Brine is uniquely situated. The typical
litigant is a one-time player with a single case
assignment in dispute. Texas Brine, however, has
been a party to literally scores of appeals in the
Sinkhole litigation. The preeminent constitutional
Id. at ¶ 10.
136 S.Ct. 1899, 1906 (2016) (quoting Withrow v. Larkin, 421
U.S. 35, 57 (1975)).
117
See Exhibit C, Beyl Affidavit, at ¶¶ 21-22.
115
116

110a
law scholar Erwin Chemerinsky attested that, while
a party may not normally be able to assert a due
process violation based on random assignment, these
are no ordinary circumstances: not only does Texas
Brine have a substantial record of appeals, but the
First Circuit has admitted to violating state law.
Professor Chemerinsky identified four factors unique
to this situation to justify a finding that the First
Circuit violates Texas Brine’s right to due process
through its case assignment practices: 118
Although there is conflicting caselaw on the
question of whether a violation of random
assignment requirements constitutes a due
process violation most such rulings involved a
one-time litigant where it was not apparent
how that party’s case would have been
assigned to another judge or panel. I am not
aware of any jurisprudence asserting this
principle in the context of (1) a litigant with
literally dozens of separate appeals before a
particular court where (2) the Court is subject
to multiple governing statutes requiring that
each appeal be randomly assigned, where (3)
that Court has acknowledged that it has failed
to apply those statutes during the pendency of
several dozen appeals, and (4) where that
Court has instead invoked an unwritten rule
to justify its case assignment decisions.
Based on these considerations, Professor
Chemerinsky concluded that “the First Circuit’s case
assignment practices, whereby it assigns exactly one
judge from each of the circuit’s three geographic

118
See Exhibit A, Chemerinsky Affidavit, at ¶ 19 (emphasis
added).

111a
districts to each panel, fails to satisfy the
requirements of due process.” 119
B. The First Circuit’s Use of Geographic
Quotas Denies the Right of Equal
Protection to Litigants in the First
Circuit.
The Fourteenth Amendment to the U.S.
Constitution also protects the right to equal protection
under the law. Here, too, the First Circuit’s case
assignment procedures fall short, as confirmed by
Professor Chemerinsky.
The First Circuit fails to apply Louisiana law
uniformly. While article 2164.1 of the Code of Civil
Procedure and Revised Statutes §13:319 mandate the
random assignment of all civil appeals, the First
Circuit employs markedly different case assignment
procedures than the other four circuits, as confirmed
by the Clerks of Court for the Second, Third, Fourth,
and Fifth Circuits. 120 The clerks of the other four
circuits have confirmed that they employ random case
assignment processes, that they do not use geographic
quotas, and that judges from their courts regularly
serve on panels with each of their colleagues
throughout the course of a year. 121
The First Circuit’s unwritten rule imposing
geographic quotas ensures that a judge from East
Baton Rouge Parish is, barring a recusal, on every
First Circuit panel. The 2nd geographic district is

Id. at ¶ 20 (emphasis added).
See Exhibit B, Affidavit of Lillian Evans Richie (Second
Circuit); see also Affidavits of Renee Simien (Third Circuit),
Justin Woods (Fourth Circuit), and Cheryl Q. Landrieu (Fifth
Circuit), attached as Exhibits 6-8 to Petition.
121
Id.
119
120

112a
contiguous with East Baton Rouge Parish. 122 Thus, by
unwritten rule, because the First Circuit normally
assigns one judge from each geographic district to
decide each appeal, East Baton Rouge Parish is
always represented on appellate panels throughout
the First Circuit. Indeed, all 52 Sinkhole Case appeals
where either (1) the panel was disclosed after the
August 1, 2018 effective date of the random
assignment statutes, or (2) the appellate ruling was
issued subsequent to August 1, 2018, featured a panel
with a judge from East Baton Rouge Parish. 123 No
other parish in Louisiana receives the same treatment
by a rule of court, whether written or unwritten.
Unlike the other four circuits, the First Circuit
does not provide random assignment in civil appeals.
Litigants in those four circuits can be assured that
their appellate panels are randomly assigned – but
those in the First Circuit have no such assurance. The
First Circuit persists in imposing an uncodified
geographic quota. Moreover, the Pontchartrain
appellate panels released on August 29, 2019 belie the
First Circuit’s assertion that it recently began
randomly assigning panels – those three panels are
identical to those issued in Pontchartrain two months
earlier, when that court was admittedly reassigning
previously constituted panels in the same case. 124
In light of these considerations, Professor
Chemerinsky concluded that “the First Circuit’s case
assignment procedures are arbitrary, capricious, and

LA. REV. STAT. §13:312(1)(b) (“The Parish of East Baton
Rouge shall compose the second district of the first circuit.”).
123
See Exhibit C, Beyl Affidavit, Appendix 1.
124
A fuller discussion of this phenomenon is discussed on pages
14-15, supra.
122

113a
fail to satisfy any rational purpose.” 125 Thus, he
opined that “the First Circuit has deprived Texas
Brine of equal protection of the laws, specifically
including article 2164.1 of the Louisiana Code of Civil
Procedure and Revised Statutes §13:319.” 126 He also
emphasized that “no other parish” is guaranteed, by
rule, to have a judge from that parish on a particular
appellate panel, and “any such explicit requirement
would implicate the equal protection clause and
whether there is a rational basis for such a rule.” 127
Notably, a Florida court held in State ex rel. Zuberi v.
Brinker that “we have come to the conclusion that it
may be a denial of equal protection of the law” for “two
different methods” to be used in assigning judges to
cases. 128 That situation exists here, when comparing
the First Circuit to its sister circuits.
C. The
First
Circuit
Ignores
the
Constitutional Principle of Separation of
Powers.
In its October 29, 2019 per curiam, the First
Circuit asserted that it enjoys the constitutional
authority to enact its own rules governing the creation
of appellate panels. 129 The First Circuit asserted that
this right trumps the laws duly enacted by the
Legislature, asserting “the composition of such

See Exhibit A, Chemerinsky Affidavit, at ¶ 22; see also
Lindsey v. Normet, 405 U.S. 56, 79 (1972) (holding that
“arbitrary and irrational” requirement violates equal protection
clause).
126
Id. at ¶ 21.
127
Id. at ¶ 24.
128
323 So.2d 623, 625 n.5 (Fla. App. 1975).
129
See Additional Response, Oct. 4, 2019 per curiam; see also,
Oct. 29, 2019 per curiam and Appendix A thereto.
125

114a
panels is specifically reserved to each court,
notwithstanding any statutory enactment.” 130
This language distorts the courts’ role in our
constitutional framework.
As emphasized in Section I(B) supra, the
separation of powers doctrine is firmly enshrined in
Louisiana constitutional law. The judicial branch
cannot infringe upon the province of the legislature to
enact laws. 131 Article 2164.1 and Revised Statutes
§13:319 mandate the random assignment of civil
appeals. 132 Furthermore, article 193 of the Code of
Civil Procedure requires that any “rules adopted by
an appellate court shall be published in the manner
which the court considers most effective and
practicable.” 133 As the Crawford Treatise on Court
Rules emphasizes, Louisiana courts cannot
disregard
legislative
authority.
Courts’
rulemaking authority “has always been tempered
with a separation of powers induced submission to a
legislative enactment.” 134
Consequently, the
separation of powers doctrine provides yet another
constitutional basis for this Court to reject the First
Circuit’s failure to randomly assign civil appeals.
D. The First Circuit’s Use of a Geographic
Quota Does Not Advance the Interest of
Racial Diversity on Appellate Panels or
Prevent “Home-Cooking.”
Certain amici have suggested that the First
Circuit’s geographic quota ensures racial diversity on
See Oct. 29, 2019 per curiam, at p. 1 (emphasis added).
Board of Com’rs of Orleans Levee Dist. v. Dep’t of Nat.
Resources, 496 So.2d 281, 286 (La. 1986).
132
La. Code Civ. Proc. art. 2164.1; LA. REV. STAT. §13:319.
133
La. Code Civ. Proc. art. 193 (emphasis added).
134
See Crawford Treatise on Court Rules § 27:58, District court
rules – Analysis and jurisprudence (Nov. 2018).
130
131

115a
appellate panels. 135 The notion that the First Circuit’s
use of geographic quotas ensures racial diversity in
appellate panels is incorrect, both from a
mathematical and a common-sense standpoint. In
fact, it makes no difference whether geographic
quotas are used: either way, a particular judge should,
barring recusals, appear on 25% of all panels. A false
rationale cannot justify a policy that is prohibited by
law, no matter how well-intentioned it may be.
The Louisiana Legislature has created one
“majority-minority” electoral subdistrict in Division 2,
with the objective of creating a more racially diverse
judiciary. This mandamus claim does not, in any way,
challenge that statutory enactment or the laudable
goal of ensuring racial diversity in the judiciary. But
to the extent that the First Circuit seeks to accomplish
increased minority presence on appellate panels, its
requirement that each panel contain exactly one
member from each electoral district does nothing to
advance this worthy objective. In a purely random
system, where all possible combinations of judges can
be selected, 55 out of 220 possible combinations will
feature any one particular judge – i.e., 25%. 136 If the
panels are balanced to require exactly one judge from
three geographic districts, then there are 64 possible
panels, 16 of which would contain any one particular
judge – once again, 25%. 137 Thus, the requirement
that each panel contain one member from each
electoral district does not advance this objective – and
as detailed above, this practice violates the statutory
See affidavit of Gail Stephenson, originally filed March 26,
2019, attached as Appendix 2 to Peremptory Exception of No
Cause of Action and Opposition to Petition for Writ of
Mandamus, filed Sept. 9, 2019.
136
See Exhibit C, Beyl Affidavit, at ¶ 28.
137
Id.
135

116a
requirement of random assignment. Moreover, for a
Court to employ such a classification violates the
equal protection clause.
At hearings on the random assignment bill, Chief
Judge Whipple defended the First Circuit’s
geographic quota assignment method by suggesting
that judges rule on the basis of localized preferences,
stating, “In the First Circuit, we don’t want home
cooking . . . We don’t have home cooking for or against
anybody because we do that.” 138 Such “home cooking”
logic as a defense for the First Circuit’s failure to
comply with the substantive law requiring random
assignment to appellate panels as effective August 1,
2018 is an affront, mistakenly treating judges as
representatives of a particular region. 139 Judges are
elected to district courts, appellate circuits, and the
Supreme Court from various geographic elective
districts across the state. Appellate judges in other
circuits are randomly assigned to hear cases from
throughout the parishes in their entire appellate
circuit area, and this Court hears cases from all 64
parishes across the state. According to the “home
cooking” rationales used to support the First Circuit’s
geographic quotas, the U.S. Fifth Circuit Court of
Appeals would have to have a judge each from Texas,
Exhibit 17 to Second Amended Petition, Transcript of Senate
Judiciary Committee “A” Debate on Senate Bill 273 (Apr. 10,
2019) at 46 ll. 8-10 (emphasis added).
139
It is nonsensical to invoke a desire to avoid “home cooking” as
a basis to impose geographic quotas: judges are not legislators,
and they should not be presumed to represent particular
localized interests. But even if this characterization were correct,
the First Circuit’s rule does nothing to ameliorate this problem.
For example, by applying a rule requiring one judge from each of
three geographic districts, nothing would prevent judges from
two districts from agreeing to override the vote of the judge from
a different, perhaps demographically distinct district.
138

117a
Louisiana, and Mississippi on every three-judge panel
– such is clearly not the case. The “home cooking”
rationale relies on a mistaken conception of judges as
legislators concerned solely with parochial interests.
IV. Texas Brine Is Entitled to Enforcement of
Random Assignment of Civil Appellate
Panels and Transfer of the Sinkhole Cases to
Another Circuit Court of Appeal.
The general remedy in this case is for this Court
to invalidate the non-random assignments of civil
panels in all cases and to compel the First Circuit to
comply with the law requiring random assignment of
appeals and appellate panels. This remedy comports
with this Court’s ruling in Sprint, which addressed
violations of random assignment statutes that apply
to the district courts.
But additional relief is required here. All pending
and future appeals and writ applications in the
Sinkhole Cases must be transferred to another circuit.
Texas Brine is directly adverse to the First Circuit as
an institution in this mandamus action, and its judges
have interjected themselves into the proceedings by
issuing per curiams defending its practices against
Texas Brine’s charges. During the pendency of this
mandamus claim, the First Circuit has continued to
rule on appeals in the Sinkhole Cases – including
setting four separate oral arguments on less than the
30 days notice required by Uniform Rule 2-11.9, and
summarily denied Texas Brine’s motions to stay those
arguments. 140 Since this Court’s September 20, 2019
Order reasserting its plenary jurisdiction over the
mandamus action directed against the First Circuit’s
140
See UNIF. R. LA. CT. APP. 2-11.9. The appeals in question
bear docket numbers 2019-CA-0024, 2019-CA-0052, 2019-CA0054, and 2019-CA-0624.

118a
Clerk of Court, the First Circuit has issued seven
appellate opinions 141 and a rehearing denial 142 – all
adverse to Texas Brine.
A ruling merely stating that the First Circuit
must randomly assign appeals and writ applications
in the Sinkhole Cases, without more, will do nothing
to rectify the problems created by the First Circuit’s
disregard of article 2164.1 of the Code of Civil
Procedure and Revised Statutes §13:319. Appeals are
not decided in a vacuum. Rulings already rendered by
improperly constituted panels threaten to influence
future decisions. Via the “law of the circuit”
doctrine,” 143 even if a future First Circuit Sinkhole
Case panel is randomly assigned in perfect
compliance with state law, it may be constrained by
rulings already rendered by an invalidly
constituted panel. In effect, future First Circuit
panels may find their hands tied by rulings already
See Pontchartrain Nat. Gas Sys. v. Texas Brine Co., LLC,
2018-CA-0492 (La. App. 1 Cir. 9/27/2019), -- So.3d --, 2019 WL
4727542, Pontchartrain Nat. Gas Sys. v. Texas Brine Co., LLC,
2018-CA-0492 (La. App. 1 Cir. 9/27/2019), -- So.3d --, 2019 WL
4727543. Five rulings were issued on November 15, 2019, and
they are not yet reported: these opinions are Pontchartrain Nat.
Gas Sys. v. Texas Brine Co., LLC, 2018-CA-0500 (La. App. 1 Cir.
Nov. 15, 2019); Pontchartrain Nat. Gas Sys. v. Texas Brine Co.,
LLC, 2018-CA-1159 (La. App. 1 Cir. Nov. 15, 2019);
Pontchartrain Nat. Gas Sys. v. Texas Brine Co., LLC, 2018-CA0999 (La. App. 1 Cir. Nov. 15, 2019); Fla. Gas Transmission Co.,
LLC, 2018-CA-1714 (La. App. 1 Cir. Nov. 15, 2019); and
Pontchartrain Nat. Gas Sys. v. Texas Brine Co., LLC, 2018-CA1170 (La. App. 1 Cir. Nov. 15, 2019). Notably, while some of these
rulings dismissed appeals based on a lack of subject matter
jurisdiction, Texas Brine was charged with all costs.
142
See Crosstex Energy Servs., LP v. Texas Brine Co., LLC, 2018CA-1231 (La. App. 1 Cir. 9/25/2019).
143
Succession of Johnson, 2016-1115 (La. App. 1 Cir. 2/17/2017),
2017 WL 658775.
141

119a
rendered by that Court on related issues in the
Sinkhole Cases. This concern is not academic; on
multiple instances to date – including one issued mere
hours before this brief was submitted – the First
Circuit has invoked the “law of the circuit” doctrine. 144
A motion is currently pending before the First Circuit
regarding the Phase I liability judgment – the
culmination of a three-week trial involving 50
witnesses (live and by deposition) and nearly 700
exhibits – seeking to vacate the District Court’s
assessment of liability against three parties based on
the “law of the circuit” doctrine. 145
Any relief
requiring Texas Brine to remain before an
institutionally adverse court, and which threatens to
defer future appeals and writ applications to prior
rulings made by a series of illegally constituted
appellate panels, would be purely illusory. At a
minimum, such a scenario will create an appearance
of impropriety far stronger than that which existed in
Tolmas, where this Court held that transfer to a
different circuit court was warranted.
Moreover, Dr. Rowland has opined that the
rulings by the First Circuit in the Sinkhole Cases
indicate the influence of cognitive bias, confirmation
bias and groupthink — subconscious biases that affect
the
decision-making
process
under
certain
See Pontchartrain Nat. Gas Sys. v. Texas Brine Co., LLC,
2018-0001 (La. App. 1 Cir. 6/4/2018), 253 So.3d 156;
Pontchartrain Nat. Gas Sys. v. Texas Brine Co., LLC, 2018-0004
(La. App. 1 Cir. 6/6/2018), 255 So.3d 644. In addition, this
doctrine was invoked in Pontchartrain Nat. Gas Sys. v. Texas
Brine Co., LLC, 2018-CA-1170 (La. App. 1 Cir. Nov. 15, 2019);
this case has not yet been reported on Westlaw as of the time of
filing.
145
See Motion, filed Oct. 4, 2019 in 2018-CA-1391, Fla. Gas
Transmission Co., LLC v. Texas Brine Co., LLC.
144

120a
circumstances. 146 Dr. Rowland notes that “[b]ecause
of the subconscious nature of these biases, it is
overwhelmingly improbable that their effect can be
disregarded or bypassed.” 147 In other words, it is not
enough for a particular First Circuit judge to declare
that he or she is not “biased.” Dr. Rowland opines that
“these biases have manifested in the First Circuit as
a group through the history with the First Circuit as
a whole and the public exposure of the First Circuit’s
violation of the Louisiana law requiring random
assignment of appellate panels.” 148 In Dr. Rowland’s
opinion, “the First Circuit as a whole cannot
impartially decide the appeals and writ applications
in the sinkhole cases going forward.” 149 Indeed, the
threat of confirmation bias has already manifested
itself where the First Circuit made factual
declarations that were affirmatively contradicted by
the record, yet refused to correct itself after Texas
Brine demonstrated that the record contradicted the
Court’s proclamations. 150
See Exhibit F, Rowland Affidavit, at ¶¶ 6-12.
Id. at ¶ 13.
148
Id. at ¶ 14.
149
Id. at ¶ 15.
150
For example, in Pontchartrain Natural Gas System v. Texas
Brine Co., LLC, the First Circuit ignored unrefuted expert
testimony, which the District Court credited in its factual
findings regarding the causation of the sinkhole, in affirming the
involuntary dismissal of a party. 2018-0631 (La. App. 1 Cir. July
3, 2019), 2019 WL 2865136. Even after Texas Brine
demonstrated that the First Circuit applied a legally incorrect
standard – requiring Texas Brine to prove a “definitive path” for
brine leakage rather than what was “more probable than not,”
the First Circuit refused to revisit its factual mischaracterization
of the testimony. Compounding matters, the First Circuit has
subsequently cited this ruling on multiple other occasions. See
Crosstex Energy Servs., L.P. v. Texas Brine Co., LLC, 2018-CA1122 (La. App. 1 Cir. 9/16/2019), 2019 WL 4409140; Fla. Gas
146
147

121a
In Tolmas, this Court found transfer of a case
from one circuit to another to be the proper remedy
when necessary “to avoid even the appearance of
impropriety.” 151 That remedy is also necessary in the
unique procedural posture of the Sinkhole Cases. The
combination of (1) the sheer volume of civil appeals
and writ applications involving Texas Brine, (2) the
First Circuit’s admitted failure to apply the laws
requiring random assignment, (3) Texas Brine’s role
in exposing the First Circuit’s noncompliance with
article 2164.1 of the Code of Civil Procedure and
Revised Statutes §13:319, and (4) the concerns of the
“appearance of impropriety” already articulated by
one-third of the First Circuit requires that a ruling in
Texas Brine’s favor also include the transfer of all
pending and future appeals and writ applications in
the Sinkhole Cases to another circuit.
CONCLUSION

The First Circuit has failed to comply with article
2164.1’s and Revised Statutes §13:319’s statutory
mandate of random assignment of civil appeals. That
court has admitted to violating the law, and the nonrandom assignment of civil appeals in the Sinkhole
Cases persists to this day. Its continued used of
unwritten rules in assigning appeals violates
fundamental due process tenets. This Court has the
duty to police the lower courts, as it did in Sprint –
and particularly where a court usurps the role of the
legislature. Likewise, this Court must protect against
violation of litigants’ rights to due process and equal
Transmission Co., LLC v. Texas Brine Co., LLC, 2018-CA-0907
(La. App. 1 Cir. 8/29/2019), 2019 WL 4073383; Crosstex Energy
Servs., L.P. v. Texas Brine Co., LLC, 2018-CA-0900 (La. App. 1
Cir. 8/5/2019), 2019 WL 3561759.
151
See Tolmas, 87 So. 3d at 855.

122a
protection and must enforce Louisiana’s public policy
requiring random allotment of all civil appeals. The
First Circuit’s disregard of its statutory duties
requires that this Court enforce the random
assignment requirement. But given the adversarial
relationship Texas Brine has been forced to have with
the First Circuit and the First Circuit’s clearly
entrenched positions (whether conscious or
unconscious), coupled with the risk that rulings from
illegally constituted appellate panels wills still
influence the First Circuit’s future actions, this Court
should transfer all pending and future appeals and
writ applications in the Sinkhole Cases to another
circuit. Justice and fundamental fairness demand
nothing less.
Respectfully submitted,
/s/ James M. Garner
LEOPOLD Z. SHER, #12014
JAMES M. GARNER, #19589
PETER L. HILBERT, JR., #6875
MARTHA Y. CURTIS, #20446
JEFFREY D. KESSLER, #30156
LAURIE A. DEARMAN, #22304
STUART D. KOTTLE, #37194
SHER GARNER CAHILL
RICHTER
KLEIN & HILBERT, L.L.C.
909 Poydras Street, Suite 2800
New Orleans, Louisiana 70112
Telephone: (504) 299-2102
Facsimile: (504) 299-2300
ROYCE I. DUPLESSIS #33019

123a
DUPLESSIS LAW FIRM
1100 Poydras Street, Suite 1475
New Orleans, Louisiana 70163
Telephone: (504) 484-9214
JAMES E. KUHN # 7640
253 West Oak Street
Ponchatoula, Louisiana 70454
Telephone: (985) 386-3089
DANE S. CIOLINO #19311
DANE S. CIOLINO, LLC
18 Farnham Place
Metairie, Louisiana 70005
Telephone: (504) 834-8519
TRAVIS J. TURNER #29462
TURNER LAW FIRM, LLC
1026 E. Worth Road, Suite D
Gonzales, Louisiana 70737
Telephone: (225) 644-2229
Facsimile: (225) 644-2266
COUNSEL FOR RELATORS
TEXAS BRINE COMPANY,
LLC AND UNITED BRINE
SERVICES COMPANY, LLC
CERTIFICATE OF SERVICE
I hereby certify that a copy of the above and
foregoing has been served on the following service list
via e-mail this 15th day of November, 2019.
/s/ James M. Garner
JAMES M. GARNER

124a
APPENDIX H

TWENTY-THIRD JUDICIAL DISTRICT COURT
PARISH OF ASSUMPTION
STATE OF LOUISIANA
NO. 34316
DIVISION “B”
FLORIDA GAS TRANSMISSION COMPANY, LLC
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.
NO. 34265

DIVISION “B”

PONTCHARTRAIN NATURAL GAS SYSTEM,
K/D/S PRO MIX, LLC, AND ACADIAN GAS
PIPLINE SYSTEM
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.
NO. 34202

DIVISION “B”

CROSSTEX ENERGY SERVICES, ET AL.
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.

FILED:
DEPUTY CLERK

125a
JUDGMENT
Phase I (Liability) of this matter came for trial
before this Court on September 18-29, October 9-11,
and November 15, 2017.
Considering the pleadings and evidence
submitted into the record, and arguments of counsel,
and for the written reasons filed herein;
IT IS ORDERED, ADJUDGED, AND
DECREED that liability for the sinkhole that
appeared in Assumption Parish on August 3, 2012 is
apportioned as follows:
Oxy 1 is assigned 50% of fault;
Texas Brine 2 is assigned 35% of fault·
Legacy Vulcan, LLC is assigned 15% of fault;
JUDGMENT READ, RENDERED AND
SIGNED in Napoleonville, Louisiana, on this the 21nd
day of December, 2017.

THOMAS J. KLIEBERT, JR.
DIVISION “B”
JUDGE – 23RD JUDICIAL
DISTRICT

1
Occidental Chemical Corporation, Occidental Petroleum
Corporation, and Oxy USA, Inc.
2
Texas Brine Company, LLC and United Brine Services.

126a
TWENTY-THIRD JUDICIAL DISTRICT COURT
PARISH OF ASSUMPTION
STATE OF LOUISIANA
NO. 34316
DIVISION “B”
FLORIDA GAS TRANSMISSION COMPANY, LLC
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.
NO. 34265

DIVISION “B”

PONTCHARTRAIN NATURAL GAS SYSTEM, K/D/S
PRO MIX, LLC, AND ACADIAN GAS
PIPLINE SYSTEM
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.
NO. 34202

DIVISION “B”

CROSSTEX ENERGY SERVICES, ET AL.
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.

FILED:
DEPUTY CLERK

I.

REASONS FOR JUDGMENT
INTRODUCTION

On August 3, 2012, a sinkhole began to emerge on
a 40-acre tract of land (“North 40”) along the western
side of the Napoleonville Salt Dome in Assumption
Parish, Louisiana. Florida Gas Transmission
Company, LLC (“Florida Gas”), Pontchartrain
Natural Gas System, K/D/S Promix, LLC, and
Acadian Gas Pipeline System (“Pontchartrain”), and

127a
Crosstex Energy Services (“Crosstex”) each owned
pipelines in the immediate vicinity of the Bayou Corne
sinkhole which were rendered inoperable by the
massive surface damage of the sinkhole. The main
demand in all three cases is for damages to their
respective pipelines. In addition, Texas Brine
Company, LLC (“Texas Brine” 1) maintains claims for
response costs incurred as a result of the sinkhole.
Finally, Texas Brine maintains claims for lost profits
resulting from the sinkhole formation. It is
undisputed that the damages asserted arose from the
formation of the sinkhole. The Phase II trial will be
held at a later date to quantify the alleged damages.
The Phase I trial was held for the purpose of
determining what caused the sinkhole to form and
who, if anyone, is at fault under any theory of law for
causing the formation of the sinkhole. All other issues
are reserved for trial in Phases 2-4. No party disputes
that the sinkhole formed due to the failure of the
western sidewall of the Oxy-Geismar No. 3 (“OG3”)
brine cavern on land owned by Occidental Chemical
Corporation (“OxyChem”). The OG3 well was brought
into operation in 1982, and the OG3 cavern was
solution mined until March 2009 by Texas Brine as
the operator of record. The brine produced from the
OG3 supplied a chlor-alkali plant in Geismar,
Louisiana. The plant was owned and operated by
Legacy Vulcan Corp f/k/a Vulcan Materials Company
(“Vulcan”) until 2005, when Vulcan sold its chloralkali assets to Basic Chemicals Company, LLC
(“Basic”), which later merged into OxyChem. For the
reasons that follow, the Court finds that the Oxy
entities, the Texas Brine entities, and Vulcan all bear
responsibility for the formation of the Bayou Corne
1

Texas Brine and United Brine Services.

128a
sinkhole, all of which has been shown by the
testimony and evidence introduced at the Phase I
trial.
II. CAUSATION
At trial, three experts testified directly about the
cause of the sinkhole: Evan Passaris, Bob Thoms, and
Neal Nagel. These experts agree that the sinkhole
formed due to a failure of the OG3 cavern’s western
wall, which resulted from the cavern’s proximity to
the edge of the salt dome that provided for the leakage
of brine into an under-pressured geological formation
that reduced the pressure in the cavern sufficiently to
compromise the integrity of the OG3 cavern wall. Dr.
Nagel specifically identified the Adams-Hooker #1
(“AH-1”) reservoir as the under-pressured geological
formation. He testified that the only way to get a brine
pressure drop sufficient to cause the OG3 cavern wall
to fail is if it flows into the depleted AH-1 reservoir.
No other testimony or evidence provides an
alternative explanation to account for the
depressurization necessary to compromise the OG3
cavern wall. Finally, the experts of this case agree
that the untimely plugging and abandonment of the
OG3 well, which prevented the OG3 cavern from
being monitored and re-pressured, was a factor
contributing to the cavern failure.
After examining the totality of the evidence and
expert testimony, this Court concludes that the
sinkhole was caused in various degrees by three
elements: 1) the cavern’s proximity to the edge of the
salt dome resulting in an unreasonably thin cavern
wall and an eventual brine leak; 2) the substantial
depressurization of the OG3 cavern caused by brine
leaking from the cavern into the AH1 reservoir; and
3) the timing of the plugging and abandoning of the
OG3 well. Each element was caused by or contributed

129a
to by a combination of the actions and inactions of the
Oxy entities, the Texas Brine entities, and Vulcan.
Civil Code Article 2315 provides that every act
whatever of man that causes damage to another
obliges him by whose fault it happened to repair it.
Further, Article 2316 provides that every person is
responsible for the damage he occasions not merely by
his act, but by his negligence, his imprudence, or his
want of skill. Under Civil Code Article 2317.1, the
owner or custodian of a thing is answerable for
damage occasioned by its ruin, vice, or defect, only
upon a showing that he knew or, in the exercise of
reasonable care, should have known of the ruin, vice,
or defect which caused the damage, that the damage
could have been prevented by the exercise of
reasonable care, and that he failed to exercise such
reasonable care. Louisiana jurisprudence has
recognized the reality that custody or garde is a
broader concept than ownership and custody or garde
may be shared by multiple parties. Considering the
totality of the evidence presented in this case, the
Court finds that garde of the OG3 cavern was shared
by the Oxy entities, the Texas Brine entities, and
Vulcan.
Under Louisiana Civil Code Articles 2315 and
2317.1, Texas Brine is responsible for damages
arising out of its negligence in operating the OG3 well,
and Vulcan and OxyChem are responsible for
damages arising out of their negligence in overseeing
the development of the OG3 cavern. The OxyChem is
additionally liable under Articles 2315 and 2317.1,
along with its affiliates Occidental Petroleum
Corporation (“Oxy Petro”) and Oxy USA, Inc. (“Oxy
USA”), for their failure to responsibly monitor the
AH-1 well and depletion from the AH-1 reservoir.

130a
III. PROXIMITY TO THE EDGE OF THE DOME
The close proximity of the OG3 cavern to the edge
of the salt dome was a substantial factor in causing
the sinkhole. The close proximity allowed for solution
mining operations to eventually create an
unreasonably thin cavern wall at the western edge of
the salt dome. The thin wall was continuously
depleted by solution mining until brine eventually
began leaking out of the cavern to areas of lower
pressure.
A. Siting of the OG3 Well
The OG3 well was drilled by Texas Brine in 1982.
At the time of drilling, Hooker Chemical Corporation
(“Hooker”), now known as Occidental Chemical
Corporation was the owner of the land and minerals
therein, Vulcan was the mineral lessee to the salt
dome, and Texas Brine was the operator of record of
two other brine wells, OG1 and OG2, providing brine
to Vulcan’s chlor-alkali plant in Geismar, Louisiana.
An abundance of testimony and evidence was
presented at trial by Vulcan and Texas Brine in an
attempt to establish which party selected the initial
siting location and final depth for the drilling of the
OG3 well. However, the Court finds that 25 years of
subsequent “textbook” cavern growth render the
initial siting selection issue moot for purposes of
causation.
Though the initial siting of the well is a moot
issue, the facts surrounding site selection are relevant
because both Vulcan and Texas Brine first gained
knowledge of proximity concerns while conducting
site analysis in preparation for drilling the OG3.
Years prior to the OG3, Texas Brine first drilled the
OG2 on the 40-acre tract to 6,600 feet as planned. The
OG1, however, drilled out of salt almost 3,000 feet

131a
above the planned 6,600 foot depth. While the initial
drilling out of salt of the OG1 did not create an
imminent safety concern, it was an unforeseen and
financially costly occurrence, because the well was
severely limited in its production capacity at half of
the expected depth. OG1’s limitations expedited the
need for the drilling of the OG3 well. Therefore, in
preparation for drilling the OG3 well, Vulcan and
Texas Brine each took steps in an effort to avoid the
problems encountered by OG1.
Texas Brine hired Leon Toups of Ted Hoz &
Associates in 1976 as a consultant to provide advice
with respect to drilling a third well on the North 40.
In a series of written reports, Toups elaborated upon
his geological analysis. He opined that the available
data was too scarce to determine with certainty why
the OG1 drilled out of salt at 3000 feet. However, he
provided three possibilities, concluding that “the most
reasonable interpretation” of the available data
indicated the salt dome had an “overhang.” Toups
explained that “[t]he problem as I see it is that even if
further wells on this tract remain in salt to the
proposed total depths, their proximity to the steep
dipping salt dome cap rock could limit the volume of
salt that could be recovered from the well,” adding
that the risk of such an eventuality “may not be
justified by the economic guidelines within which you
have to operate.” However, with the risks that he
outlined, Mr. Toups provided to Texas Brine what he
believed to be the “safest” location for the OG3, west
of the OG2, and that it “should be a twin to the No. 2
. . . down to 6,600 feet.”
In an effort to ensure that their next brine well
investment would be worthwhile, Vulcan conducted
independent analysis through its employee Mark
Juszli and consultants PBKBB and Larry Sevenker.

132a
On May 22, 1980, PBKBB issued a report to Vulcan
suggesting studies that could be conducted to better
define the dome flank, including refraction seismic
surveying followed by boreholes to confirm the data
collected by the survey. Recognizing the lack of
information known about the dome flank, Mark
Juszli, in a July 25, 1980 memorandum, concluded
that he could not “in good conscience recommend
siting a $1.5+ million brine well anywhere within
Vulcan’s lease tract” and that “drilling of an
additional well within [Vulcan’s] present lease tract is
a multimillion dollar gamble.” Additionally, Vulcan
engaged salt cavern engineer Larry Sevenker to
conduct a detailed analysis of the entire brine field.
Between 1980 and 1984, Mr. Sevenker authored at
least eight reports for Vulcan and oversaw Texas
Brine’s drilling of the OG3 on site on behalf of Vulcan.
Sevenker calculated in 1982 that the recommended
cavern sizes for the three Geismar wells resulted in
realistic reserves for 13 years and optimistic reserves
for 25-26 years. Importantly, Sevenker informed
Vulcan in 1980 of the implications of neighboring
reservoirs when analyzing the possibility of
converting the caverns into storage caverns:
“[p]roximity of the cavity to the edge of dome
due to the salt overhang is possibly the most
concerning item in the development of both
cavities V #1 and V #2. [ ... ] The possibility
exists that fractures in the formations beyond
the edge of the dome have allowed oil and gas
to become trapped against the salt dome
under the overhang. A number of oil wells
exist just to the northwest of the site area of
the overhang. [ ... ] Development of minifractures into major connection could occur
due to stress differences inside the cavity and

133a
the surrounding formations. Two direction
flow would suddenly take place in the fracture
or connection. Oil and gas would rush into the
cavity and rise to the top forcing cavity brine
out into the formations through the same
connection and due to gravity differences flow
to a lower zone in the outside formation.”
The record is replete with evidence that both Texas
Brine and Vulcan knew, before drilling the OG3 well,
that the edge of the salt dome was a serious issue that
would require the parties to proceed with caution.
Although a risky endeavor, the OG3 well was drilled
successfully to a depth just under 6,000 feet and
subsequently operated without major incident for over
two decades.
B. Expanding Facilities for Increased
Brine Supply Requirements
In 1998, Vulcan investigated the possibility of
doubling production rates from its existing brine wells
in order to provide enough brine to sustain the
increased brine requirements of the joint venture that
it was forming with Mitsui. Jim Tichenor of Texas
Brine recommended that Vulcan engage an outside
firm to (1) assess existing salt reserves in light of the
planned expansion and (2) explore whether a fourth
well could be drilled on Vulcan’s lease. Al Lupenski,
Vulcan’s director of purchasing, engaged RE/SPEC to
perform the investigation.
Dr. Joseph Ratigan of RE/SPEC conducted a
detailed analysis of data compiled by Texas Brine and
issued a draft report in March of 1998. The report
discussed options to increase well reserves by
increasing the size of the existing caverns
substantially beyond the 300 foot diameter cavern
size contemplated in Texas Brine’s mining plan or by

134a
raising the cavern ceilings and mining above the
existing caverns at substantially increased cavern
diameters. The report flagged the possibility that the
OG3 cavern was getting close to the salt dome edge
and suggested that before implementing such a
change, additional geomechanical studies were
warranted. However, Dr. Ratigan did not conclude
that the well needed to be shut down; did not have any
concerns about the mechanical integrity of the OG3;
and did not believe that the contemplated increase in
production rates from the OG3 was cause for concern.
After receiving the report, Texas Brine disagreed with
RE/SPEC’s projections of recoverable brine and the
projected diameter of the caverns. RE/SPEC updated
the report to include Texas Brine’s assertions and
provided the revised report to Vulcan on April 17,
1998.
In connection with the $14.6 million project to
increase the production and delivery capacity of brine
production facilities supplying the Geismar plant,
Vulcan and Texas Brine finalized amendments to
their existing Facilities Lease Agreement and
Operating and Supply Agreement to memorialize the
agreement for increased brine production. Texas
Brine’s president, Theodore Grabowski, testified that
he believed there were minimal day-to-day
operational risks associated with the increased
production. However, he testified that he did believe
the new operating agreement called into question the
quantity of reserves remaining on the North 40 at the
increased production rate. These concerns of Texas
Brine were alleviated because the contracts obligated
Texas Brine to use their best efforts to locate and
obtain control over alternate sources of salt and did
not require Texas Brine to make a representation or

135a
warranty regarding the quantity or quality of the salt
present on the lease.
The totality of the evidence makes it clear that
though Texas Brine and Vulcan collaborated
professionally on large capital expenditures involving
brine mining, Vulcan was the party to decide how and
where their money was ultimately spent, including
when and where new brine wells would be drilled.
Texas Brine asserts that it offered an option to Vulcan
in 1998 that would allow Vulcan to pursue brine
mining operations on Texas Brine’s leased tract on the
White Castle salt dome to avoid the imminent risks
associated with the OG3. Texas Brine further asserts
that it again sought to get out of the OG3 in 2003
when it offered Vulcan its land for solution mining
operations at a reduced royalty rate. While there is no
credible evidence that Texas Brine’s motivation in
these proposals was anything further than securing
an expanded and long-term business relationship
with Vulcan, the choice of where to operate elsewhere
was clearly Vulcan’s. Though the Court’s conclusion
regarding Vulcan’s level of control is not based solely
on evidence presented in connection with Texas
Brine’s 1998 White Castle option, the business
relationship between Vulcan and Texas Brine in
connection with the OG3 is epitomized therein. The
minutes of a Vulcan meeting unambiguously state
that:
“The first session involved Vulcan personnel
only. [ ... ] Jim [Jim Richter of Vulcan] then
discussed the White Castle option. [ ... ] At
that point Jim Tichenor [of Texas Brine] was
invited to join the discussions. [ ... ] Tichenor
was informed that the group had decided that
the Napoleonville option was the best

136a
economic choice for
Expansion project.”

the

Chlor-alkali

With Vulcan and Texas Brine fully aware of the edge
of dome concerns, Texas Brine supplied brine to
Vulcan at the accelerated rate until Vulcan sold its
chlor-alkali assets to OxyChem via an Asset Purchase
Agreement between Vulcan and Basic Chemicals, an
OxyChem corporate affiliate which would later merge
into OxyChem. The agreement was executed on
October 11, 2004 and closed on June 7, 2005. While
negotiating the sale in June 2004, Jack Durland of
Vulcan contacted Ted Grabowski, Texas Brine’s
president, to acquire salt reserve estimates for the
Vulcan wells so that he could provide that information
to Jim Thomas of OxyChem. Mr. Grabowski provided
the requested salt reserve numbers to Mr. Durland
with a caveat detailing the ongoing concern about the
OG3 cavern’s proximity to the edge of the salt dome
and the potential risk of losing the well prematurely.
Concluding that it was not his responsibility to
provide this information to OxyChem, Jack Durland
omitted Mr. Grabowski’s warning when he forwarded
the reserve information to OxyChem’s Jim Thomas.
From 1982 to OxyChem’s acquisition of Vulcan’s
property in 2005, the OG3 well/cavern system
exhibited no imminent indications of integrity loss.
While this fact leads Vulcan to conclude that events
subsequent to the Asset Purchase Agreement amount
to intervening and superseding causes absolving
Vulcan from liability, the totality of the evidence in
this particular case leads the Court to a different
conclusion. The vast majority of OG3 cavern growth
occurred prior to 2005. Dr. Passaris opined that post2005 growth of the OG3 cavern was negligible. Given
Vulcan’s level of control over large scale brining
decisions and failure to disclose known risks during

137a
corporate purchase negotiations, Vulcan bears a
portion of fault for the Bayou Corne sinkhole.
Considering the totality of the evidence, the Court
finds that Texas Brine and Vulcan are both
responsible and at fault for pre-2005 growth of the
OG3 cavern and its contribution to causation of the
Bayou Corne sinkhole.
C. Legend Data
After Vulcan’s business was turned over to
OxyChem, Texas Brine asserts that they made two
recommendations to OxyChem, in 2005 and 2006, to
get out of the OG3 and drill replacement wells
elsewhere to avoid edge of dome concerns on the North
40. While the offers to OxyChem included reference to
the proximity concern − i.e. “Risk of Well Failure” −
the evidence suggests that the driving factor behind
each of these offers was expanded business
opportunities for Texas Brine, most notably securing
OxyChem’s brine mining business for the Taft facility.
Moreover, Texas Brine’s reserve calculations
projected OG3 operation until 2015. OxyChem
rejected these offers in the same manner as Vulcan
did previously, on economic grounds.
In 2007, an oil and gas exploration company,
Legend Petroleum, requested permission from the
landowners on the Napoleonville Salt Dome to access
their land to shoot a 3D seismic survey. In exchange
for access, Legend agreed to make the data available
to OxyChem and the operators of brine mines on the
dome. Although OxyChem did not have prior
experience with 3D seismic, Dr. Ratigan, Oxy’s
consultant on brine mining, flagged for OxyChem that
this state-of-the-art data could be useful in
OxyChem’s project to locate a new well on their
property. OxyChem obtained the data and contracted
Kevin Hill of Hill Geophysical to analyze it and

138a
provide his interpretation to Dr. Ratigan. Dr. Ratigan
received Kevin Hill’s analysis of the Legend 3D data
on May 13, 2008.
On June 4, 2008, Dr. Ratigan presented his
findings internally to OxyChem. Dr. Ratigan
concluded that the OG3 cavern was closer to the edge
of the salt dome than previously thought. Unlike Dr.
Ratigan’s 1998 warnings to Texas Brine and Vulcan,
Dr. Ratigan now recommended that OxyChem
terminate mining of the OG3 cavern and expressed
concerns of environmental risks, including the remote
possibility of a sinkhole. Though OxyChem’s Gary
Kinter met with Texas Brine to discuss Dr. Ratigan’s
conclusions on June 24, 2008, no credible evidence
was presented to the Court to establish that either
party agreed to shut down the OG3 well at this point.
Presented with this looming risk that may limit brine
supply during an economic recession, tension began to
accumulate between OxyChem and Texas Brine. As
the business relationship between Oxy and Texas
Brine became more contentious, each party neglected
the severity of OG3’s condition. Both parties contend
that the other party is responsible for continued
mining following Dr. Ratigan’s 2008 warning;
however, both parties possessed the authority to
immediately terminate OG3 operations and placed
financial and business interests above environmental
concerns.
While OxyChem contends that they were merely
financing the brine mining operations and solely
relied on Texas Brine regarding operations on the
North 40, OxyChem undoubtedly played a larger role.
Although Texas Brine largely controlled the day-today operations of the brine extraction process and
cavern development from an inside-the-well/cavernsystem perspective, OxyChem, like Vulcan, possessed

139a
the ultimate decision making authority from an
outside-the-well/cavern-system
perspective.
OxyChem had numerous geologists, geophysicists,
and geomechanical engineers thoroughly analyzing
OxyChem’s brine caverns at the western edge of the
Napoleonville Salt Dome independent of Texas Brine.
Because the operating agreement was structured in a
cost plus manner, OxyChem required approval of
virtually every financial expenditure before work was
undertaken. Moreover, the totality of the evidence
establishes that OxyChem had the ultimate authority
in determining the locations from where their brine
would be extracted. OxyChem failed to prudently
exercise this authority on mere economic grounds in
the face of Dr. Ratigan’s warnings and
recommendation. Admittedly, at the time Texas Brine
disagreed with Dr. Ratigan’s warning and stated that
brine production in the well showed no signs of failure,
but it is also clear that the relationship between
OxyChem and Texas Brine was not one of trust at this
time.
Though OxyChem had the ultimate control of how
their money was spent, Texas Brine had the duty to
make prudent recommendations and the ability to
override its customers’ decisions if Texas Brine felt
there was a safety or an environmental concern. In
2008, when presented with Dr. Ratigan’s findings,
Texas Brine rejected the interpretation of the data.
Instead of addressing a looming environmental
concern as a prudent operator should, Texas Brine’s
focus was fixated on its dwindling business
relationship with OxyChem and the possibility of
losing OxyChem’s business to its competitor PB
Energy. In an internal email regarding Gary Kinler’s
PowerPoint presentation of Dr. Ratigan’s conclusions,
McCartney commented: “Amazing. [...] Seismic (even

140a
30) does not have resolution good enough to be certain
this is correct [...] If salt flank was as shown, would we
not have already had some indication of problems in
the well? We have had gas ever since the well was
drilled. [...] Do you think that PBESS is perhaps
manipulating the data to their advantage?”
OxyChem’s mission was evident early in its
Geismar expansion and was highlighted in a 2007
internal email from Tom Feeney: “The concept is to
defer the capital for replacing the well for Geismar. At
the current state we need to drill a new well next year
for Geismar and another one in 2013.” This profits
first culture did not waiver following Dr. Ratigan ‘s
recommendation to terminate OG3 mining. Just
months after Dr. Ratigan’s warnings in November
2008 OxyChem reiterated its focus: “Since well #3 is
close to the edge of the dome at the lower elevation of
the cavern, we want to move forward with a plan and
cost estimate to mill out the cemented casing of this
well to an upper limit of 2000 feet. This will allow us
to continue mining well #3 at a higher elevation which
will reduce the risk of getting too close to the edge of
the dome.”
OxyChem asserts that they moved
forward with this plan keeping them in the OG3 only
because their solution mining expert, Texas Brine,
sold the idea to them; however, the evidence paints a
different picture. While Texas Brine elected to pursue
mining OG3 mining at a higher interval at this point,
the concept of raising the cavern roof(s) first appeared
in Dr. Ratigan’s 1998 RE/SPEC report. Moreover,
Tom Feeney’s November 2008 reply email provides
insight into OxyChem’s level of control on the brine
mining operations: “Based on what we have had them
do it appears that for a couple hundred thousand $ of
work on #3 we have reserves to carry us for at least 10
more years. We don’t need another well nor to spend

141a
$millions on 1&2. Based on where we have come with
these guys since 2006 my guess is one more meeting
and maybe they will be paying us.”
Instead of collaborating together to prudently
address Dr. Ratigan’s warnings, OxyChem and Texas
Brine lost trust in each other and attempted to
address the situation internally with their individual
interests in mind. Although OxyChem and Texas
Brine each possessed knowledge of the risk and the
authority to shut down the OG3 well, neither party
acted prudently on that authority until it was too late.
Ultimately, the OG3 cavern was mined until
operations completely ceased in June 2010; however,
as the parties later discovered, the OG3 cavern
indicated signs of a leak in mid-2009 and started
leaking during the July-August 2010 time period at
the latest. An abundance of testimony focused on
OxyChem and Texas Brine’s September 2010
workover
including
Texas
Brine’s
failed
pressurization test on the OG3 cavern. However, the
evidence shows that the cavern was already leaking
prior to this workover.
OxyChem contends that cavern growth post-2005
is similarly irrelevant for purposes of causation
because it occurred at a higher elevation in the cavern
and did not cause growth deep in the cavern where the
critically thin wall existed. OxyChem supports this
contention with Dr. Passaris’s testimony that post2005 growth was negligible in comparison to pre-2005
growth. However, Dr. Passaris further testified that
“raising the roof of the cavern further up in the
attempt to extract more salt, you can’t prevent the
solution mining process also taking place in the lower
part of the cavern. And in doing this process, all you’re
doing is reducing the wall thickness between the wall
of the cavern, the edge of the cavern, and the edge of

142a
the - - dome. And, as a result, you are introducing
further risks associated with potential breakout.”
Post-2005 solution mining was unquestionably a
substantial factor that contributed to the causation of
the Bayou Corne sinkhole. Considering the totality of
the evidence, the Court finds that Texas Brine and
OxyChem are equally responsible for post-2005
growth of the OG3 cavern and its contribution to the
causation of the Bayou Corne sinkhole.
IV. DEPRESSURIZATION OF THE OG3
CAVERN INTO THE AH-1 RESERVOIR
Proximity alone did not cause the failure of the
OG3 cavern wall. The record indicates that there are
at least five other caverns in Louisiana situated
within 100 feet to the edge of the salt dome that have
not failed. Further, even a leaking cavern will not
necessarily cause a sinkhole. Experts in this case have
offered the opinion that the occurrence of this
sinkhole, resulting from a breach in the cavern wall at
such a substantial depth, is most likely
unprecedented. According to the undisputed expert
testimony of Neal Nagel, the presence of the depleted
Adams-Hooker #1 reservoir adjacent to the OG3
cavern is an essential factor that turned the leaking
OG3 cavern into the Bayou Come sinkhole. For the
cavern wall to fail there had to be a significant
reduction in pressure support within the cavern. Dr.
Nagel testified that the “only way to [...] get a brine
pressure drop sufficient to cause the cavern to fail is
if it flows into the depleted AH-1 reservoir.”
On September 2, 1983, Hooker, now OxyChem,
entered into an Oil, Gas, and Mineral Lease (the
“Colorado Crude Lease”) with Colorado Crude
Company. The Colorado Crude Lease governed the
drilling of the AH-1 well. Understanding the close
proximity of the hydrocarbon operations to the brine

143a
mining operations, sections 18 and 19 of the Colorado
Crude Lease were added to the lease to protect the
brine mining operations:
18.
Notwithstanding anything to the
contrary herein contained, in order that
Lessee, Lessee’s successor’s or their assigns’
operation will not conflict with Lessor’s use of
the surface estate of this lease, including the
mining of salt and any other mineral not
included within this Oil and Gas Lease,
Lessee, Lessee’s successors or their assigns
shall secure Lessor’s written approval (not to
be unreasonably withheld) of any well
locations, well casing programs, roads,
pipeline right-of-ways, production facility
sites and other operation locations, which
shall exist in conjunction with this lease.
Lessee shall diligently endeavor not to
damage any salt formations which may exist
upon the leased premises and shall pay for
any actual damages which may occur from
operations upon laid leased premises.
19.
In connection with the drilling of any
well in association with this lease, Lessee,
Lessee’s successors or their Assigns shall
provide Cities Service Oil and Gas
Corporation as Lessor’s agent the following
data including, but not limited to, data
concerning salt mining to the representative
listed below:
1) Furnish a surveyor’s location
plat to Cities prior to the
commencement of drilling.

144a
2) Furnish daily drilling reports
by telephone and mail a copy of the
daily drilling reports to:
Cities Service Oil and Gas
Corporation
P. O. Box 27570
Houston, Texas 77227-7570
Attention: Mr. Harold Hilton
Phone: 713-850-6326
3) Furnish Cities with one certified
copy of all notices and reports,
affecting this lease, filed by Lessee,
Lessee’s successors or his assigns
with the federal, state or government
agencies, including the Louisiana
Department of Natural Resources.
4) Immediately upon Lessee’s
receipt, furnish Cities with copies of
all well logs, surveys and test results
of any well drilled on this lease, or
pooled therewith by Lessee.
The Adams Hooker #1 well was spudded in 1986 and
initially classified erroneously as water-driven. In
actuality, the AH-1 reservoir was operated within
industry standard as a depletion driven reservoir.
Because a depletion driven reservoir does not refill the
reservoir as it is depleted, the pressure in the AdamsHooker #1 reservoir continuously dropped as
hydrocarbons were extracted from nearly 2781 p.s.i.
in 1986 to 916 p.s.i. by 2000. Though no evidence
indicates that this drop of pressure in itself initiated
the OG3 cavern leak, the close proximity of the
substantially low pressure reservoir provided for an
unreasonably dangerous condition once leaking

145a
began. Once communication between the high
pressure OG3 cavern and the low pressure AH-1
reservoir initiated, the substantial pressure
differential required a significant pressure drop in the
OG3 cavern to achieve pressure equilibrium. Dr.
Nagel’s unrebutted testimony establishes that this
pressure loss was required to create the static stress
change necessary to compromise the OG3 cavern wall.
OxyChem owed a duty to act as a prudent lessor
under the Colorado Crude Lease. Though OxyChem
informed Texas Brine of the surface location where
the AH-1 drilling would occur, the Oxy entities were
best situated to address the ongoing nature of the
Adams-Hooker #1 reservoir and its relationship with
the brine mining operations of the North 40.
OxyChem is the only party to this case with a mineral
and financial interest in both the Adams-Hooker #1
reservoir and the leased premises on the
Napoleonville Salt Dome. OxyChem knew that the
Adams-Hooker #1 well was drilled adjacent to the
Napoleonville Salt Dome. This knowledge prompted
OxyChem to insert the unique contractual provisions
into the Colorado Crude Lease. In provision 19 Hooker
(now OxyChem) appointed Cities Services, Oxy Petro
and Oxy USA’s predecessors in interest, as their agent
to receive all data concerning drilling and production
reports. There is no evidence in the record showing
that OxyChem, Cities Service, or Cities Service’s
successors, Oxy Petro and Oxy USA, ever received or
attempted to collect any operational data of the
Adams-Hooker #1 well. OxyChem and its agent’s, Oxy
Petro and Oxy USA, failure to responsibly monitor the
development of the AH-1 well and depletion from the
AH-1 reservoir was imprudent and prevented all
parties from considering the adjacent reservoir in
their risk analysis. The Oxy entities are liable for the

146a
entirety of the AH-1 reservoir’s contribution to
causing the Bayou Corne sinkhole.
V. PLUGGING AND ABANDONING
The OG3 well was plugged and abandoned in
early June 2011, memorialized in a status update
report by Joel Warneke, “May the well rest in peace
and not create Lake McCartney.” Dr. Passaris
concluded that the plugging and abandoning was
untimely, because monitoring was the last chance
that the parties had to make sure that everything was
okay before plugging the cavern. He opined that the
monitoring process needs to be undertaken to ensure
that cavern pressure is in equilibrium before it is
plugged to prevent the development of any unsafe
pressure changes inside the cavern. OxyChem asserts
that Texas Brine alone, as the operator of record, was
charged with the duty to assure that the OG3 cavern
was in equilibrium before plugging and abandoning
the OG3 well. However, the totality of the evidence
establishes a significant level of involvement by
OxyChem in the plugging and abandoning process by
which OxyChem was also imputed a duty to act
prudent. Both Texas Brine and OxyChem failed to
prudently monitor the OG3 well/cavern system by not
assuring that the OG3 cavern reached pressure
equilibrium before plugging and abandoning.
After OxyChem and Texas Brine learned that the
cavern was leaking, Texas Brine and OxyChem
scheduled a meeting with Joe Ball, director of
injection mining at the Louisiana Department of
Natural Resources (“LDNR”). OxyChem engaged its
expert consultant and agent, Dr. Ratigan, to supervise
discussions with the LDNR and oversee the plugging
and abandoning process. OxyChem made it clear that
there would be no interaction with LADNR without
Dr. Ratigan’s participation or blessing. The parties

147a
expressed to Mr. Ball their preference to monitor the
OG3 before plugging and abandoning. Mr. Ball was
not optimistic about the parties’ “science experiment”
and recommended that the parties move towards
plugging and abandoning.
After an initial period of monitoring, Texas Brine
viewed further monitoring as a waste of time and did
not see that it was going to do any good. Texas Brine
concluded in February 2011 that their best option at
the time was to permanently abandon the cavern and
to plug the wellbore in such a way as to protect the
base of useable quality water from any leaks in the
wellbore. Dr. Ratigan recommended to OxyChem that
his preference was to continue monitoring the OG3
cavern, stating that there was no great rush to
abandon. He testified at trial that he would have
continued monitoring the OG3 cavern for as long as
they would let him. Ratigan eventually gave
OxyChem his blessing to allow Texas Brine to move
forward with the plugging process, because Ratigan
could not foresee or articulate the specific value to
continued monitoring. Importantly, neither Texas
Brine nor Dr. Ratigan had the opportunity to consider
the depleted AH-1 reservoir when they concluded that
plugging and abandoning was a prudent option,
because of OxyChem’s failure to collect AH-1 data.
With no potential financial benefits remaining in the
OG3 for either party, OxyChem and Texas Brine
imprudently agreed to move forward with the
plugging and abandoning process before assuring that
the OG3 cavern had reached pressure equilibrium.
Although the untimely plugging and abandoning
is considered a critical element in the emergence of
the sinkhole, plugging and abandoning did not
actively create the sinkhole. Once brine from the
cavern began leaking into the AH-1 reservoir, all

148a
conditions necessary were present to create the Bayou
Corne sinkhole without further action. However,
plugging and abandoning the OG3 well did completely
prevent the parties from conducting any mitigation
efforts. The totality of the evidence presented to the
Court suggested that the parties may have had an
opportunity to bring the situation under control had
they indefinitely monitored the cavern. Though
testimony established that, theoretically, brine could
have been pumped back into the cavern continuously
to account for the pressure loss, no witness addressed
the actual feasibility of this plan, and feasibility is
further called into question by the fact that this
sinkhole occurred from an unprecedented set of
circumstances. Even considering the foregoing,
OxyChem and Texas Brine mutually and negligently
agreed to plug and abandon the OG3 well in lieu of an
indefinite period of monitoring. This decision sealed
the fate of the OG3 cavern. Considering the totality of
the evidence, the Court finds that Texas Brine and
OxyChem are equally responsible for the untimely
plugging and abandoning of the OG3 cavern and its
contribution to causation of the Bayou Corne sinkhole.
VI. FAULT ALLOCATION
Given the totality of the evidence, including the
sophistication of the parties and their respective
levels of control in the operations that led to the
sinkhole, OxyChem, Texas Brine, and Vulcan’s
actions and inactions each fell below the appropriate
standard of care expected from a reasonable party
similarly situated. Because the imprudent actions and
inactions of each party each contributed substantially
to the formation of the Bayou Corne Sinkhole, each
party bears a portion of liability in their respective
percentages. Louisiana’s comparative fault statute,
Civil Code article 2323, requires apportionment of the

149a
degree or percentage of fault of all persons causing or
contributing to the injury.
In determining the percentages of fault, the Court
considers both the nature of the conduct of each party
at fault and the extent of the causal relation between
the conduct and the damages claimed. Factors to be
considered when determining percentages of fault
include: whether the conduct resulted from
inadvertence or involved an awareness of the danger,
how great a risk was created by the conduct, the
significance of what was sought by the conduct, the
capacities of the actor, whether superior or inferior,
and any extenuating circumstances which might
require the actor to proceed in haste, without proper
thought.
1. All Parties Were Aware of the Substantial
Risk Involved

As Jim Tichenor testified, there is nothing
underground that is totally risk free. The operations
on the North 40 that led to the development of this
sinkhole were large scale industrial mining
operations in which massive cavities were created
below the surface of the earth. While the actual
mining process is intricate, one does not need to
possess a post-graduate degree in mining engineering
to be aware of the risks associated with creating these
massive caverns. However, the parties involved in
this lawsuit are not uneducated individuals.
OxyChem, Texas Brine, and Vulcan are successful
and sophisticated businesses that attract and employ
employees of the highest standard. While OxyChem
and Vulcan were not the operator of record to the OxyGeismar brine wells, Vulcan owned and operated
brine wells in Witchita, Kansas, and OxyChem is the
operator of record for the brine wells in the same salt
dome supplying their Taft facility. The Court is not

150a
persuaded by the Plaintiffs, OxyChem, and Vulcan’s
notion that Texas Brine was the only party with the
capacity to understand the level of risk created by
continuously solution mining a massive brine cavern
in such close proximity to the edge of a salt dome.
It is clear that OxyChem, Texas Brine, and Vulcan
each acted with actual awareness of the possibility
that severe environmental implications could result
from their actions. In the early 1980s, Leon Toups
warned Texas Brine that the dome likely sloped
inward instead of outward and that drilling a third
well was a risky proposition. Around the same time,
Larry Sevenker warned Vulcan that the proximity to
the edge of the salt dome was the major concern and
additionally identified adjacent oil and gas reservoirs
as a potential concern. Sevenker reported to Vulcan
that a reasonable calculation of available reserves on
the North 40 provided for around 13 years of operation
and 25-26 years optimistically. Importantly, the
Sevenker reports were not shared with Texas Brine.
After 16 years of production following Dr.
Ratigan‘s warnings, Vulcan sought to double brine
production rates to accommodate the requirements of
their facilities expansion. When Vulcan approached
Texas Brine to discuss this opportunity, Texas Brine
recommended that Vulcan hire Dr. Ratigan to conduct
a comprehensive analysis on the feasibility of
accelerated operations on the North 40. After
analysis, Dr. Ratigan issued a 1998 RE/SPEC report
to Vulcan and Texas Brine highlighting the proximity
concerns of the OG3 and recommending further
studies of the geometry of the dome before proceeding.
Vulcan and Texas Brine mutually agreed to the
expanded operations without requesting or
conducting further studies. After nearly completely
depleting the cavern, Vulcan failed to inform Basic

151a
Chemicals in asset purchase negotiation that the
North 40 was in its 23rd year of a most optimistically
projected 26 year lifespan of brine extraction, seven of
which included accelerated production. To the
contrary, the record reflects that Vulcan omitted
Sevenker’s projection and proximity concerns.
However, OxyChem was not left in the dark.
OxyChem’s knowledge of risks associated with the
operations of the OG3 and the AH-1 extends back
1983. Actual knowledge of the close proximity of
potential AH-1 operations and the existing brine
caverns led Hooker (now OxyChem) to add unique
provisions into the Colorado Crude Lease to protect
operations being conducted on the North 40. Even
though OxyChem did not purchase the Geismar
facility until 2005, OxyChem owned a facility in Taft,
Louisiana that received brine from brine wells located
on land adjacent to the North 40. OxyChem was the
operator of record for these brine wells. As a large
corporate presence in the industry, OxyChem had a
longstanding relationship with Dr. Ratigan, the
author of the 1998 RE/SPEC report and a world class
brine consultant.
Understanding the limitations of the North 40,
OxyChem hired Dr. Ratigan after its Geismar
acquisition to analyze available brine reserves and to
evaluate locations for future caverns. After the
Legend data became available in 2008, Dr. Ratigan
concluded that the OG3 cavern’s proximity was a
larger concern than previously expected. OxyChem
first discussed the implications of Dr. Ratigan’s
findings internally in a June 4, 2008 meeting. Dr.
Ratigan testified that sinkholes were discussed at this
meeting.
OxyChem
disclosed
Dr.
Ratigan’s
conclusions to Texas Brine approximately three weeks
later on June 24, 2008. With this knowledge,

152a
OxyChem consciously deferred the necessary capital
to get out of the OG3 cavern.
While it is clear that Texas Brine imprudently
operated the OG3 well for the entirety of its
operational life with knowledge of proximity concerns,
they did not act alone. The totality of the evidence and
testimony makes it clear that OxyChem, Texas Brine,
and Vulcan were each aware of the substantial risks
associated with their conduct.
2. Pecuniary Interests Over Safety

A common theme of this case is that OxyChem,
Texas Brine, and Vulcan each placed their economic
interests over environmental and safety concerns. The
snowball of events that led to the Bayou Corne
sinkhole began in the early 1980s when Vulcan
agreed, on economic grounds, to place one large well
(OG3) on the North 40 in lieu of Larry Sevenker’s
recommendation for five smaller caverns. One larger
well was simply more economical than five smaller
wells. In 1998 with all of the OG3 data indicating
current stability, Vulcan and Texas Brine passed on
costly research to better define the edge of the dome.
Finally, with the North 40 on its last leg and large
brine well relocation costs looming, Vulcan cashed out
in 2005 without voicing Texas Brine’s concerns about
the OG3.
Texas Brine operated the OG3 well for the
entirety of its existence with fixated on the amount of
money that could be solution mined out of the
Napoleonville salt dome. Texas Brine asserts that
OxyChem and Vulcan had the power of the purse and
made all meaningful monetary decisions. Further,
Texas Brine asserts that they had no interest in how
many wells were drilled, because the operating
agreements were structured as cost plus. The totality
of the evidence does not support this assertion. The

153a
OG3 well was the best brine producer on the North 40,
and Texas Brine was in no hurry to cease the income
therefrom without first establishing a replacement
well or expanding its business relationship with
OxyChem or Vulcan. Finally, when the OG3 was
taken out of production, Texas Brine’s preference was
to stop wasting time and plug the nonproducing well.
Likewise, OxyChem’s focus was primarily
pecuniary. As the mineral lessor of both the salt dome
and the hydrocarbons located on its neighboring
tracts, OxyChem enabled the depletion of the AH-1
reservoir in exchange for royalties, knowing that its
close proximity to the existing salt mining operations
may be problematic. OxyChem’s brine mining
decisions were made simply on a price per ton basis.
OxyChem’s agent and expert consultant Dr. Ratigan
warned other OxyChem consultants, PB Energy and
RE/SPEC, to be “very, very, very careful” when they
were dealing with OxyChem, and that OxyChem
regularly resisted his recommendations for
geomechanical analysis in order to save money. This
culture of pecuniary interest first and delaying
necessary capital expenditures rang down from the
director of operations, Tom Feeney. Finally, during
the plugging and abandoning process, when Dr.
Ratigan could not express OxyChem’s benefit to an
indefinite period of monitoring, OxyChem directed
that the well be plugged at the lowest cost option.
The warning signs were present for each party;
however, each party was blinded by the financial
implications of their actions.
3. Capacities

The capacities of the parties is a critically
important factor in the fault allocation analysis of this
case. Though Texas Brine was the party with its
hands on the valves of the OG3 well on a daily basis,

154a
it is clear that OxyChem and Vulcan were extremely
sophisticated parties that exercised significant control
in the larger scale brine mining decisions. Simply
stated, all three defendants possessed the capacity
and multiple opportunities to terminate solution
mining of the OG3 cavern in the face of warning after
warning. Through the life of the OG3, each defendant
exercised their capacity over the other defendants to
further their corporate interests. Inversely, after the
once hypothetical risks of the operations became
reality, each defendant attempted to shield
themselves from liability by proclaiming their
apparent lack of capacity over the situation. The fact
remains that no party prudently stepped up to the
plate and terminated the OG3 operations at the most
critical stages of operations until it was far too late.
Unlike the Texas Brine and Vulcan, however, the
Oxy entities possessed the capacity to influence the
operations of both the OG3 and the AH-1. As the
owner of the land, the mineral lessor for both the salt
being extracted from the OG3 and the hydrocarbons
being extracted from the AH-1, and the owner of the
Geismar facility in which the brine was being supplied
from 2005, OxyChem had the capacity to facilitate
both mining operations necessary to create the Bayou
Corne
sinkhole.
Stated
plainly,
OxyChem
imprudently allowed the depletion driven AH-1
reservoir to operate in close proximity to brine mining
operations that had known dome proximity concerns.
With knowledge of the existence of both of these
operations being undertaken on their land, OxyChem
purchased the Geismar facility in 2005 and used its
capacity to defer capital expenditures necessary to
drill new brine wells. In consideration of large brine
mining facilitation decisions, OxyChem failed to
account for the relationship between the OG3 cavern

155a
and the abutting and under-pressured AH-1 reservoir.
While OxyChem contends that it relied on the
opinions of its expert brine mining operator Texas
Brine and its consultant Dr. Ratigan when making
brine facilitation decisions, OxyChem’s failure to
collect neighboring AH-1 data prevented Texas Brine
and Dr. Ratigan from considering the possible risks
associated with operational proximity of the OG3
system and the depleted AH-1 reservoir. Considering
the totality of the evidence, OxyChem possessed
superior capacity over Texas Brine and Vulcan to
prevent the Bayou Corne sinkhole.
VII. CONCLUSION
The devastation of the Bayou Corne sinkhole is
apparent, and the resulting litigation up to this point
has been staggering. While substantial in volume, the
facts of this case are not overly complex. Considering
the totality of the evidence, the Court finds that the
Oxy entities, the Texas Brine entities, and Vulcan are
each allocated a portion of responsibility for the
damages occasioned by the Bayou Corne sinkhole
under Civil Code Articles 2315 and 2317.1.
Although all internal data from the OG3 cavern
indicated current stability when Vulcan sold their
interests to OxyChem, Vulcan’s negligence in failing
to facilitate recommended studies to further define
the edge of the Salt Dome before doubling production,
which moved the cavern closer to the edge of the dome,
coupled with Vulcan’s failure to disclose the known
risks associated with the OG3 in purchase
negotiations with OxyChem, leads this Court to
assign a portion of liability to Vulcan. Texas Brine, as
the operator of the OG3 well for the duration of the
well’s operations, failed to prudently act as a world
class brine mining company is expected to act in the
face of numerous red flags. Though Texas Brine did

156a
recommend that Vulcan and OxyChem drill
additional wells, no evidence was presented that
Texas Brine ever recommended terminating OG3
operations to Vulcan or OxyChem for safety or
environmental purposes. Therefore, Texas Brine is
allocated a significant percentage of fault for
negligently operating the OG3 well/cavern system.
Finally, the Oxy entities were in the best position to
prevent the sinkhole. In the face of Dr. Ratigan’s 2008
internal warnings to OxyChem of the critical nature
of the OG3 cavern, OxyChem lost trust in their brine
operator, asserted control over the situation, and
focused on short term deficits over safety. Though the
AH-1’s proximity to the brine operations was initially
recognized when unique provisions were added into
the Colorado Crude Lease, the Oxy entities failed to
collected data from the AH-1 and failed to account for
the implications of the depleted AH-1 reservoir when
the situation became critical. Therefore, the Oxy
entities are assigned the majority of fault.
SIGNED in Napoleonville, Louisiana on 21st
day of December, 2017.

THOMAS J. KLIEBERT, JR.
DIVISION “B”
JUDGE – 23RD JUDICIAL DISTRICT

157a
APPENDIX I

COURT OF APPEAL
FIRST CIRCUIT
STATE OF LOUISIANA
No. 2018-CA-0075 c/w 2018-CA-0241 c/w 2018-CA0796
2018-CA-0068 / 2018-CA-1098
2018-CA-0419 / 2018-CA-1122
FLORIDA GAS TRANSMISSION CO., L.L.C.,
Plaintiff
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.
Defendant/Appellee
FILED:
DEPUTY CLERK
STATE OF LOUISIANA
PARISH OF EAST BATON ROUGE
AFFIDAVIT OF ROBBIE A. BEYL, PH.D.
BEFORE ME, the undersigned Notary Public,
came and appeared
ROBBIE A. BEYL,
a person of the full age of majority, who upon being
duly sworn, did depose and state as follows:

158a
1.

2.

3.

4.

I am an assistant research professor of
biostatistics, and I am employed at the
Pennington
Biomedical
Research
Center
(“Pennington”), which is affiliated with
Louisiana State University in Baton Rouge,
Louisiana.
I graduated from Southeastern Louisiana
University in 2006, majoring in mathematics. I
earned a master’s degree in biostatistics from
Louisiana State University Health Science
Center in 2008, and a doctorate in biostatistics
from Louisiana State University Health Science
Center in 2013.
In my work as a research professor at
Pennington, I routinely engage in statistical
analysis, including but not limited to the
computation of the probability of certain events,
or certain combinations of events, occurring. In
the course of my statistical analysis work, I
routinely consult with other postdoctoral
researchers and university faculty.
The field of biostatistics applies statistical theory
and mathematical principles to research
questions involving biology, medicine, and public
health. From a mathematical standpoint, the
calculations used to determine the probability of
a particular event occurring would be identical to
address a similar issue arising in other contexts.
In other words, biostatistics is an applied field: it
applies the mathematical laws of statistics,
which has broad application, to particularized
inquiries arising in the context of biology,
medicine, or public health. These mathematical
principles can be applied, however, in any field of
knowledge, including but not limited to, the

159a

5.

6.

7.

distribution of events or actions taken by a court
of law.
I have co-authored 28 scholarly peer-reviewed
research papers, and made 15 presentations at
academic conferences. A true and correct copy of
my curriculum vitae is attached as Exhibit 1 to
this affidavit.
I was engaged by Texas Brine Company, LLC
(“Texas Brine”) to opine as to the likelihood of
two discrete phenomena, and specifically, to
determine the probability of each set of events
arising due to random chance.
First, I have assessed the probability of Hon. J.
Michael McDonald, as one of twelve judges
serving on the Louisiana First Circuit Court of
Appeal, being selected via random allotment to
serve on thirty-one of fifty-two appellate panels,
with each panel consisting of three of the twelve
First Circuit judges. The underlying data, as
provided to me by Texas Brine, is as follows:

Numbe
r
1

Status

Case

pending

2

pending

3

pending

4

pending

5

pending

6

pending

7

pending

8

pending

9

pending

Florida
Gas
Florida
Gas
Florida
Gas
Florida
Gas
Florida
Gas
Florida
Gas
Florida
Gas
Florida
Gas
Florida
Gas

Docket
number
2017-CA-0304
2018-CA-0068
2018-CA-0075
2018-CA-0421
2018-CA-0549
2018-CA-0062
2018-CA-0218
2018-CA-0907
2018-CA-0842

Judges
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge

160a
10

pending

Florida
Gas
Florida
Gas
Crosste
x
Crosste
x
Crosste
x
Crosste
x
Crosste
x
Crosste
x
Crosste
x
Crosste
x
Crosste
x
Pontcha
rtrain

2018-CA-0206

11

pending

12

pending

13

pending

14

pending

15

pending

16

pending

17

pending

18

pending

19

pending

20

pending

21

pending

22

pending

Pontcha
rtrain

2018-CA-0254

23

pending

Pontcha
rtrain

2018-CA-0244

24

pending

2018-CA-0241

25

pending

Pontcha
rtrain
Pontcha
rtrain

26

pending

Pontcha
rtrain

2018-CA-0631

27

pending

Pontcha
rtrain

2018-CA-0606

28

pending

Pontcha
rtrain

2018-CA-0419

2018-CA-1098
2018-CA-0117
2018-CA-1122
2018-CA-0749
2018-CA-0796
2018-CA-0863
2018-CA-0900
2018-CA-1189
2018-CA-1213
2018-CA-1231
2018-CA-0360

2018-CA-0004

McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McClendon,
Higginbotham,
Crain
Guidry,
McClendon,
Higginbotham
McClendon,
Higginbotham,
Holdridge
McDonald, Crain,
Holdridge
Holdridge,
Higginbotham,
Penzato
McClendon,
Higginbotham,
Theriot
Pettigrew,
McClendon,
Higginbotham
McDonald,
McClendon,
Higginbotham

161a
29

pending

Pontcha
rtrain

2018-CA-0435

30

pending

2018-CA-0621

31

pending

32

pending

33

pending

34

pending

35

nonpending
nonpending
nonpending
nonpending
nonpending

Marcha
nd
Marcha
nd
Marcha
nd
Marcha
nd
Marcha
nd
Florida
Gas
Florida
Gas
Florida
Gas
Florida
Gas
Crosste
x

40

nonpending

Crosste
x

2015-CA-0602

41

nonpending
nonpending
nonpending
nonpending
nonpending
nonpending

Crosste
x
Crosste
x
Crosste
x
Crosste
x
Crosste
x
Pontcha
rtrain

2017-CA-0863

nonpending
nonpending
nonpending

Pontcha
rtrain
Pontcha
rtrain
Labarre

2018-CA-0391

36
37
38
39

42
43
44
45
46
47
48
49

2018-CA-1048
2018-CA-1050
2018-CA-1051
2018-CA-1117
2015-CA-1331
2015-CA-1332
2018-CA-0743
2018-CA-0813
2015-CA-0600

2017-CA-0895
2017-CA-1405
2017-CA-1193
2017-CA-1192
2018-CA-0001

2018-CA-0394
2017-CA-0477

McClendon,
Higginbotham,
Crain
Guidry, Theriot,
Penzato
Guidry, Theriot,
Penzato
Guidry, Theriot,
Penzato
Guidry, Theriot,
Penzato
Guidry, Theriot,
Penzato
Whipple, Guidry,
McClendon
Whipple, Guidry,
McClendon
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald,
McClendon,
Theriot
McDonald,
McClendon,
Theriot
Whipple,
McDonald, Chutz
Whipple,
McDonald, Chutz
McDonald,
Chutz, Penzato
Guidry,
McDonald, Chutz
McDonald, Crain,
Chutz
Higginbotham,
Holdridge,
Penzato
Guidry, Theriot,
Penzato
Guidry, Theriot,
Penzato
Theriot, Chutz,
Penzato

162a
50

nonpending

Labarre

2017-CA-1368

51

nonpending
nonpending

Labarre

2017-CA-1370

Marcha
nd

2018-CA-0258

52

8.

Higginbotham,
Holdridge,
Penzato
Higginbotham,
Holdridge, Penzato
Guidry, Theriot,
Penzato

I have also assessed the probability of Judge
McDonald, as one of twelve judges serving on the
Louisiana First Circuit Court of appeal,
unilaterally signing sixty-one orders out of a
universe of ninety-three orders issued by various
First Circuit judges. Out of an abundance of
caution, to the extent that certain signatures are
illegible, I have not credited any such illegible
signatures to Judge McDonald. The underlying
data, as provided to me by Texas Brine and as set
forth in its supplemental brief dated February
26, 2019, is as follows: 1

number
1
2
3
4
5
6
7
8
9
10
11

Writ/Appeal No.
2015-CA-0206
2015 CM 1103
2017-CA-1332
2017-CA-1332
2015-CA-1332
2016-CA-0771
2016-CM-1019
2016-CM-1020
2016-CM-1021
2016-CM-1022
2016-CW-1564

Date
March 3, 2015
July 22, 2015
December 3, 2015
December 17, 2015
January 25, 2016
July 12, 2016
July 29, 2016
July 29, 2016
July 29, 2016
July 29, 2016
February 21, 2017

Judge Signing
Illegible
Illegible
Illegible
Illegible
Illegible
Whipple
McDonald
McDonald
McDonald
McDonald
McDonald

The underlying orders are attached as Exhibit 2 to this
Affidavit. Texas Brine’s February 26, 2019 supplemental motion
included a Rule to Show Cause in 2018-CA-1249, which was
inadvertently included. It also inadvertently attributed one
order to Judge Guidry which should have been attributed to
Judge McDonald. Texas Brine referred to fifty-nine orders signed
by Judge McDonald in its supplemental brief; on further review,
the correct total is sixty-one of ninety-three.
1

163a
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
40
41
42
43
44
45
46
47
48
49
50
51
52
53
54
55
56
57
58

2017-CW-0161
2017-CW-1152
2017-CW-1152
2017-CW-1155
2017-CW-1345
2018-CA-0062
2018-CA-0068
2018-CA-0075
2018-CA-0254
2018-CA-0244
2018-CA-0241
2018-CA-0068
2018-CA-0360
2018-CA-0241
2018-CA-0478
2018-CA-0492
2018-CA-0258
2018-CA-0206
2018-CA-0218
2018-CA-0244
2018-CA-0360
2018-CA-0421
2018-CA-0258
2018-CA-0218
2018-CA-0244
2018-CA-0394
2018-CA-0360
2018-CA-0631
2018-CA-0842
2018-CA-0068
2018-CA-0075
2018-CA-0749
2018-CA-1098
2018-CA-1122
2018-CA-1159
2018-CA-1249
2018-CA-1170
2018-CA-1249
2018-CA-1249
2018-CA-1391
2018-CA-1425
2018-CA-1425
2018-CA-1391
2018-CA-1249
2018-CA-1249
2018-CA-1391
2018-CA-1391

March 22, 2017
August 25, 2017
August 30, 2017
August 30, 2017
October 30, 2017
January 30, 2018
February 2, 2018
February 2, 2018
March 23, 2018
March 23, 2018
April 5, 2018
April 5, 2018
April 12, 2018
April 16, 2018
April 18, 2018
April 25, 2018
May 15, 2018
May 17, 2018
May 17, 2018
May 17, 2018
May 21, 2018
May 21, 2018
May 25, 2018
May 30, 2018
May 30, 2018
May 31, 2018
June 15, 2018
July 12, 2018
July 20, 2018
August 29, 2018
August 29, 2018
September 5, 2018
September 27, 2018
October 9, 2018
October 11, 2018
October 11, 2018
October 11, 2018
October 12, 2018
October 12, 2018
October 16, 2018
October 16, 2018
October 19, 2018
October 19, 2018
November 14, 2018
November 14, 2018
November 14, 2018
November 14, 2018

McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
Guidry
Guidry
Guidry
Guidry
Guidry
Guidry
McDonald
Guidry
McDonald
Guidry
Illegible
McDonald
McDonald
McDonald
McDonald
McDonald
Guidry
McDonald
McDonald
McDonald
McDonald
Illegible
Illegible
McDonald
McDonald
McDonald
Illegible
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald

164a
59
60
61
62
63
64
65
66
67
68
69
70
71
72
73
74
75
76
77
78
79
80
81
82
83
84
85
86
87
88
89
90
91
92
93

9.

2018-CA-1425
2018-CA-1425
2018-CA-1391
2018-CA-1391
2018-CA-1249
2018-CA-1249
2018-CA-1425
2018-CA-1425
2018-CA-1249
2018-CA-1425
2018-CA-1391
2018-CA-1714
2018-CA-1778
2018-CA-1249
2018-CA-1391
2018-CA-1425
2018-CA-1788
2018-CA-0054
2018-CA-1249
2018-CA-1249
2018-CA-1249
2018-CA-1425
2018-CA-1425
2018-CA-1425
2018-CA-1391
2018-CA-1391
2018-CA-1391
2018-CA-1626
2018-CA-1714
2018-CA-1714
2018-CA-1714
2018-CA-1714
2018-CA-1391
2018-CA-1425
2018-CA-1249

November 14, 2018
November 14, 2018
December 4, 2018
December 4, 2018
December 4, 2018
December 4, 2018
December 4, 2018
December 4, 2018
December 11, 2018
December 11, 2018
December 11, 2018
December 17, 2018
December 20, 2018
December 20, 2019
December 20, 2018
December 20, 2018
January 8, 2019
January 22, 2019
January 25, 2019
January 25, 2019
January 25, 2019
January 25, 2019
January 25, 2019
January 25, 2019
January 25, 2019
January 25, 2019
January 25, 2019
January 29, 2019
February 12, 2019
February 12, 2019
February 19, 2019
February 19, 2019
February 26, 2019
February 26, 2019
February 26, 2019

McDonald
McDonald
Guidry
Guidry
Guidry
Guidry
Guidry
Guidry
McDonald
McDonald
McDonald
McDonald
Guidry
Guidry
Guidry
Guidry
Holdridge
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
McDonald
Guidry
Guidry
McDonald
McDonald
McDonald
McDonald
McDonald

In order to compute the probability of Judge
McDonald being selected to serve on thirty-one of
fifty-two appellate panels, out of a universe of
twelve judges, three of whom serve on any one
panel, I made the following computation. We
suppose that, given that each judge is assigned
randomly to an appeal, there is a 1/4 chance that
any one particular judge would be one of the
three judges on the appellate panel. It is

165a
therefore expected that Judge McDonald would
be on (1/4)*52=13, panels of the 52 total appellate
panels comprised to date. Thus, the statistical
question is how unusual is it that Judge
McDonald has been assigned to 31 panels given
that he would be expected to only serve on about
13 panels. The binomial test is used to find an
answer to this question. We test the probably
that given that the judge assigned to the appeal
is random, what is the probably of seeing results
as extreme as or more extreme than the one
observed.
The
binomial
distribution
BINOMIAL(N=52, p=1/4, x=31) to calculate the
probability of serving on 31 or more appellate
panels of 52 assuming that the true random
probability of being on a particular appellate
panel is 1/4. This distribution is the probability
of adding up the probability of getting exactly 31
appeals, exactly 32 appeals, and so on up to 52.
10. This calculation yields a 0.0000000409%, or
4.09E-8%, likelihood that the selection of Judge
McDonald to thirty-one out of fifty-two threejudge panels is attributable to random chance.
This probability can also be expressed as an odds,
24,449,878 to 1. Another way to consider this
probability is that it is more likely to pick 6 out
of 6 lottery numbers (picking numbers between 1
and53).than it is assume that Judge McDonald
was randomly selected to an appellate panel.
11. Put another way, the estimated probability of
Judge McDonald being selected to thirty-one out
of fifty-two three-judge panels via a random
allotment process is 25%. However, that data
show that the probability of Judge McDonald

166a
serving on an appellate panel, based on the
empirical data, is 59.6%.
12. In order to compute the probability of Judge
McDonald unilaterally issuing sixty-one orders
out of ninety-three orders, out of a universe of
twelve judges, I made the following computation.
We suppose that, given that the judge that issues
the order is random, there is a 1/12 chance that
any one particular judge would sign a given
order. It is expected that Judge McDonald would
sign (1/12)*93=7.75, or about 8, orders of the 93
total orders. Thus, the statistical question is how
unusual is it that Judge McDonald signed 61
orders, given that he would be expected to only
sign about 8. The binomial test is used to find an
answer to this question. We test the probably
that given that the orders are issued randomly,
what is the probably of seeing results as extreme
as or more extreme than the one observed. The
binomial distribution BINOMIAL(N=93, p=1/12,
x=61) is used to calculate the probability of 61 or
more signed orders of 93, assuming that the true
random probability of issuing an order is 1/12.
This is the probability of adding up the
probability of getting exactly 61 orders, exactly
62 orders, and so on up to 93.
13. This calculation yields a 1.30E-16% likelihood
that Judge McDonald’s issuance of sixty-one
unilateral orders out of ninety-three issued by
the twelve judges of the First Circuit Court of
Appeal is attributable to random chance.
Expressed as an odds, this probability would be
7.69 quadrillion to 1. Another way to consider
this probability is more likely to roll “snake eyes”
(two ones) on a pair of fair six-sided dice 50 out of

167a

14.

15.

16.

17.

18.

100 times than it is to assume that Judge
McDonald was randomly selected to issue these
orders.
Put another way, the estimated probability of
Judge McDonald issuing any particular order,
given a random distribution, is 8.3%. However,
that data show that the probability of an order
being signed by Judge McDonald is 65.6%.
In my expert opinion, based on the calculations
and conclusions set forth in Paragraphs 9-11
above, the likelihood that Judge McDonald could
have been selected to serve on thirty-one of fiftytwo three-judge appellate panels cannot, by any
measure of statistical analysis, be deemed to
arise due to random chance.
In my expert opinion, based on the calculations
and conclusions set forth in Paragraphs 12-14
above, the likelihood that Judge McDonald could
have unilaterally issued sixty-one of ninety-three
orders, cannot, by any measure of statistical
analysis, be deemed to arise due to random
chance.
I have not been asked to opine as to any other
issues raised by Texas Brine’s recusal motion,
and I do not purport to offer any expert opinions
as to any other issues before this Court.
I attest that the foregoing is true and correct and
within my personal knowledge.
[handwritten signature]
ROBBIE A. BEYL, PH.D.

168a
SWORN AND SUBSCRIBED
BEFORE ME the undersigned
Notary Public, this 26th day
of March, 2019.
NOTARY PUBLIC

169a
APPENDIX J

COURT OF APPEAL
FIRST CIRCUIT
STATE OF LOUISIANA
No. 2018-CA-0075 c/w 2018-CA-0241 c/w 2018-CA0796
2018-CA-0068 / 2018-CA-1098 / 2018-CA-0419
2018-CA-1122 / 2018-CA-0907 / 2018-CA-0842
2018-CA-0549 / 2018-CA-0421 / 2018-CA-0206
2018-CA-0117 / 2018-CA-0900 / 2018-CA-1213
2018-CA-1323 / 2018-CA-0478 / 2018-CW-0364
FLORIDA GAS TRANSMISSION CO., L.L.C.,
Plaintiff
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.
Defendant/Appellee
---PONTCHARTRAIN NATURAL GAS SYSTEM,
K/D/S PROMIX, L.L.C., AND ACADIAN GAS
PIPELINE SYSTEM, Plaintiffs
VERSUS

170a
TEXAS BRINE COMPANY, L.L.C., ET AL.
Defendant/Appellee
---CROSSTEX ENERGY SERVICES, L.P.,
Plaintiff
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.
Defendant/Appellee
FILED:
DEPUTY CLERK
STATE OF LOUISIANA
PARISH OF EAST BATON ROUGE
SUPPLEMENTAL AFFIDAVIT OF
ROBBIE A. BEYL, PH.D.
BEFORE ME, the undersigned Notary Public,
came and appeared
ROBBIE A. BEYL,
a person of the full age of majority, who upon being
duly sworn, did depose and state as follows:
1.

I am an assistant research professor of
biostatistics, and I am employed at the
Pennington Biomedical Research Center
(“Pennington”), which is affiliated with
Louisiana State University in Baton Rouge,
Louisiana.
2. I graduated from Southeastern Louisiana
University in 2006, majoring in mathematics. I
earned a master’s degree in biostatistics from

171a
Louisiana State University Health Science
Center in 2008, and a doctorate in biostatistics
from Louisiana State University Health
Science Center in 2013.
3. In my work as a research professor at
Pennington, I routinely engage in statistical
analysis, including but not limited to the
computation of the probability of certain
events, or certain combinations of events,
occurring. In the course of my statistical
analysis work, I routinely consult with other
post-doctoral researchers and university
faculty.
4. The field of biostatistics applies statistical
theory and mathematical principles to research
questions involving biology, medicine, and
public
health.
From
a
mathematical
standpoint, the calculations used to determine
the probability of a particular event occurring
would be identical to address a similar issue
arising in other contexts. In other words,
biostatistics is an applied field: it applies the
mathematical laws of statistics, which has
broad application, to particularized inquiries
arising in the context of biology, medicine, or
public health. These mathematical principles
can be applied, however, in any field of
knowledge, including but not limited to, the
distribution of events or actions taken by a
court of law. Calculation for probability and
odds were computed using SAS v9.4 (SAS
Institute Inc., Cary, NC, USA) and
Wolfram|Alpha 2018 (Wolfram Research, Inc.).
5. I have co-authored 28 scholarly peer-reviewed
research papers, and made 15 presentations at

172a
academic conferences. A true and correct copy
of my curriculum vitae is attached as Appendix
1 to this affidavit.
6. I was engaged by Texas Brine Company, LLC
(“Texas Brine”) to opine as to the likelihood of
two discrete phenomena, and specifically, to
determine the probability of each set of events
arising due to random chance. These opinions
are set forth in my original affidavit of March
11, 2019. I have also reviewed the affidavit
submitted by Occidental Chemical Corporation
on March 11, 2019, and I have supplemented
my affidavit to address the data presented in
that affidavit.
7. First, I have assessed the probability of Judge
McDonald, as one of twelve judges serving on
the Louisiana First Circuit Court of appeal,
unilaterally signing sixty-six orders out of a
universe of one hundred and six orders issued
by various First Circuit judges, using the
statistics presented in the affidavit submitted
by Occidental Chemical Corporation on March
11, 2019. These totals differ slightly from the
totals which I used in my original March 11,
2019 affidavit: I used sixty-one orders out of
ninety-three. Thus, Occidental has identified
thirteen additional orders signed by a judge five of which were signed by Judge McDonald.
Out of an abundance of caution, to the extent
that certain signatures are illegible, I have not
credited any such illegible signatures to Judge
McDonald.
8. Further, Occidental contends that fifty-nine
orders were signed by the Clerk of Court or the
Deputy Clerk of Court. While my focus was

173a

9.

10.

11.

12.

originally limited to the universe of judgesigned orders, I have separately evaluated the
probabilities of Judge McDonald signing sixtysix out of one hundred sixty-five orders given
fourteen potential signers (the Clerk and the
Deputy Clerk). Given that the Clerk and the
Deputy Clerk have signed more orders than
any judge other than Judge McDonald, I have
also separately evaluated this likelihood
whereby the odds of the Clerk and Deputy
Clerk are weighted three times as compared to
an individual judge.
Finally, I have also assessed the probability
that forty-four of the fifty-two appellate panels
that were convened as of March 11, 2019
contained exactly one judge from the First
Election District, one from the Second Election
District, and one from the Third Election
District, would have occurred as a matter of
random chance.
With respect to the orders signed by judges, I
have refined my analysis using the data
provided in Occidental’s March 11, 2019
affidavit. This chart is attached as Appendix 2
to this affidavit.
In order to compute the probability of Judge
McDonald unilaterally issuing sixty-six orders
out of one hundred and six orders, out of a
universe of twelve judges, I made the following
computation. We suppose that, given that the
judge who issues the order is random, there is
a 1/12 chance that any one particular judge
would sign a given order.
Using this framework, it is expected that Judge
McDonald would sign (1/12)*106=8.83, or about

174a
9, orders of the 106 total orders. Thus, the
statistical question is how unusual is it that
Judge McDonald signed 66 orders, given that
he would be expected to only sign about 9. The
binomial test is used to find an answer to this
question. We tested the probably that given
that the orders are issued randomly, what is
the probably of seeing results as extreme as or
more extreme than the one observed. The
binomial
distribution
BINOMIAL(N=106,
p=1/12, x=66) is used to calculate the
probability of 66 or more signed orders of 106,
assuming that the true random probability of
issuing an order is 1/12. This is the probability
of adding up the probability of getting exactly
66 orders, exactly 67 orders, and so on up to
165.
13. This calculation yields a 3.89E-42% likelihood
that Judge McDonald’s issuance of 66
unilateral orders out of 106 issued by the
twelve judges of the First Circuit Court of
Appeal is attributable to random chance.
Expressed as an odds, this probability would be
25.7 tredecillion to 1 (i.e., a one with 42 zeros).
Another way to consider this probability is that
it is more likely to roll “snake eyes” (two ones an event that has a one in thirty-six chance of
occurring on any given roll) on a pair of fair sixsided dice 28 times in a row than it is to assume
that Judge McDonald was randomly selected to
issue these orders.
14. Put another way, the estimated probability of
Judge McDonald issuing any particular order,
given a random distribution, is 8.33%.
However, that data show that the probability of

175a
an order being signed by Judge McDonald is
62.3%.
15. In order to compute the probability of Judge
McDonald unilaterally issuing sixty-six orders
out of one hundred and six orders, out of a
universe of twelve judges plus one Clerk of
Court and one Deputy Clerk of Court, I made
the following computation. We suppose that,
given that the judge, Clerk of Court, or Deputy
Clerk that issues the order is random, there is
a 1/14 chance that any one particular judge,
Clerk, or Deputy Clerk would sign a given
order. This framework assumes that the
probability of the Clerk and the Deputy Clerk
signing any particular order is equivalent to
the probability of each of the twelve judges
signing the order, although empirically, both
the Clerk and Deputy Clerk have signed more
orders than any judge other than Judge
McDonald.
16. Using this framework, it is expected that Judge
McDonald would sign (1/14)*165=11.8, or about
12, orders of the 165 total orders. Thus, the
statistical question is how unusual is it that
Judge McDonald signed 66 orders, given that
he would be expected to only sign about 12. The
binomial test is used to find an answer to this
question. We test the probably that given that
the orders are issued randomly, what is the
probably of seeing results as extreme as or
more extreme than the one observed. The
binomial
distribution
BINOMIAL(N=165,
p=1/14, x=66) is used to calculate the
probability of 66 or more signed orders of 165,
assuming that the true random probability of

176a
issuing an order is 1/14. This is the probability
of adding up the probability of getting exactly
66 orders, exactly 67 orders, and so on up to
165.
17. This calculation yields a 1.25E-30% likelihood
that Judge McDonald’s issuance of 66
unilateral orders out of 165 issued by the
twelve judges of the First Circuit Court of
Appeal, the Clerk of Court, or the Deputy Clerk
of Court is attributable to random chance.
Expressed as an odds, this probability would be
80.0 nonillion to 1 (a nonillion is a one with 30
zeros). Another way to consider this probability
is more likely to roll “snake eyes” (two ones - an
event that has a one in thirty-six chance of
occurring on any given roll) on a pair of fair sixsided dice 20 times in a row than it is to assume
that Judge McDonald was randomly selected to
issue these orders.
18. Put another way, the estimated probability of
Judge McDonald issuing any particular order,
given a random distribution, is 7.1%. However,
that data show that the probability of an order
being signed by Judge McDonald is 40.0%.
19. Because the Clerk of Court and Deputy Clerk
of Court each signed more orders than each of
the eleven judges other than Judge McDonald,
I believe that the framework described in
Paragraphs 15-18 is overly conservative.
Instead, a more methodologically sound
approach is to weight the likelihood of the Clerk
or Deputy Clerk issuing an order as being
likelier than any particular judge. For purposes
of this analysis, I have weighted this
probability as three times more likely. Putting

177a
aside the illegible orders, the number of orders
signed by both the Clerk of Court and Deputy
Clerk of Court is more than three times greater
than the amount of unilateral orders executed
by ten of the twelve judges of the First Circuit.
20. Under this weighted approach, in order to
compute the probability of Judge McDonald
unilaterally issuing sixty-six orders out of one
hundred and six orders, out of a universe of
twelve judges plus one Clerk of Court and one
Deputy Clerk of Court, I made the following
computation. We suppose that, given that the
judge, Clerk of Court, or Deputy Clerk that
issues the order is random, there is a 1/18
chance that any one particular judge would
sign a given order, and a 5/18 chance for both
the Clerk of Court and the Deputy Clerk of
Court.
21. Using this framework, it is expected that Judge
McDonald would sign (1/18)*165=9.16 orders of
the 165 total orders. Thus, the statistical
question is how unusual is it that Judge
McDonald signed 66 orders, given that he
would be expected to only sign about 9. The
binomial test is used to find an answer to this
question. We tested the probably that given
that the orders are issued randomly, what is
the probably of seeing results as extreme as or
more extreme than the one observed. The
binomial
distribution
BINOMIAL(N=165,
p=1/18, x=66) is used to calculate the
probability of 66 or more signed orders of 165,
assuming that the true random probability of
issuing an order is 1/18. This is the probability
of adding up the probability of getting exactly

178a
66 orders, exactly 67 orders, and so on up to
165.
22. This calculation yields a 3.16E-37% likelihood
that Judge McDonald’s issuance of 66
unilateral orders out of 165 issued by the
twelve judges of the First Circuit Court of
Appeal, the Clerk of Court, or the Deputy Clerk
of Court is attributable to random chance,
based on a weighted approach whereby the
likelihood of the Clerk of Court or the District
Clerk of Court would issue a particular
judgment is three times greater than an
individual judge. Expressed as an odds, this
probability would be 316 undecillion to 1 (an
undecillion is a 1 with 36 zeros). Another way
to consider this probability is that it is more
likely to roll “snake eyes” (two ones - an event
that has a one in thirty-six chance of occurring
on any given roll) on a pair of fair six-sided dice
24 times in a row than it is to assume that
Judge McDonald was randomly selected to
issue these orders.
23. Put another way, the estimated probability of
Judge McDonald issuing any particular order
under this weighted approach, given a random
distribution, is 5.55%. However, that data show
that the probability of an order being signed by
Judge McDonald is 40.0%.
24. I also have examined the distribution of
appellate panels, and specifically, the
frequency with which appellate panels consist
of exactly one judge from Election District 1,
one judge from Election District 2, and one
judge from Election District 3. I previously
evaluated the composition of fifty-two appellate

179a
panels, thirty-one of which feature Judge
McDonald. I have reviewed the composition of
those fifty-two appellate panels, as they existed
as of the time of my March 11, 2019 affidavit,
and cross-referenced them against the
breakdown by electoral district, as reflected on
the First Circuit’s website. 1 Based on my
review, 44 of the 52 appellate panels feature
this type of geographic balancing, as reflected
below. The eight panels that serve as
exceptions to this pattern are indicated by
shading:
Number Status
1 pending

Case
Florida Gas

Docket number
2017-CA-0304

2 pending

Florida Gas

2018-CA-0068

3 pending

Florida Gas

2018-CA-0075

4 pending

Florida Gas

2018-CA-0421

5 pending

Florida Gas

2018-CA-0549

6 pending

Florida Gas

2018-CA-0062

7 pending

Florida Gas

2018-CA-0218

8 pending

Florida Gas

2018-CA-0907

9 pending

Florida Gas

2018-CA-0842

10 pending

Florida Gas

2018-CA-0206

11 pending

Florida Gas

2018-CA-1098

12 pending

Crosstex

2018-CA-0117

13 pending

Crosstex

2018-CA-1122

Judges
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge

A copy of the list of the judges of the First Circuit, along with
their respective electoral districts, is posted on the First Circuit’s
website, at https://www/la-fcca.org/index.php/judges.html (last
viewed March 23, 2019). A printout of this list is attached as
Appendix 3 to this Supplemental Affidavit.

1

180a
14 pending

Crosstex

2018-CA-0749

15 pending

Crosstex

2018-CA-0796

16 pending

Crosstex

2018-CA-0863

17 pending

Crosstex

2018-CA-0900

18 pending

Crosstex

2018-CA-1189

19 pending

Crosstex

2018-CA-1213

20 pending

Crosstex

2018-CA-1231

21 pending

Pontchartrain

2018-CA-0360

22 pending

Pontchartrain

2018-CA-0254

23 pending

Pontchartrain

2018-CA-0244

24 pending

Pontchartrain

2018-CA-0241

25 pending

Pontchartrain

2018-CA-0004

26 pending

Pontchartrain

2018-CA-0631

27 pending

Pontchartrain

2018-CA-0606

28 pending

Pontchartrain

2018-CA-0419

29 pending

Pontchartrain

2018-CA-0435

30
31
32
33
34
35

Marchand
Marchand
Marchand
Marchand
Marchand
Florida Gas

2018-CA-0621
2018-CA-1048
2018-CA-1050
2018-CA-1051
2018-CA-1117
2015-CA-1331

Florida Gas

2015-CA-1332

Florida Gas

2018-CA-0743

Florida Gas

2018-CA-0813

Crosstex

2015-CA-0600

Crosstex

2015-CA-0602

Crosstex

2017-CA-0863

Crosstex

2017-CA-0895

36
37
38
39
40
41
42

pending
pending
pending
pending
pending
nonpending
nonpending
nonpending
nonpending
nonpending
nonpending
nonpending
nonpending

McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McClendon,
Higginbotham, Crain
Guidry, McClendon,
Higginbotham
McClendon,
Higginbotham,
Holdridge
McDonald, Crain,
Holdridge
Holdridge,
Higginbotham, Penzato
McClendon,
Higginbotham, Theriot
Pettigrew, McClendon,
Higginbotham
McDonald, McClendon,
Higginbotham
McClendon,
Higginbotham, Crain
Guidry, Theriot, Penzato
Guidry, Theriot, Penzato
Guidry, Theriot, Penzato
Guidry, Theriot, Penzato
Guidry, Theriot, Penzato
Whipple, Guidry,
McClendon
Whipple, Guidry,
McClendon
McDonald, Crain,
Holdridge
McDonald, Crain,
Holdridge
McDonald, McClendon,
Theriot
McDonald, McClendon,
Theriot
Whipple, McDonald,
Chutz
Whipple, McDonald,
Chutz

181a
43 nonpending
44 nonpending
45 nonpending
46 nonpending
47 nonpending
48 nonpending
49 nonpending
50 nonpending
51 nonpending
52 nonpending

Crosstex

2017-CA-1405

McDonald, Chutz,
Penzato
Guidry, McDonald,
Chutz
McDonald, Crain, Chutz

Crosstex

2017-CA-1193

Crosstex

2017-CA-1192

Pontchartrain

2018-CA-0001

Pontchartrain

2018-CA-0391

Higginbotham,
Holdridge, Penzato
Guidry, Theriot, Penzato

Pontchartrain

2018-CA-0394

Guidry, Theriot, Penzato

Labarre

2017-CA-0477

Theriot, Chutz, Penzato

Labarre

2017-CA-1368

Labarre

2017-CA-1370

Marchand

2018-CA-0258

Higginbotham,
Holdridge, Penzato
Higginbotham,
Holdridge, Penzato
Guidry, Theriot, Penzato

25. A two-step process is necessary to determine
whether this phenomenon is attributable to
random chance. The first step is to determine
that, for all possible combinations of three
judges, on a twelve-panel, exactly one judge will
be from each of the three election districts. The
next step is to determine the likelihood of that
probability arising forty-four out of fifty-two
times.
26. To compute the probability of the three judges
on a panel corning from three different election
districts, first the total number of the number
of combinations of 3-judge panels is computed.
This can be expressed as how many possible
ways as group of 3 judges are paired up. The
mathematical tool used for these calculations is
the combination function. The expression
12choose3 indicates that 3 out of 12 possible
choices are selected, resulting in 220 unique
combinations. The number of judges from each
district is randomly chosen from the pool of 4

182a
potential
judges.
This
is
expressed
mathematically as 4choose1, or 4.
27. There are 220 potential combinations of threejudge panels that could be selected, simply by
picking three judges out of twelve at random.
Using this geographic balancing reduces the
number of potential combinations by
approximately 70.9%, to just 64 potential
combinations.
28. In order to compute the probability forty-four of
fifty-two appellate panels featuring exactly one
judge from each of the three election districts, I
made the following computation. We suppose
that, given that there is approximately a 29.1%
probability of this distribution (derived by
taking the 64 combinations featuring exactly
one judge from each panel as a percentage of
the 220 total combinations) occurring on a
single appellate panel, it is therefore expected
that this phenomenon would occur on
(.291)*52=15.6 of the 52 appellate panels
initially comprised as of the time of my initial
affidavit. We tested the probability of seeing
results as extreme as or more extreme than the
one observed. The binomial distribution
BINOMIAL(N=52, p=.291, x=44) to calculate
the probability of 44 or more appellate panels
of 52 featuring exactly one judge from each of
the three election districts, assuming that the
true random probability of this distribution
occurring is 0.291. This distribution is the
probability of adding up the probability of
getting exactly 44 appeals, exactly 45 appeals,
and so on up to 52.

183a
29. This calculation yields a 1.34E-14% likelihood
that forty-four of fifty-two appellate panels
feature exactly one judge from each of the three
appellate districts in the First Circuit is
attributable to random chance. This probability
can also be expressed as an odds, 7.46
quadrillion to 1. Another way to consider this
probability is that it is more likely to roll “snake
eyes” (two ones - an event that has a one in
thirty-six chance of occurring on any given roll)
on a pair of fair six-sided dice 9 times in a row
than it is to assume that this type of geographic
balancing is attributable to random chance.
30. Put another way, the estimated probability of
forty-four out of fifty-two three-judge panels
featuring exactly one judge from each of three
election districts being selected via a random
allotment process is 29.1%. However, that data
show that the probability that a three-judge
panel will feature exactly one judge from all
three election districts, based on the empirical
data, is 84.6%.
31. In my expert opinion, based on the calculations
and conclusions set forth in Paragraphs 11-14
above, the likelihood that Judge McDonald
could have unilaterally issued 66 of 106 orders
issued unilaterally by judges of the First
Circuit, cannot, by any measure of statistical
analysis, be deemed to arise due to random
chance.
32. In my expert opinion, based on the calculations
and conclusions set forth in Paragraphs 15-23
above, the likelihood that Judge McDonald
could have unilaterally issued 66 of 165 orders
issued by the judges of the First Circuit along

184a
with the Clerk of Court and Deputy Clerk of
Court, cannot, by any measure of statistical
analysis, be deemed to arise due to random
chance. This conclusion holds regardless of
whether the likelihood of the Clerk of Court and
Deputy Clerk of Court signing a particular
order is treated as being equally as likely as a
particular judge signing a particular order, or
whether that probability is weighted as being
more likely.
33. My analysis and opinions regarding Judge
McDonald’s presence on thirty-one of fifty-two
appellate panels is unchanged from my March
11, 2019 affidavit, and I incorporate that
analysis and those opinions into this affidavit.
34. I have not been asked to opine as to, any other
issues raised by Texas Brine’s recusal motion,
and I do not purport to offer any expert opinions
as to any other issues before this Court.
35. I attest that the foregoing is true and correct
and within my personal knowledge.
______________________
ROBBIE A. BEYL,
PH.D.
SWORN AND SUBSCRIBED
BEFORE ME the undersigned
Notary Public, this 26th day
of March, 2019.
NOTARY PUBLIC

185a
APPENDIX K
STATE OF LOUISIANA, SUPREME COURT
DOCKET NO. 2019-OC-1503 c/w 2019-OC-1508
TEXAS BRINE COMPANY, LLC and UNITED
BRINE SERVICES COMPANY, LLC
VERSUS
RODD NAQUIN, IN HIS CAPACITY AS CLERK
OF COURT FOR THE FIRST CIRCUIT COURT
OF APPEAL FOR THE STATE OF LOUISIANA
GARY N. SOLOMON, ET AL.
VERSUS
RODD NAQUIN, IN HIS CAPACITY AS CLERK
OF COURT FOR THE FIRST CIRCUIT COURT
OF APPEAL FOR THE STATE OF LOUISIANA

STATE OF LOUISIANA
PARISH OF EAST BATON ROUGE
THIRD SUPPLEMENTAL AFFIDAVIT OF
ROBBIE A. BEYL, PH.D.
BEFORE ME, the undersigned Notary Public,
came and appeared
ROBBIE A. BEYL, PH.D.
a person of the full age of majority, who upon being
duly sworn, did depose and state as follows:
1.

I am an assistant research professor of
biostatistics, and I am employed at the
Pennington
Biomedical
Research
Center

186a

2.

3.

4.

5.

(“Pennington”), which is affiliated with
Louisiana State University in Baton Rouge,
Louisiana.
I graduated from Southeastern Louisiana
University in 2006, majoring in mathematics. I
earned a master’s degree in biostatistics from
Louisiana State University Health Science
Center in 2008, and a doctorate in biostatistics
from Louisiana State University Health Science
Center in 2013.
In my work as a research professor at
Pennington, I routinely engage in statistical
analysis, including but not limited to the
computation of the probability of certain events,
or certain combinations of events, occurring. In
the course of my statistical analysis work, I
routinely consult with other post-doctoral
researchers and university faculty. I have coauthored 28 scholarly peer-reviewed research
papers, and made 15 presentations at academic
conferences. A true and correct copy of my
curriculum vitae is in the record of this
proceeding, as Exhibit 3(1) to Texas Brine’s
August 9, 2019 Petition for Mandamus.
I was engaged by Texas Brine Company, LLC
and United Brine Services Company, LLC to
opine as to the likelihood of various distributions
of appellate panels, and whether the First
Circuit Court of Appeal’s practices result in a
random distribution of appeals.
I have learned that the First Circuit admitted on
October 29, 2019 that “by longstanding practice
... each regular panel of the First Circuit is
comprised of one member randomly chosen
through mechanical means from the four

187a

6.

7.

members of each of the Court’s three election
districts.” 1 I previously examined this practice in
my March 26, 2019 Supplemental Affidavit. As
noted in Paragraphs 26-27 of that affidavit, there
are 220 unique combinations of three judges out
of a universe of twelve judges. 2 By requiring
exactly one judge from each district, that
geographic balancing reduced the number of
potential combinations by approximately 70.9%
to just 64 potential combinations.
For purposes of my analysis, I focused upon fortyseven appeals where the panel was selected and
disclosed subsequent to August l, 2018. 3 I also
separately considered five appeals where the
panel was selected prior to August 1, 2018, but
where the ruling was issued after that date.
The full set of appeals is set forth in Appendix
1 to this Affidavit.
I first focused on the period between August 1,
2018 (the effective dates of article 2164.1 of the
Code of Civil Procedure and Revised Statutes
§13:319) and March 13, 2019 (the date on
which four judges (Judges Holdridge, Chutz,
Whipple, and McClendon) recused themselves
from further proceedings in the Bayou Come
sinkhole litigation. There were 33 appeals
where the docket was identified to the parties

See First Circuit’s Per Curiam, October 29, 2019.
As with my prior affidavits, all calculations for probability and
odds were computed using SAS v9.4 (SAS Institute Inc., Cary,
NC, USA) and Wolfram\Alpha 2018 (Wolfram Research, Inc.).
3
I have been advised that two statutes requiring the random
assignment of appellate panels, article 2164.1 of the Code of Civil
Procedure and Revised Statutes § I 3:319, became effective on
August 1, 2018.
1
2

188a

8.

in this eight-month window. In 20 of those 33
appeals, the panel consisted of exactly one
judge from District 1, one Judge from District
2, and one judge from District 3 - a breakdown
which has approximately 29.1% as noted above
and in Paragraph 28 of my March 26, 2019
affidavit.
Certain
other
parties
have
suggested,
without
providing
written
confirmation, that Judge Whipple and/or
Judge Chutz previously self-recused prior to
August l, 2019. If that is the case, then the
probability of drawing exactly one judge from
District 1, one from District 2, and one from
District 3 would be 25% (only 30 out of 120
possible combinations) out of a universe of ten
possible judges rather than twelve.
In order to compute the probability of twenty
of thirty-three appellate panels featuring
exactly one judge from each of the three
election districts, I made the following
computation. We suppose that, given that
there is approximately a 29.1% probability of
this distribution (derived by taking the 64
combinations featuring exactly one judge from
each panel as a percentage of the 220 total
combinations) occurring on a single appellate
panel, it is therefore expected that this
phenomenon would occur on (.291)*33= 9.6 of
the 33 appellate panels identified during this
timeframe. We tested the probability of seeing
results as extreme as or more extreme than the
one observed. The binomial distribution
BINOMIAL(N=33, p=.291, x=20) to calculate
the probability of 20 or more appellate panels
of 33 featuring exactly one judge from each of

189a
the three election districts, assuming that the
true random probability of this distribution
occurring is 0.291. This distribution is the
probability of adding up the probability of
getting exactly 20 appeals, exactly 21 appeals,
and so on up to 33.
9. This calculation yields a 0.00338% likelihood
that 20 of33 appellate panels feature exactly
one judge from each of the three geographic
districts in the First Circuit is attributable to
random chance. This probability can also be
expressed as an odds, 29,588 to l. I also
prepared an alternative calculation, using a
pool of ten judges based on the methodology in
Paragraph 8, to address the scenario where
both Judge Whipple and Judge Chutz had
previously recused themselves. That approach
yields a 0.000116% likelihood that this
distribution is the result of random chance, or
odds of 862,069 to 1.
10. In addition, there are five additional appeals,
as reflected in Appendix 1, where the panel
was identified prior to August 1, 2018, but
where the opinion was issued after that date.
All five of those appeals featured exactly one
judge from each of the three election districts.
To the extent that these additional appeals
should also be considered, I re-ran the above
calculations using 25 appeals featuring this
29.1% likelihood out of a universe of 38
appeals.
Using
the
above-described
methodology set forth in Paragraphs 8-9, this
yields a 0.0000319% likelihood that 25 of 38
appellate panels feature exactly one judge
from each of the three geographic districts in

190a
the First Circuit is attributable to random
chance. This probability can also be expressed
as an odds, approximately 3.13 million to 1.
These odds are more remote than the
probability of rolling “snake eyes” (two ones an event that has a one in thirty-six chance on
any given roll of two dice) six times in a row.
Using the same methodology, but with a
universe of ten judges rather than twelve, this
yields a 312 millionth% likelihood that 25 of 38
appeals would feature panels with exactly one
judge from each of the appellate districts, or
odds of 320 million to 1.
11. I understand that on March 13, 2019, two First
Circuit judges (Holdridge and Whipple) and
two Third Circuit judges (Chutz and
McClendon) submitted notices of recusal, such
that they would not participate in any
sinkhole-related appeals going forward. Since
that date, the First Circuit identified fourteen
appellate panels - eleven consisting of exactly
one judge from District 1, one judge from
District 2, and one judge from District 3.
12. With eight remaining judges from the three
districts, there are now 56 possible three-judge
combinations, and there are 24 possible
combinations consisting of exactly one judge
from each of the three districts. Thus, even
after accounting for the recusals, geographic
balancing reduced the number of potential
combinations by approximately 57.l %, leaving
a 42.9% likelihood that any given panel would
feature exactly one judge from each district.
13. In order to compute the probability of 11 of 14
appellate panels featuring exactly one judge

191a
from each of the three election districts, I made
the following computation. We suppose that,
given that there is approximately a 42.9%
probability of this distribution (as noted in
Paragraph 12) occurring on a single appellate
panel, it is therefore expected that this
phenomenon would occur on (.429)*14= 5.9 of
the 14 appellate panels identified during this
timeframe. We tested the probability of seeing
results as extreme as or more extreme than the
one observed. The binomial distribution
BINOMIAL(N=14, p=.429, x=11) to calculate
the probability of 11 or more post-recusal
appellate panels of 14 featuring exactly one
judge from each of the three election districts,
assuming that the true random probability of
this distribution occurring is 0.421. This
distribution is the collective probability of
getting exactly 11 appeals, exactly 12 appeals,
and so on up to 14.
14. This calculation yields a 0.35% likelihood that
11 of 14 appellate panels feature exactly one
judge from each of the three appellate districts
in the First Circuit is attributable to random
chance. This probability can also be expressed
as an odds, 285 to 1.
15. Instead of two separate probabilities, the two
previous examples of three judge appeals with
one from each district, 25 of 38 with 12 judges
before March 13, 2019 and the 11 of 14 with 8
judges after March 13, 2019, can be combined
to get the probability of the entire example. In
order to compute the probability of 36 of 52
appellate panels featuring exactly one judge
from each of the three election districts, I made

192a
the following computation. We suppose that
the joint probability is a weighted average of
the two different examples, giving an overall
approximately 32.8% probability of exactly one
judge from each panel occurring on a single
appellate panel. Thus, this occurrence should
happen in (.328)*52=17.1 of the 56 appellate
panels identified during this timeframe. Using
the same type of binomial test as described
above, we will be calculating the collective
probability of getting this distribution of
exactly one judge per election district for
exactly 36 appeals, exactly 37 appeals, and so
on up to 52.
16. This calculation yields a 1.10 millionth%
likelihood that 36 of 52 appellate panels
feature exactly one judge from each of the
three appellate districts in the First Circuit is
attributable
to
random
chance.
This
probability can also be expressed as an odds,
910,000 to 1. Using the above-described
methodology as applied to an initial pool of ten
judges instead of twelve (to account for the
possibility that Judges Whipple and Chutz had
previously self-recused), this yields a 4.09
millionth% likelihood of this 36-of-52
distribution arising due to random chance, or
as odds of 23 million to 1.
17. Going forward, with eight judges - including
two apiece from District 1 and District 3 and
four judges available from District 2 - if the
First Circuit continues to geographically
balance its panels, the likelihood of drawing a
particular judge on a future panel is not equal
for all judges. Instead, it is statistically more

193a
likely, given the First Circuit’s practice of
geographically balancing panels to require one
judge from each election district, that the
remaining judges from District 1 and District
3 would be more likely to be on a panel than
those on District 2. Going forward, if a nowrecused judge is selected for a panel, and that
spot is randomly re-allotted among the other
non-recused judges who are not already on the
panel, that would yield a situation where the
remaining judges from District 1 and District
3 are more likely to be on a panel than the
judges from District 2. Under this approach, a
particular judge from District 1 would be on 30
of the 56 panels consisting of exactly one judge
from each district, as would a particular judge
from District 3. Conversely, a particular judge
from District 2 would only be on 14 of these 56
panels. If appeals were randomly assigned, all
judges should be equally likely going forward
(3/8 or 37.5%) to serve on a given appellate
panel in the sinkhole litigation
18. I am aware that the First Circuit has
represented that it changed its caseassignment practices in light of the enactment
of Article 2164.1 of the Code of Civil Procedure
and Revised Statutes §13:319. Specifically, the
First Circuit indicated in its October 4, 2019
per curiam that “Following this legislative
amendment, the First Circuit reviewed and
amended its Internal Rules effective July 10,
2019, as specifically codified into the Courts
Internal Rules on August 9, 2019, to clarify
that each appeal is randomly allotted,
regardless of prior appeals in the First Circuit

194a
arising from the same district court proceeding
bearing that district court case number.”
19. I have reviewed the assignment and allotment of
appeals, both before and after the date on which
the First Circuit purported to change its
practices to reflect that each appeal is randomly
allotted. Consider the following appeals from the
Pontchartrain litigation, where three identical
appellate panels were identified on June 28, 2019
(i.e. before the date on which the First Circuit
purported to correct its practices) and three more
identical panels were identified on August 27,
2019 - nearly three weeks after the date on which
the First Circuit recodified its rules, and
approximately seven weeks after the effective
date of the stated amendment to the First
Circuit’s rules:
Case

Pontchart
rain
Pontchart
rain
Pontchart
rain
Pontchart
rain
Pontchart
rain
Pontchart
rain

Docket No. Date Panel 1st
Ruled
District
Judge(s)
2018-CA- 6/28/2019 Lanier
0492
2018-CA- 6/28/2019 Lanier
0493
2018-CA- 6/28/2019 Lanier
0500
2018-CA- 8/27/2019 Lanier
0999
2018-CA- 8/27/2019 Lanier
1159
2018-CA- 8/27/2019 Lanier
1170

2nd District 3rd
Judge(s) District
Judge(s)
Higginboth Penzato
am
Higginboth Penzato
am
Higginboth Penzato
am
Higginboth Penzato
am
Higginboth Penzato
am
Higginboth Penzato
am

20. As reflected in the above chart, the composition
of the three appellate panels identified in
Pontchartrain on August 27, 2019 are identical
to the composition of the Pontchartrain appellate

195a
panels identified on June 27, 2019 notwithstanding the intervening amendment of
the First Circuit’s case assignment practices. The
likelihood of this being attributable to random
chance is 1 in 175,616 As noted above, postrecusal, there are 56 possible three-judge
combinations that could be selected. The
probability that the composition of each of the
three August 27, 2019 panels identified above
could be identical to the June 28, 2019 panels (i.e.
those comprised before the First Circuit
purported to amend its case assignment
practices) equals 1 divided by (56*56*56), or 1 in
175,616.
21. As noted in Paragraph 7, there were 33 appellate
panels identified by the First Circuit between
August 1, 2018 (the effective date of the statutory
amendment) and March 13, 2019 (the date on
which four judges recused themselves). Further,
as noted in Paragraph 19, the First Circuit has
acknowledged that it did not alter its caseassignment practices at any point during this
eight-month window. In addition, as noted in
Paragraph 12, there are five additional appeals
where the panel was identified prior to the
statute’s effective date, but the court did not
issue an opinion until after the new statutes
became effective.
22. Based on my review and manual tabulation, the
twelve judges were represented as follows on
these thirty-eight appellate panels:
1st District
Theriot
Holdridge

Number
13
9

2nd District
McDonald
Guidry

Number
24
13

3rd District
Crain
Penzato

Number
21
13

196a
Lanier/
Pettigrew 4
Whipple

5

Higginbotham

12

McClendon

3

0

Welch

1

Chutz

0

23. During this period when the First Circuit
admittedly did not ensure random assignment of
cases, the distribution of appeals between judges
is striking. For example, Judge McDonald
participated in 24 of 38 appeals, while his Second
Circuit colleague, Judge Welch, participated in
only 1 of 38 appeals.
24. In order to compute the probability of Judge
McDonald appearing on 24 of 38 appellate panels
while his similarly-situated colleague, Judge
Welch, appeared on just one such panel, I made
the following computation, first, obtaining the
binomial probability of each judge being on the
appellate panel based on the data. Judge
McDonald is on 63.2%, or 24/38, of the appellate
panels while Judge Welch is only on 2.6%, or
1/38. Assuming that the judges are assigned by a
truly random allotment, these two binomial
probabilities should be equal. The differences
between these probabilities should be zero, but is
in fact 60.6%. Similar to the previous sets of
analyses, this probability of observing a
difference this extreme (60.6%) or more than is
based on calculating the probability of from a
continuous Chi-squared distribution. Instead of
adding up the numbers with the binomial
distribution , the area under the curve of the Chisquared distribution needs to be computed to get
Judge Lanier succeeded Judge Pettigrew in the 1st District,
Division A, which is why they are listed jointly.

4

197a
the probability of the differences between 60.6%
and 100%, or the most extreme difference. This
calculation yields a 106 billionth% likelihood
that Judge McDonald’s presence on 24 of 38
appellate panels, as compared to Judge Welch’s
presence on just 1 of 38 appellate panels, is
attributable to random chance. This probability
can also be expressed as an odds, 994 billion to 1.
Using the “snake eyes” die example from above,
the probability of rolling “snake eyes” 9 times in
a row is more likely than this distribution,
assuming that Judge McDonald and Judge
Welch have the same probability of getting
assigned to appellate panels.
25. Finally, I am aware that certain parties have
suggested that the First Circuit’s use of
geographic balancing promotes racial diversity
in the judiciary. That goal is laudable, but the
First Circuit’s practice of requiring one judge
from each election district to comprise each panel
does nothing to advance that objective. I
understand that the legislature has created a
geographic subdistrict for Division 2, with the
objective of creating a more racially diverse
judiciary. From a statistical perspective, the odds
that the judge elected from that subdistrict
would be placed on a particular panel are
identical, regardless of whether the panel is
selected purely at random, or whether the panel
is comprised by selecting exactly one judge from
each of the three electoral districts - either way,
there is a 25% chance of that judge being
selected. As noted above, there are 220 possible
three-judge combinations drawn purely at
random from a twelve-judge judiciary , and 55 of

198a
those 220 combinations will feature any one
particular judge. Similarly, using geographic
balancing, there are 64 possible three-judge
combinations that can be selected using precisely
one judge from each of the three election
districts, and 16 of those 64 combinations will
feature any one particular judge. Each of these
scenarios presents a 25% chance of the judge
from the electoral subdistrict being on the panel.
Thus, the use of geographic balancing does not
achieve the laudable goal of fostering racial
diversity in the judiciary or across panels.
26. I attest that the foregoing is true and correct and
within my personal knowledge.
/s/ handwritten signature
ROBBIE A. BEYL, Ph.D.
SWORN AND SUBSCRIBED BEFORE ME
the undersigned Notary Public, this 15th day
of November, 2019
/s/ handwritten signature
NOTARY PUBLIC

199a
APPENDIX L

COURT OF APPEAL
FIRST CIRCUIT
STATE OF LOUISIANA
No. 2018-CA-0075 c/w 2018-CA-0241 c/w 2018-CA0796
2018-CA-0068 / 2018-CA-1098/ 2018-CA-0419 /
2018-CA-1122
2018-CA-0907 / 2018-CA-0842 / 2018-CA-0549/
2018-CA-0421/ 2018-CA-0206
2018-CA-0117/ 2018-CA-0900/ 2018-CA-1213/ 2018CA-1323 / 2018-CA-0478
2018-CW-0364
FLORIDA GAS TRANSMISSION CO., L.L.C.,
Plaintiff
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.,
Defendant/Appellee
--PONTCHARTRAIN NATURAL GAS SYSTEM,
K/D/S PROMIX, L.L.C.,

200a
AND ACADIAN GAS PIPELINE SYSTEM,
Plaintiffs
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.,
Defendant/Appellee
--CROSSTEX ENERGY SERVICES, L.P., Plaintiff
VERSUS
TEXAS BRINE COMPANY, L.L.C., ET AL.,
Defendant/Appellee
Filed:
Deputy Clerk
STATE OF LOUISIANA
PARISH OF TANGIPAHOA
AFFIDAVIT OF HON. EDWARD JAMES
GAIDRY [RETIRED]
BEFORE ME, the undersigned Notary Public, came
and appeared
EDWARD JAMES GAIDRY,
a person of the full age of majority, who upon being
duly sworn, did depose and state as follows:

201a
1.
2.

3.

4.

5.

6.

7.

I am licensed to practice law in the State of
Louisiana.
I am a retired judge. I served on the 32nd Judicial
District Court for Terrebonne Parish from 1984
through 2002. Subsequently, I served as a judge
on the Louisiana First Circuit Court of Appeal
from 2002 through my retirement in 2012.
Based on my decade of service on the First
Circuit, I am personally knowledgeable
regarding the procedures employed by the First
Circuit in allotting appeals, writs, and motions
to the judges, including procedures that are not
identified in the “Internal Rules” of the Court.
I am aware that Louisiana law, as reflected in
article 2164.1 of the Code of Civil Procedure and
Revised Statutes §13:319, requires the random
allotment of appeals and writs by appellate
courts.
I am personally aware, based on my experience
as a First Circuit judge, that appellate panels
are selected in a manner whereby each of the
three judges on a particular panel comes from a
different election district. This arrangement
results in three judges coming from each of the
three election districts within the First Circuit.
In my personal experience, the heavy majority
of appellate panels and writ panels which I
served on consisted of exactly one judge from
District I, one judge from District 2, and one
judge from District 3.
That approach does not yield random results.
For example, in a random system, I would
expect to serve on a panel with each of the other
eleven judges of the First Circuit approximately
an equal amount of times. But under the system

202a

8.

9.

10.

11.

12.
13.

used by the First Circuit, I very rarely served
with any of the other three judges of the 1st
Election District on three judge panels.
In addition, three-judge panels are selected
using this geographic balancing process once per
year. This process yields four possible threejudge panels (absent recusals or vacancies) that
sit on the First Circuit for a given year.
It is my understanding that the system used by
the First Circuit to allot judges to three judge
panels has not changed appreciably since my
retirement in 2012.
Based on my personal knowledge, this system
does not yield random allotment for two reasons.
First, the geographic balancing requirement
prevents judges from serving on panels with
their colleagues from the same election district.
Second, the same group of three judges sit
together for an entire year.
Writ panels are also selected at the start of each
calendar year, and they are selected in a similar
fashion: three judges from each of the three
election districts are selected to serve together
for a single year.
As a result, judges in the First Circuit normally
do not serve with any of the other three judges
from their election district.
Each writ panel is identified on the calendar of
the First Circuit’s central staff at the start of the
year. Writ applications are not assigned to a
panel until a central staff attorney submits a
memorandum analyzing the merits of the writ
application and recommending a course of
action.

203a
14.

15.

16.

17.

The court’s central staff is therefore aware of the
composition of a particular writ panel at the
time that they submit their memoranda
analyzing a particular writ application.
Because the composition of the writ panels is
known to the Court’s central staff, this
framework creates the opportunity for the
central staff to manipulate which panel is
assigned a particular writ application. For
example, a staff attorney could delay the
submission of a memorandum until a particular
judge is scheduled to be on a writ panel — or
alternatively, delay issuing the memorandum so
as to ensure that a particular judge is not
assigned to address that writ application.
Although this opportunity exists, I am unaware
of any instance in which this practice has
actually occurred during the time I served on the
Court.
In addition, central staff attorneys determine
which writ applications are on the docket for an
internal writ conference. In doing so, they are
aware of which judges are on the writ panel that
will evaluate the writ applications discussed
during that conference. Again, this framework
creates the opportunity for staff attorneys to
manipulate or alter the assignment of writs.
Although this opportunity exists, I am unaware
of any instance in which this practice has
actually occurred during the time I served on the
Court, or after I left the Court in 2012.
This practice is not consistent with my
understanding of the requirements of random
allotment because it allows for writ applications
to be steered to, or away from, particular judges.

204a
18.

19.

It is my understanding that the system used by
the First Circuit to allot judges to writ panels,
or the information available to the First
Circuit’s central staff at the time that writ
reports are submitted or when dockets for writ
conferences are determined has not changed
appreciably since my retirement in 2012.
I attest that the foregoing is true and correct and
within my personal knowledge.

/s/ handwritten signature
HON EDWARD JAMES GAIDRY [RET.]
SWORN AND SUBSCRIBED BEFORE ME
the undersigned Notary Public, this 25th day
of March, 2019.
/s/handwritten signature
NOTARY PUBLIC

